<html>
<title> - OVERSIGHT HEARING ON THE IMPLEMENTATION OF THE NATIONAL FIRE PLAN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




               IMPLEMENTATION OF THE NATIONAL FIRE PLAN

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 31, 2001

                               __________

                           Serial No. 107-56

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


74-282              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 31, 2001....................................     1

Statement of Members:
    Duncan, Hon. John J. Jr., a Representative in Congress from 
      the State of Tennessee.....................................     6
    Hayworth, Hon. J.D., a Representative in Congress from the 
      State of Arizona...........................................     7
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota.........................................     7
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     8
        Prepared statement of....................................    10

Statement of Witnesses:
    Bosworth, Dale, Chief, Forest Service, U.S. Department of 
      Agriculture................................................    12
        Prepared statement of....................................    15
    Hartzell, Tim, Director, Office of Wildland Fire 
      Coordination, U.S. Department of the Interior..............    20
        Prepared statement of....................................    23
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office.............................    44
        Prepared statement of....................................    47
    Lewis, Robert, Ph.D., Deputy Chief, Research and Development, 
      Forest Service, U.S. Department of Agriculture.............    56
        Prepared statement of....................................    57
    Wakimoto, Ronald H., Ph.D., Professor of Forestry, School of 
      Forestry, University of Montana............................    61
        Prepared statement of....................................    62

Additional materials supplied:
    Sexton, John, President, Ecoenergy Systems, Inc., Statement 
      submitted for the record...................................    74

 
   OVERSIGHT HEARING ON THE IMPLEMENTATION OF THE NATIONAL FIRE PLAN

                              ----------                              


                         Tuesday, July 31, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
Room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HONORABLE SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. The Forest and Forest Health Committee will 
come to order.
    First of all, as Chairman, and speaking for the ranking 
member, we welcome all of our guests. We appreciate, Chief, 
that you were able to come over here today. I know your time is 
valuable, but we think that your input is also very 
significant.
    Also, I would like to kind of lay the ground rules for 
those that are new to the Committee. I intend to make opening 
remarks. I then will yield to the ranking member for opening 
remarks. Neither of those remarks are limited by time. However, 
we then kick into a time limit in order that we can allow all 
of our panels to have a fair opportunity to have their 
viewpoint or their input heard. So, in that regard, because, 
Chief, I understand that Mr. Laverty--and by the way, welcome, 
Mr. Laverty. I have a long-running, excellent relationship with 
you--Chief, I am going to allow you 10 minutes for testimony 
and, Mr. Hartzell, I am going to allow you 10 minutes for 
testimony. I am going to allow the General Accounting Office 10 
minutes for testimony. All other witnesses will be limited to 5 
minutes.
    And again, also, the members will each be given 5 minutes 
for their respective opening statements, although traditionally 
the members submit their opening statements.
    So, with that, before I turn it over to Mr. Inslee, who is 
the ranking member, for opening remarks, I would like to make a 
few of my own.
    The purpose of this hearing today has a couple of 
significant points. First of all, I think it is very important 
to listen and to understand exactly what the General Accounting 
Office is telling us. We know, those of us who have lived out 
in the West, and those of you who live elsewhere, but have 
experienced a forest fire, how quickly they can become a 
devastating catastrophe. We also know that the potential for 
these kind of things are only a lightning strike away.
    As a result of that, it is incumbent, it is incumbent upon 
us, as servants of the people, to be prepared to move 
immediately in an emergency situation to quell the threat or to 
minimize the threat. It is also incumbent upon us, in my 
opinion, not to wait for the 911 call, but to do the necessary 
things, such as coordination of emergency teams, communications 
between agencies, discussions and implementation of forest fuel 
cleanup, et cetera, et cetera, prior to the lightning strike 
occurring.
    I am not confident that any of this has taken place to the 
kind of degree that we need. That said, I do want to compliment 
the Chief, I want to compliment Lyle, Tim. This is something 
you have inherited, and you have got to, unfortunately, you are 
not going to be able to take this at a normal pace. You have 
got to take this as a high priority, especially in light of the 
recent tragedy that we experienced in the West.
    Let me say that I am trying to figure out, from my 
viewpoint, what can I do constructively to assist you. When we 
come to a fire, as many of you know, but for our guests in the 
audience, out in the West, we have got the U.S. Park Service, 
we have got U.S. Fish and Wildlife, we have got the U.S. Forest 
Service, we have got the Bureau of Land Management. We then 
have private property people, and some of these large ownership 
tracts have their own fire trucks. We have local Fire 
Departments, we have State Forest Service Fire Departments. 
Coordination is absolutely critical because of the mass of 
people that is necessary to fight one of these fires.
    It is amazing, if you have never been to a fire, one of 
these, to see what we have to set up just for accounting 
purposes. We have to set up our kitchens that are necessary. We 
have to set up a clothing store so we can issue uniforms. I 
mean, we have to set up a miniature city. That does not get 
done in a time-efficient manner if we do not have the best of 
coordination and the best of communication.
    So my thought was, well, maybe we need a Fire Czar. Maybe 
we need a czar that is above the agencies, for the purpose of 
coordination and communication. It is like a computer jam. We 
need somebody to flow the traffic, to get that through that 
fiber optic line, so that it is distributed to the necessary 
parties, so that response to the 911 call can be immediate.
    Now, those are my opening remarks in regards to the 
Committee.
    [The prepared statement of Mr. McInnis follows:]

  STATEMENT OF THE HONORABLE SCOTT MCINNIS, CHAIRMAN, SUBCOMMITTEE ON 
                       FORESTS AND FOREST HEALTH

    This Subcommittee has spent more time working on the issues 
surrounding wildland fire than on any other subject. This is 
appropriate. There is no other federal forest issue that results in 
more public spending, more damage to forests or more hardship for 
people. Anyone who has been surprised by the size and severity of 
forest fires during the last few years has either ignored the issue or 
has been in denial, and there is no question that denial ran deep in 
the previous Administration. Since the late nineteen-eighties, 
commission after commission, report after report, all called for a 
dramatic and improved response to this explosive situation. Even in the 
face of these dire warnings, a business-as-usual approach dominated the 
previous Administration's behavior for the better part of eight years, 
until the impacts of their negligence became undeniable and unbearable 
during last years disastrous fire season.
    Fortunately, since then, the issue has been infused with a new 
vigor in terms of greatly increased funding, and new direction in the 
form of a National Fire Plan. But the years of negligence have created 
an institutional momentum that won't be easy to curb. While some 
aspects of the fire plan are being effectively implemented, others are 
not. The GAO is going to testify that there are some crucial issues 
that have yet to be adequately addressed. The timing of their comments 
could not be better. Since this Administration is still in the process 
of staffing key positions and establishing new policies, it can use the 
GAO's remarks to help organize its basic strategies for implementation 
of the National Fire Plan. This also ties in well with the 
Administration's current collaborative efforts with the Western 
Governors'' Association to develop a ten year comprehensive strategy.
    To help ensure that these efforts move forward in an efficient, 
coordinated manner, I recently proposed that the position of ``Fire 
Czar,'' or its equivalent, be created to oversee all federal wildland 
fire operations. A position such as this would help give the issue the 
attention, direction and emphasis it deserves, and would be a unifying 
force between Departments and a catalyst for inter-agency cooperation. 
These objectives may be accomplished by other means than by the 
appointment of a ``Fire Czar''; what is most important is that the 
objectives are met.
    Even though we have a long road ahead of us, I believe, for the 
first time, that we have broad understanding and recognition of the 
problem, a critical mass of support, the financial means and the 
collective will to begin a decades long battle to protect our nation's 
forests and adjacent communities from the indiscriminate ravages of 
catastrophic wildfires. Hopefully, this hearing will help us to 
continue to move these efforts forward in a positive manner.
                                 ______
                                 
    Mr. McInnis. I have some very disturbing news that I now 
want to discuss, and, Chief, we are in the process of 
confirming this right now. So I am not trying to blind-side 
you, and at this point, it is strictly an allegation, and I 
would caution everybody in the Committee room, at this point it 
is strictly an allegation. However, I should note that if, in 
fact, it moves from the allegation stage to the fact stage, it 
is verified, it will bring about, in my opinion, serious 
consequences. And, Chief, I would hope that you would be back 
here so that we can see this never happens again. And let me 
tell you exactly what I am talking about.
    I received information that has been confirmed through 
confidential sources, as well, this party claims, has other 
public sources and has also received confirmation from the 
Forest Service itself. This regards the fire that took four 
lives 2 weeks ago. Apparently, according to these allegations, 
a water drop which was requested in an emergency--an emergency 
request for a water drop to assist those firefighters was 
delayed for a minimum of 2 hours due to the Endangered Species 
Act, and the lack of coordination or communication somewhere up 
the line, afraid to issue that order in fear of violating the 
Endangered Species Act without some kind of task force 
confirmation that, in fact, the helicopter could go in, dip a 
bucket into the river and take water out of a river that had 
endangered species.
    Let me give you the time line. Again, this is all 
allegation at this point, but I think we will be able to have 
verification shortly. Here is the time line that has been given 
to me:
    At 5:30 in the morning, Hotshots have fire contained and 
ask for helicopter support to douse the fire. Dispatch tells 
the crew boss in the field a helicopter will not be available 
until 10 o'clock that morning, when the pilots arrive.
    9:08, the Hotshot crew is replaced by a Type II crew for a 
``mop-up'' of the 30-mile fire. Gee, that is 9:08.
    At 10:22 a.m., the Type II crew begins work.
    At 12:08, Type II crew calls into dispatch asking about 
delay of 10 o'clock scheduled helicopter drop. Dispatch tells 
crew boss in field helicopters it cannot be used because of 
three species of endangered fish in, I think the Chiwawa River. 
Bull trout and fingerlings may be scooped up in the helicopter 
dipper, the bucket that the helicopter uses.
    At 1:15 p.m., single-engine tanker drop is requested by 
crew boss.
    At 2 o'clock, fisheries' biologists, fire management 
supervisor and a forest ranger for the Methow Valley finish a 
consultation and review and approve an exemption from the pact 
fish policy that governs forest. Helicopter is permitted to 
remove water from river.
    2:17, helicopter en route.
    2:38, helicopter bucket or dipper is being attached.
    3 o'clock, approximately, we think one bucket of water, 
first water was dropped.
    At 3:58, the fire exploded.
    4:17, air tankers diverted. Thirty Mile Fire too dangerous. 
Crew runs for safety, deploys survival tents.
    5:25, four firefighters pronounced dead.
    It appears that there was inaction until 10 o'clock that 
morning. It appears there may have been a delay from 12 o'clock 
to 3 o'clock, due to the Endangered Species Act, as far as 
resources focused on the fire, and it is also possible that 
there was a delay from 10 o'clock to noon, as far as putting 
the helicopter out also because of the Endangered Species Act.
    As I am sure all of you understand, I am very, very 
concerned and want to know, and, Chief, you can help us, we 
need to find out if there was a delay in putting resources on 
that fire because of the Endangered Species Act. One of the 
questions that I would like you to address is at what level in 
the field somebody can make a determination because there is a 
threat of life to override any of these jurisdictions and put 
whatever resources are necessary to save those people.
    So, with that, I will turn it over to the Ranking Member, 
Mr. Inslee.

  STATEMENT OF THE HONORABLE JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chairman. I just have a few 
brief comments.
    First off, I want to express what I am sure something 
everyone in the country feels, which is a sense of honor of the 
families who sent their sons and daughters into the paths of 
danger in these forests. And the reason I say that that is a 
sense that we share nationally, sometimes we get into arguments 
about who owns the national forests, who gets to make decisions 
about national forests: Should it be the local communities? 
Should it be the States? Should it be the entire Nation?
    I just want to say that I think everyone in the Nation 
ought to take a moment to tip their hats to the folks who deal 
with our national forests and frequently put their lives on the 
line, and the individuals who in very, very difficult 
situations made decisions in very quick periods under intense 
heat. And we should be just a little bit slow in the U.S. 
Congress to be critical of folks in this regard, and I want to 
tell you why.
    When this tragedy happened, one of the immediate thoughts 
that struck me was that it was very possible that the U.S. 
Congress would leap to action to use this multiple tragedy to 
sort of flail at whatever political message they want to drive 
home. We are the owners or possessors of 435 different 
messages, and I will resist strenuously the efforts to turn the 
loss of life and health that these individuals gave into some 
sort of whipping post to whip up particular positions on 
ideological issues about anything.
    Those who would use this to say the tax cut was wrong 
because we don't fund the Forest Service adequately, and as a 
consequence, people die, I don't want to hear those arguments. 
Those who have ideological predispositions against the 
Endangered Species Act, let us focus on the facts of this 
particular incident, rather than our ideological 
predispositions. I am going to look forward to a rational 
discussion about the specifics of this incident.
    In this regard, I would also suggest we have a couple 
thoughts, as we go through this evaluation:
    One, Chief, I hope that you now understand you sit in a 
place of constant, ubiquitous and certain criticism. If you had 
let this fire run totally and it had destroyed Eastern 
Washington, you would have been soundly criticized. You will be 
soundly criticized by folks, for a variety of reasons, in 
regard to this fire. I hope you understand that goes with the 
nature of the position. It is a tough position to be in. I 
think you are in it.
    Secondly, I hope that people don't mix issues here about 
decisions in fire suppression. There are decisions that can be 
driven by trying to preserve the ecosystem. There are decisions 
that need to be driven by safety of our firefighters. I hope in 
our discussion we will keep those separate. They are 
interrelated, but let us make sure that we keep them separate 
in our mind.
    With that, I look forward to your testimony. Thank you very 
much.
    Mr. McInnis. Before we begin the testimony, as Chairman of 
the Committee, let me advise the Committee you are free to 
discuss anything you want, as far as your policy and your 
philosophy is in regards to forest fires. I think philosophy 
has a lot to play with what has occurred out there. I think the 
fact is that sometimes our priorities get confused. Our purpose 
here is not to criticize the Forest Service, but it is to make 
constructive implementation. And certainly as elected 
representatives of the people out there, we have an inherent 
responsibility to be sure that what is supposedly going on has 
some kind of measurability or some type of standard of 
performance.
    This Committee hearing is not being used as some kind of 
political ploy, and I can assure the ranking member that if the 
allegations that I just read are, in fact, move into the 
factual status, this Committee is a very appropriate place to 
have those kind of discussions. So I am going to allow the 
Committee to have that freedom.
    We will go through the Committee. Go ahead, Mr. Duncan, you 
can make an opening remark.

STATEMENT OF THE HONORABLE JOHN J. DUNCAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. I would like to make a brief opening statement. 
Mr. Chairman, thank you very much for holding this hearing.
    I sat on this Subcommittee in early 1998, when we heard 
several experts from the Government and outside the Government 
who estimated that we had 39 million acres of forest land in 
the West in imminent or immediate danger of catastrophic forest 
fires. Then, we received that warning again in another 
Subcommittee hearing on this same subject in early 2000. Those 
warnings came true this past summer when some 7 million acres 
burned, and the damage estimates ran as high as $10 billion.
    Now, if I went out and burned 1 tree in one of the national 
forests, I would be arrested and put in jail. But because of 
the policies of the past administration, 7 million acres were 
burned and $10 billion of damage was done because there are 
extremists who don't want us to touch the national forests. And 
I am told by staff that some 6 billion board feet of trees die 
each year, and that--I don't know what the total would be for 
all of the accumulated dead trees over the years, but we were 
told by expert after expert that the primary reason that these 
forest fires get out of control is, is because of all of these 
billions, and billions, and billions of board feet of dead and 
dying trees that have accumulated over the past few years on 
the floor of the forest, and then it causes a fuel build-up, 
and that is the primary reason that we have these huge forest 
fires.
    And what we have got to realize, at some point, is that we 
have to have some common-sense management of our national 
forests or you are going to continue to see huge catastrophic 
forest fires with more loss of life and more tremendous 
economic damage in the years ahead. I hope that someday people 
will realize that you have to cut a few trees to have a healthy 
forest.
    And if the allegations that the Chairman has just talked 
about, that four people lost their lives because of some 
concern about the Endangered Species Act, and we couldn't get 
water to them in time, that is one of the most serious 
allegations I have ever heard, and it would be just horrible to 
think that there are actually Members of Congress who are 
putting endangered species ahead of human life in this country. 
That, to me, would seem to be just almost criminal, one of the 
craziest things probably that I have heard since I have been in 
the Congress.
    Thank you very much, Mr. Chairman.
    Mr. McInnis. Ms. McCollum?

STATEMENT OF THE HONORABLE BETTY McCOLLUM, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Ms. McCollum. Mr. Chairman, I look forward to this 
Committee meeting, and the rhetoric is getting pretty hot in 
here, and I think we need to step back and cool it down, and do 
it quickly up here.
    Mr. McInnis. Ms. McCollum, may I interrupt for just a 
moment?
    Ms. McCollum. Well, no, Mr. Chair--
    Mr. McInnis. Ms. McCollum, I am the Chairman. I will 
interrupt.
    Ms. McCollum. I realize that.
    Mr. McInnis. All I am going to do is ask you to speak into 
the mike, so we can hear you. Now you may proceed.
    Ms. McCollum. I am a little nervous, Mr. Chair, because I 
just heard one of the members of this Committee, I have heard 
both people, this is something that people have very strong 
opinions about how we manage our forests. And then I have heard 
the gentleman that just spoke, you know, basically, if I was to 
say right now this minute that I support some of the things in 
the Endangered Species Act, and I am sure it was not done with 
deliberate malice or intent to make me feel this way, I would 
be put at a level where I would not value human life, and I 
think we need to lower the rhetoric and go on with the 
Committee hearing.
    I am very interested in representing the State of 
Minnesota, where we have the Boundary Waters area, and we are 
very concerned about it, and we are trying to work through the 
process with the Forest Service.
    So, Mr. Chair, I know you will do a great job conducting 
the hearing, and it will be a good hearing.
    Mr. McInnis. Thank you. And I might point out that I am 
confident that no member in here is saying that the Endangered 
Species Act should take priority over human life. The concern 
here is at what point do we have the ability on the field to 
overrule or override some type of policy in existence in 
regards to endangered species or a road or whether you can use 
this kind of helicopter or that kind. We experienced it on 
Storm King Mountain. We experience it in most disasters that we 
have had in our history. Our obligation is to make this as 
clean a communication and as clear-cut as we can.
    With that, Mr. Hayworth?
    Mr. Hayworth. Mr. Chairman--
    Mr. McInnis. Mr. Otter, do you have any remarks? I will go 
in order.
    Let me, Mr. Hayworth, I am sorry. The vice Chairman has 
just stepped in. As protocol, I should recognize the vice 
Chairman.
    Mr. Peterson, do you have any remarks?
    Mr. Peterson. No, I want to wait until we get into the 
hearing. Thanks.
    Mr. McInnis. Mr. Hayworth, my apologies. You may proceed.

 STATEMENT OF THE HONORABLE J.D. HAYWORTH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Hayworth. Thank you, Mr. Chairman.
    This isn't pleasant. It isn't fun. It is not time for 
gamesmanship, but it is time for accountability, and we are 
faced with decisions here that have consequences. And our role 
in the Congress of the United States is to exercise effective 
oversight, not only dealing with the mistakes of the past, but 
how we can correct those mistakes.
    Perhaps it is inevitable that politics intersect with 
policy, but somehow to suggest that anyone would use the 
tragedy of the death of these four firefighters or anywhere 
else to try and score debating points I think is very 
unfortunate. It is captivatingly clever to try to define the 
field in a political manner and then say, ``But we are going to 
step away from that.''
    What we do need to focus on is a policy that strikes a 
balance that leads to clear-cut accountability. And in the 
words of a candidate who was successful in his pursuit of the 
presidency in 1992, he entitled his plans for the future, 
``Putting people first.''
    So, far from the roar of the greasepaint, and the smell of 
the crowd and accusations or imagined prepositioning on debate 
policy, we have a clear mission here today, Mr. Chairman. 
Something is wrong. We can't bring back those who have 
perished. We should do more than tip our hats rhetorically. The 
best tribute we can provide to those families, for whom the 
solace of words holds little recompense, is to determine an 
effective, common-sense coordinated policy that puts people 
first while respecting our environment.
    I look forward to the testimony today.
    Mr. McInnis. Thank you, Mr. Hayworth.
    I am going to ask for unanimous consent. Mr. Walden has 
requested that he sit at the dais. I think you are ready to go. 
Are you ready? So I would ask for unanimous consent to allow 
him to sit at the dais. I would ask that we do that. 
Furthermore, I think he has a couple of posters. The reason 
that I have asked Mr. Walden to attend, and he has also 
requested to attend, is obviously his district is a victim of 
these kind of fires. He has got a massive district in the State 
of Oregon. I think he is one of the leading experts in the 
House on fires, forest fuel, et cetera, et cetera, et cetera. 
So I ask unanimous consent that Mr. Walden be allowed to join 
us and allowed testimony.
    Seeing no objections, so ordered.
    Mr. Walden, you may proceed.

  STATEMENT OF THE HONORABLE GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. Indeed, 56 
percent of the district I represent in Eastern Oregon is 
controlled by the Federal Government. It includes 12 of our 
Nation's forests, 12 national forests in that district. I will 
have a full statement that I will submit for the record and try 
and condense my comments here, but I think the photos that we 
are going to show you speak louder than any words I could give 
you.
    What you will see here is the difference between treated 
and untreated--fire that has gone through treated and fire that 
has gone through untreated. The first picture that we will hold 
up just a little higher here on the left is the Deschutes 
National Forest, and it is called the Newbury fire. This is the 
untreated lodgepole, and ponderosa, and underbrush that existed 
in that forest. The interesting thing about this fire, which I 
toured after it was out last summer, is that they are in the 
process of doing, of treating these stands. And so you have a 
real opportunity to view firsthand a fire that has gone through 
both treated and untreated lands on our Federal forests. This 
is the untreated.
    The result to the right, now, if we could hold that one up 
a little bit higher, is lands like this that were pictured on 
the left untreated after the fire has gone through. And what 
the Forest Service folks told me is most of the small, skinny 
trees there are lodgepole pine. The bigger ones are ponderosa. 
And in this example, first of all, the soil has been completely 
destroyed and will be like that for some time to come. The 
lodgepole pine is very susceptible to fire, and most all of 
that will have died. And some, if not all, but some, quite a 
bit of the ponderosa pine trees, which usually are fairly 
resistant to fire, but when it gets this hot, some of those 
will die as well.
    Now, if we could go to the other set of pictures here, Mr. 
Chairman. We will first hold up a photo of the treated areas. 
This is after treatment on the same forest. As you can see, the 
underbrush has been removed. The smaller trees have been taken 
out. It has been treated by the Forest Service, part of the 
treatment program.
    Now, let us hold up how that looked after the same fire 
that went through this area. I think you will see a dramatic 
difference. Ponderosa pine, while charred, still alive. And 
they told me that a lot of the lodgepole pine through there 
would probably survive as well.
    The question I ask the Committee is which do you want for 
your forests? Which do you want? Do you want the charred 
variety on the right or the one that will sustain an ecosystem 
and come back to life much sooner? Obviously, we all want the 
one on the left. And I think that is the key about this 
hearing, in part, is how do we get more of what is on the left 
here, in terms of treatment in our national forest, so that we 
have less of what is on the right with the destruction of our 
national forests?
    Think of it as your backyard. If this was your backyard, 
which one would you want? How would you proceed? And one of the 
problems you have is, then when you have a fire that comes 
through, as we see here on the right, it can take 3 or 4 years 
to work through the process to get in and do anything to treat 
those lands, and I can show you the Tower fire in Central 
Oregon, where that was clearly the case.
    There is another example, which I don't have the photo 
right here right now, but in Wallowa County, extreme 
Northeastern end of my district, in 1990, the Canal fire 
devastated 18,000 acres of Federal lands, making the soil 
acutely hydrophobic. To this very day, a tremendous amount of 
sediment is washed into nearby streams each time a significant 
rain event moves through the area. We worry a lot out there and 
put a lot of money into restoring fish habitat and trying to 
deal with water quality and quantity. In this case, a fire in 
an untreated area has resulted in I believe it is upwards of 30 
miles of fish habitat that is victim to, and I should point out 
that is ash, not snow, that you see there, and that rushes 
through these streams for many years to come.
    So, Mr. Chairman, I appreciate the hearing that you--is 
that the picture of the Canal fire? Okay. Yes. This will give 
you an example of what is left. We talk about setbacks from 
stream sides, but look at what happens here when you get a 
catastrophic fire. That is your stream now, and it is a mess. 
And it is why some of us feel so passionately about this issue 
and about the need to be able to get in and not only improve 
the forest health, but also, clearly, to be able to have the 
tools to fight a conflagration when it does start because these 
aren't the forests of 100 years ago because we have suppressed 
fire for 100 years. We now have the overgrown forests of today. 
So, when we do get a fire, people's lives, homes, and the 
environment are extraordinarily at risk.
    So, Mr. Chairman, I appreciate the opportunity to sit on 
the dais. I appreciate the courtesy of the Committee to do that 
and your attention to this very, very serious problem facing 
the West.
    [The prepared statement of Mr. Walden follows:]

 STATEMENT OF THE HONORABLE GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                        FROM THE STATE OF OREGON

    Thank you Mr. Chairman. I want to thank you for affording me the 
opportunity to sit on this subcommittee today. I'd also like to commend 
you for holding this important oversight hearing on the progress of 
implementing fuel hazard reduction projects prescribed under the 
National Fire Plan. As a member who represents a district that is 
nearly 56% federally owned and has all or part of 12 national forests, 
this is an issue that is vital to both me and the communities that I 
represent.
    Mr. Chairman, from the Wallowa-Whitman and Malheur National Forests 
in eastern Oregon to the Fremont National Forest in south central 
Oregon, the 2nd Congressional District is home to 12 national forests, 
in addition to substantial holdings of state and private forest lands. 
Unfortunately, Mr. Chairman, due to years of poor land management 
policy by the federal government, many of the forests in my district 
have become overcrowded and thus ripe for a cataclysmic blowup similar 
to those that occurred in Idaho and Montana last year and that we just 
witnessed last week in Wyoming. I can't emphasize enough how important 
it is for us to proceed with the fuel reduction projects made possible 
by the National Fire Plan. Mr. Chairman, I saw firsthand the different 
ecological effects a fire has on areas of forest that have undergone a 
mechanical treatment versus those that have not when I took a tour of 
areas in the Deschutes National Forest affected by the Newberry Fire of 
August, 2000.
    Since pictures speak louder than words, I would like to show the 
subcommittee some pictures taken of the forest within the Newberry fire 
area before and after this fire had run its course.
    <bullet> In the first picture you'll notice an area of the 
Deschutes National Forest that has become severely overgrown, which is 
regrettably common in the forests of Eastern Oregon and Eastern 
Washington. Absent any mechanical treatment, the ponderosa pine, like 
the picture illustrates, gets choked with young trees, competing 
species and a lot of dead debris creating a flammable understory that 
is so shaded that seedlings can't grow. If a fire were to occur, the 
accumulated fuels could explode into an inferno.
    <bullet> That's exactly what we see in this second illustration 
where a fire has raged through this area of the Deschutes killing the 
ponderosa. The fire has burned so long and hot that it has killed 
animals and underground roots, and the superheated soil no longer 
absorbs rain, causing erosion.
    <bullet> Let's compare that devastation with an area of the 
Deschutes National Forest that has been mechanically treated. As you 
can see, due to this treatment a healthy ponderosa pine forest has 
developed consisting of widely spaced trees and brush. The forest floor 
contains only modest amounts of dead fuel and wood. If a fire were to 
travel through this area, it would kill only a few large trees while 
cleansing the understory of debris.
    <bullet> And as this final picture illustrates, such a 
mechanically treated forest can recover from a fire of this type 
because the fast-paced fire doesn't superheat the soil, thereby letting 
animals and underground roots survive.
    Although maintaining a healthy forest is our primary goal in 
performing mechanical treatments on our national forests, we can't 
overlook the ancillary effects that these treatments have on watershed 
health. My friends in the environmental community often forget how 
sediment runoff from a devastated area of forest made hydrophobic by a 
severe burn can affect a nearby watershed. Such a situation exists in 
Wallowa County, located in the extreme northeast corner of my district. 
In 1990 the Canal Fire devastated approximately 18,000 acres of forest-
land making the soil acutely hydrophobic. To this very day, a 
tremendous amount of sediment is washed into nearby streams each time a 
significant rain event moves through the area. This erosion not only 
delays the successful rehabilitation of the forest, but it has a 
detrimental effect on the recovery of listed species of fish.
    Mr. Chairman, I'd like to close my remarks by briefly commenting on 
the potential effects that mechanical treatments have for biomass 
cogeneration not only in my district and throughout my state, but in 
many other areas of the country as well. Disposing of the biomass that 
stockpiles on these lands from overcrowded and dying timber stands, 
timber sales that actually materialize, and thinning projects is not 
only environmentally sound, but represents a valuable resource if used 
properly. Converting forest biomass to energy is a beneficial source of 
renewable energy production--particularly during our national energy 
crunch. Furthermore, it can provide at least a slight economic boost in 
many of our struggling rural communities that were once able to rely on 
consistent employment and revenue from well-managed timber sales. Many 
of the communities in my district continue to suffer from the decline 
of timber sales on state and federal lands. Providing incentives for 
biomass cogeneration through fuel hazard reduction would provide a 
welcome economic boost to many communities in Oregon, while benefitting 
the environment by simultaneously reducing the chance of severe 
wildfires.
    Thank you, Mr. Chairman. I yield back the balance of my time.
                                 ______
                                 
    Mr. McInnis. Thank you for joining us, Mr. Walden.
    We are now going to move on to our panel. Our first witness 
on Panel I is the Chief of the Forest Service, Mr. Bosworth, 
who I think has been on the job for 8 weeks. Coming in on the 
job in the beginning of the fire season is like taking over 
command of a ship in combat. You have got a tough deal, and I 
know that you haven't been on the job very long.
    Also, we will have Mr. Hartzell. We are going to ask that 
you limit your testimony to 10 minutes each which, by the way, 
is twice what we traditionally allow our witnesses.
    Chief, I would appreciate if you would have somebody on 
your staff, I think it would be beneficial to the entire 
Committee if you would have somebody send to us written 
communication that outlines exactly what the command structure 
is at the scene of a fire that is just on Forest Service 
property, at the scene of a fire that involves multiple 
agencies, which would include private property or local 
municipalities, and I think it will help us understand a little 
better what happens when you arrive at that scene from the 911 
call or whatever call is made, how that all comes together and 
how a fire community is built to resolve that.
    Furthermore, I would appreciate, if you have some comments 
in regards to the allegations that I have repeated earlier. 
Also, I want to give you an opportunity, you have seen the 
comments or have an idea of the comments of the General 
Accounting Office, I appreciate any response you may have to 
that.
    Clearly, I would like to hear about the implementation of 
the fire plan. Again, I compliment you. Lyle, I know you are 
new on the job here. Tell us where we are. Tell us. And I think 
we should be frank with each other. As the ranking member said, 
this is what we want to achieve in this Committee. I agree with 
him.
    And then, finally, I know this is a lot of things, but I 
would like to, maybe a Fire Czar is an idea you can throw up in 
the air and discuss.
    Anyway, Chief, with that in mind, you may proceed. Again, 
we appreciate you coming today.

    STATEMENT OF DALE BOSWORTH, CHIEF, USDA FOREST SERVICE; 
        ACCOMPANIED BY LYLE LAVERTY, USDA FOREST SERVICE

    Mr. Bosworth. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear here today. I am looking forward to 
talking about the National Fire Plan and the implementation of 
the National Fire Plan.
    I am accompanied here today by Lyle Laverty, who is the 
Associate Deputy Chief, and he is also the National Fire Plan 
Coordinator for the Forest Service, and also with me is Dr. 
Robert Lewis, who is the Deputy Chief for Research and 
Development, and Dr. Kevin Ryan, who is a Project Leader in 
Fire Effects in our research station in Missoula, Montana. They 
will testify on fire ecology on one of the other panels. So 
they will answer questions about the science basis.
    I would like to just summarize my testimony and enter the 
entire piece into the record, if I can.
    Let me start first by talking about the Thirty Mile Fire. 
The Thirty Mile Fire occurred on the Okanogan National Forest. 
Four young firefighters, as you know, as you have been 
referring to, their names are Tom Craven, Karen FitzPatrick, 
Jessica Johnson, and Devin Weaver, lost their lives when they 
got trapped in a narrow canyon on July 10th. Their deaths 
occurred even though they deployed their fire shelters. 
Fortunately, there were 10 other people that deployed their 
shelters and were saved. And there were two civilians who 
happened to be in the area that were also saved in a shelter 
that they shared with one of the firefighters.
    Four of the survivors and the two civilians had some 
injuries. All, but one, of the injured were treated in a local 
hospital and later released. One of the injured firefighters, 
Jason Emhoff, received burns over 30 percent of his body, and 
he is still at the Burn Center at the Harborview Medical Center 
in Seattle.
    Shortly after I heard about the incident, I went out to the 
Okanogan National Forest, and I met with some of the injured 
firefighters. I visited with Jason and his family at the Burn 
Center. I just have to say that I really admire their courage. 
They are just hugely courageous people, and they are going 
through some, if I call it recovery, both emotionally and 
physically.
    I, also, met with some of the other firefighters while I 
was there that were in the burn-over, and once again I was 
really impressed with the professionalism of these brave men 
and women that they exhibited while they are exercising their 
day-to-day work on the fire line. Season after season, they 
protect the life and property of our country's resources.
    When something like this happens, it really impacts people 
in the Forest Service. And it isn't just the friends and the 
colleagues in the local offices that get impacted, but it has a 
huge effect on everyone in the Forest Service family because 
everyone cares deeply about these people.
    We don't know all of the reasons behind this event. We have 
an investigation that has been going on now since the fire, and 
they are working hard at doing a thorough investigation. We 
have some of the best people in the Forest Service on that 
investigation team. It will be in-depth, and it will be 
thorough, and it will be important to us, so that we can help 
make adjustments, so that we can ensure that we will have, in 
the future, that we will have even safer situations for our 
wildland firefighters.
    I would like to comment briefly about the helicopter 
business that you talked about, the bucket. I really don't know 
the details of that. I haven't heard a whole bunch about that. 
It will be part of the investigation that will be checked into. 
I do know that the places where I have worked, we pre-identify 
locations where you can draw water out of a stream. Before a 
fire occurs, we have identified where those spots are and have 
worked with the Fish and Wildlife Service and the National 
Marine Fisheries Service to try to work those things out before 
you have a fire.
    Normally, if we have an ongoing very difficult fire, then a 
decision is made, if you need water, you get water where you 
need to get it, and then you consult later, and that normally 
is worked out for us. Again, I don't know the circumstances 
here, but we will check that out, and we will report back to 
you.
    Now I would like to turn to the National Fire Plan.
    Mr. McInnis. Just a minute, Chief. I don't usually 
interrupt a witness. But I do want to point out, as you pointed 
out, one of your firefighters, and for the Committee's 
information, one of the firefighters deployed their shield, 
their burn shield--what is the technical name?
    Mr. Bosworth. Fire shelter.
    Mr. McInnis. Fire shelter. And pulled in two civilians; 
isn't this correct? Pulled two civilians into the fire shelter. 
They are made for one person. Pulled two people in who had no 
fire shelter, which then, of course, exposed, meant that she 
wasn't going to have full protection. I think it was a female 
firefighter.
    Mr. Bosworth. That is correct.
    Mr. McInnis. And I think the female firefighter suffered 
burns as a result, all three of them, but they were all three 
saved.
    Mr. Bosworth. That is correct.
    Mr. McInnis. Boy, you pin a star on her and give her the 
highest praise--to all of the firefighters--but that took a lot 
of guts, and I just want the Committee to know about the 
actions of one particular firefighter that saved the lives of 
two civilians.
    Mr. Bosworth. Thank you for adding that.
    On the National Fire Plan, for the past century, we have 
been pretty successful at preventing and suppressing unwanted 
fire. This work has been accomplished with I think the best 
intentions, to protect our growing communities, and the 
valuable forests and the rangeland resources. In some 
locations, we have had unintended consequences from that 
success, and that is the buildup of fuels, of excessive amounts 
of fuels and dense vegetation, which now when we have drought 
conditions and high winds, they can fuel devastating wildfires.
    As we have said before, there is no real short-term 
solution to this problem. We have to be in it for the long term 
in order to deal with it. While we continue with our best 
efforts to protect communities and forest lands from the 
effects of unwanted fire, we need to focus our attention to 
treating the hazardous buildup of vegetation that fuels those 
fires. I think we are at a very important turning point right 
now. The National Fire Plan really is a beginning of the 
solution.
    About 9 months have passed since the Forest Service, and 
the Department of Interior, and our State partners undertook a 
huge task of implementing the National Fire Plan. I believe it 
is a huge task. It is a monumental task. In that brief time, we 
have learned a lot of lessons, and I think we all realize that 
we have many areas where we can improve. We are dedicated to 
developing processes to expedite collaboration, providing 
common performance measures and budget planning models, and 
analyzing and managing interagency landscape-scale projects.
    And while I think we recognize that there are some 
shortcomings, we don't want to lose sight either of the 
extraordinary achievements that have occurred on the ground in 
the last 9 months. Today, national forest resources and nearby 
communities are protected by an optimum level of firefighters 
and equipment. That wasn't the case 9 months ago. During a 
recent firefighting readiness review that was held in 
California, fire managers on the Sequoia National Forest 
described how the new firefighting assets provided by the 
National Fire Plan have helped control wildfires in 1 day that 
historically would have taken 3 to 5 days to control. In Utah, 
we have spoken with people that have said that without the 
additional firefighters, many of the fires that occurred there 
this year would have grown to a much larger size. The list of 
accomplishments, I believe, is quite long, and Lyle Laverty 
will answer any questions on the specifics of those 
accomplishments.
    Last week I was out in the West, and I visited the 
Bitterroot Valley. The Bitterroot Valley was a place where we 
had, as you know, many fires last summer, lots of fire. I went 
out there because I wanted to look at mud slides that are 
occurring now that I had heard about. I flew over in a 
helicopter and looked down and saw drainage after drainage, 
where there were gullies that were 5/10-feet deep from one 
small storm that went through that dropped less than an inch of 
rain. And this is after putting hundreds of thousands of 
dollars in to try to prevent those kinds of things from 
happening. Some of the mud ended up down in some of the houses 
where the houses had been saved from the fires last summer.
    There is lots that goes on when you have that kind of 
wildfire, and there is huge potential for problems. I went to 
one drainage, where it has been a bull trout habitat, an 
endangered species, and we thought maybe that that habitat, 
about 3 miles of that stream had habitat that we thought might 
have been saved. But now with the mud down there, the 
biologists tell me there isn't any chance at all that there is 
going to be any habitat there for a long time.
    I went from there to Jackson Hole, Wyoming, to see the fire 
that was taking place there just outside of Wilson, Wyoming, 
and saw the houses that were right in the middle of the dense 
timber and watched as the firefighters were able to save those 
homes. I don't think that could have happened if we hadn't have 
had the level of firefighting force that we have today. I, 
also, think that that is a good example of the kind of places 
where you have to work hard in the wildland-urban interface to 
thin those places out so that you don't have that high 
potential for fire.
    My staff and I are going to continue to work closely with 
the Department of Interior team, and the State foresters and 
the communities to restore and maintain healthy ecosystems and 
to minimize the losses from future wildfires. We have been 
hiring and training personnel to improve future fire management 
capabilities. We are stabilizing and rehabilitating many of the 
sites that were damaged in the fires of 2000. The reduction of 
hazardous fuels reflects an expanded scale of action, with 
extensive planning underway for 2002 and 2003. In cooperation 
with the States, the list of communities at risk has been 
revised and will be an important tool to plan future projects.
    I think I will conclude my statement at this point, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Bosworth follows:]

 STATEMENT OF DALE BOSWORTH, CHIEF, FOREST SERVICE, U.S. DEPARTMENT OF 
                              AGRICULTURE

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to appear before you today to talk 
about the implementation of the National Fire Plan. I am Dale Bosworth, 
Chief of the Forest Service. I am accompanied today by Lyle Laverty, 
Associate Deputy Chief and National Fire Plan Coordinator of the Forest 
Service. Also with me today is Dr. Robert Lewis, Deputy Chief for 
Research and Development and Dr. Kevin Ryan, project leader in fire 
effects research at Missoula, Montana, who will testify on fire ecology 
in one of the other panels.
Thirty Mile Fire
    First I would like to speak briefly about the Thirty Mile Fire on 
the Okanogan National Forest in Washington State. Four young 
firefighters, Tom Craven, Karen FitzPatrick, Jessica Johnson, and Devin 
Weaver, lost their lives when they were trapped in a narrow canyon on 
the afternoon of July 10. Their deaths occurred despite the fact they 
deployed fire shelters. Fortunately, 10 other firefighters and two 
civilians in the area survived.
    Four of the survivors and two civilians were injured. All but one 
of the injured were treated at local hospitals and later released. One 
firefighter, Jason Emhoff, received burns over 30% of his body and 
remains in the Burn Center at Harborview Medical Center in Seattle.
    I went out to the fire scene after hearing of this tragedy and met 
with some of the injured firefighters and visited Jason shortly after 
the accident. I admire their courage as they recover from their 
physical and emotional injuries. I also met with other firefighters 
while I was there and was once again impressed with the professionalism 
these brave men and women exhibit while dedicating themselves to the 
fireline--season after season--protecting life, property, and our 
country's natural resources.
    When something like this happens it really impacts the Forest 
Service. Not just the friends and colleagues in local offices who 
suffer a tremendous emotional blow but everyone in the Forest Service 
family cares deeply and is affected.
    As of July 30, the Thirty Mile Fire burned 9300 acres and is 100% 
contained. Mop-up and monitoring is expected to continue throughout the 
summer. The fire burned in dense lodgepole pine, sub-alpine and Douglas 
fir stands that are 80 to 100 years old. Fires in this vegetation type 
during dry years burn with intense heat and are extremely difficult to 
suppress once they become large. When first attacked, and for several 
hours afterwards, the fire was not perceived as dangerous. It became 
dangerous suddenly with a change in conditions.
    We still do not know all the reasons behind this horrible event. 
The investigation is not complete. We want the investigation to be in-
depth and thorough because it is important for the future safety of our 
wildland firefighters that we learn all we can from this tragedy. When 
the investigation is complete, we would be happy to brief you on the 
results.
National Fire Plan
    I would like to now turn to the National Fire Plan. The severe fire 
season of 2000 captured the attention of the American people on the 
need to find ways to protect life and property and minimize losses of 
natural resources. On September 8, 2000, the Secretary of Agriculture 
and the Secretary of the Interior issued a report entitled ``Managing 
the Impact of Wildfires on Communities and the Environment.'' The 
report, referred to as the National Fire Plan, contains recommendations 
to reduce the impacts of wildland fires on rural communities, reduce 
the long-term threat from catastrophic fires, and ensure sufficient 
firefighting resources in the future.
    For the past century we have been very successful at preventing and 
suppressing unwanted fire. This work was accomplished with the best 
intentions to protect our growing communities and valuable forest and 
rangeland resources. In some locations an unintended consequence of 
this success, however, was the buildup of excessive amounts of dense 
vegetation, that now, in times of drought and wind, fuels devastating 
wildfires. These uncharacteristically intense fires threaten homes, 
communities, watersheds, wildlife habitat, and the lives of 
firefighters and the public. Each year, more vegetation grows and the 
problem becomes incrementally worse. There is no short-term solution to 
this problem. Now, more than ever, we must continue to prevent and 
suppress unwanted fires and reduce these unnatural fuel conditions. 
They have the potential to be more destructive to communities and the 
environment than ever before.
    While we continue with our best efforts to protect communities and 
forestlands from the effects of unwanted fire, we must focus our 
attention to treating the hazardous buildup of vegetation that fuels 
these fires. An aggressive fuel treatment program is the only long-term 
solution if we are to reduce the effects of unwanted wildland fire, 
restore our forests to ecologically health conditions, and protect our 
communities on a longer term basis. As we continue to find common 
ground and work in partnership with other federal agencies, states, 
tribes, counties, local communities, and Congress, we leverage our 
resources and skills, increasing our ability to solve this national 
problem. We are at a turning point. The National Fire Plan is the 
beginning of the solution.
    Less than nine months have passed since the Forest Service, 
Department of Interior, and our State partners undertook the giant task 
of implementing the National Fire Plan. It is a monumental task. In 
that brief time, we've learned many lessons, and we realize we have 
many areas in which we can improve. We are dedicated to developing 
processes to expedite collaboration, providing common performance 
measures and budget planning models, and analyzing and managing 
interagency landscape scale projects.
    While we recognize shortcomings, we should not lose sight of the 
extraordinary achievements that have occurred on the ground in the last 
nine months. Today, national forest resources and nearby communities 
are protected by an optimum level of firefighters and equipment. That 
was not the case 9 months ago. During a recent firefighting readiness 
review in California, fire managers on the Sequoia National Forest 
described how the new firefighting assets, provided by the National 
Fire Plan, have helped control wildfires in one day that historically 
have taken 3-5 days to control. In Utah, we have spoken with people who 
have said that without the additional firefighters, many of the fires 
occurring there this year would have grown to a large size.
    The rehabilitation and restoration efforts in Montana's Bitterroot 
Valley are a testament to community and agency partnerships. Research 
and feasibility studies in bio-energy and biomass production are 
underway in Colorado, California, and the Pacific Northwest, as we look 
for alternative ways to improve utilization and reduce hazardous fuels. 
Contracting Officers are working on a national contract to provide 
engines and crews from the private sector to assist us with wildland 
fire suppression and fuel treatment projects. Today, there are 
unprecedented examples of interagency and governmental cooperation 
occurring to meet these goals; this, from a program only nine months 
old.
    The list of accomplishments is long, and I am proud of the progress 
we have made in such a short time.
    In discussing the National Fire Plan, I would like to focus on 5 
key points:
    <bullet> Firefighting
    <bullet> Rehabilitation and Restoration
    <bullet> Hazardous Fuel Reduction
    <bullet> Community Assistance
    <bullet> Accountability.
    The status of our actions in these five key areas include the 
following:

Firefighting Readiness
    The National Fire Plan made funds available to increase initial 
attack capability, increase extended attack support, and provide more 
resources during large fire episodes. These additional firefighting 
resources will control more fires during initial attack, thereby 
reducing wildland fire threats to communities at risk. We have promoted 
over 980 permanent employees to fill important supervisory positions. 
Lastly, we have hired 453 people targeted to offset fire leadership 
retirements anticipated over the next five years. The cornerstone of 
the Forest Service fire safety program is the training provided to 
every individual involved in these programs.
    The Forest Service adheres to the National Wildfire Coordinating 
Group fire qualification standards. This training is reinforced with 
daily, weekly and monthly safety meetings and annual fire safety 
refresher training. In addition, Safety Briefings are given at the 
beginning of each shift on an incident.
    To enhance our readiness and attack capabilities, our scientists 
are conducting research to improve monitoring of fuel conditions, 
enhancing fire risk assessments, improve fire weather and behavior 
predictions, and increase the accuracy of long term fire severity, fire 
weather, and climatic conditions. Twenty-two research and development 
projects related to these improvements have been funded using the Joint 
Fire Sciences and National Fire Plan programs.
    While these efforts will help reduce threats to communities at 
risk, large wildland fires will not be eliminated. Long term and 
comprehensive programs in fire prevention, fire suppression, and fuel 
treatment, involving the States, tribes, communities, and other federal 
agencies, will be necessary before the current fire environment is 
changed to one that is less destructive and costly. To this end, we are 
currently working on improvements to wildland fire planning systems, 
working with the Congress to expand authorities for the use of federal 
dollars on State and private lands, focusing fuel treatment in areas 
where communities are at risk, working with other State and federal 
agencies to plan interagency landscape level fuel treatment programs, 
and expanding fire prevention programs.

Rehabilitation and Restoration
    Healthy, diverse ecosystems are resilient and less likely to 
produce uncharacteristically intense fires when they burn. In fiscal 
year 2001, we have focused on treatment of some of the areas most 
seriously damaged by fire during the 2000 fire season. In fiscal year 
2001, 437 restoration projects are underway to treat 300,000 acres. 
Watershed restoration is planned for 840,000 acres. Road and trail work 
will address more than 3,000 linear miles. Habitat restoration will be 
carried out on 500,000 acres, and forest health projects to treat 
invasive plants and suppress insects and diseases will cover 280,000 
acres. In fiscal year 2001, nine research projects are funded through 
the Fire Plan in support of rehabilitation.

Hazardous Fuel Reduction
    We are investing to reduce fire risk in communities, municipal 
watersheds, and other areas where conditions favor uncharacteristically 
intense fires. As of June 30th, treatment projects have been completed 
on more than 859,000 acres. About 80 % of these acres are treated with 
prescribed fire. The remaining 20% are treated either mechanically or 
by hand labor. Estimates of accomplishments projected through the end 
of the year continue to vary due to unseasonably dry conditions in many 
regions. In Florida, the state with the largest program, a third year 
of drought canceled most planned prescribed burning activities. A lower 
than normal snow pack in the interior West has also left much of that 
part of the country at high fire danger earlier in the season than 
normal. Currently, national program managers anticipate that actual 
hazardous fuels accomplishment will total more than 1 million acres but 
less than the 1.8 million acres target.
    The most important aspect of hazardous fuels reduction is reducing 
the threat to local communities. When it comes to reducing threat, we 
need to protect communities and help the communities to help themselves 
through changing the landscape from high risk to low risk. We'll 
accomplish that by working closely with communities on major projects. 
We will be concentrating on projects that will reduce risk.
    One dimension of the fiscal year 2001 program of work is the 
planning effort to prepare for fuel reduction treatments in fiscal 
years 2002 and beyond. The increased focus on wildland-urban interface 
areas presents additional challenges in planning, including increased 
community participation, and increased use of hand treatments and 
equipment. Nearly 1 of every 8 dollars appropriated for hazardous fuels 
reduction in fiscal year 2001 is focused on planning activities.
    Our work on the ground this year is based on planning done in 
previous years when there was less emphasis on mechanical treatment and 
the wildland-urban interface. Planning underway this year and in the 
future reflects our emphasis on the interface and ecosystem 
restoration.
    Forest Service, U.S. Fish and Wildlife Service and National Marine 
Fisheries Service are working together at national, regional and local 
levels to accomplish consultation under the Endangered Species Act of 
1973, thanks to swift Congressional action to clarify the Department of 
Agriculture's authorities.
    Our scientists are conducting research in ranking areas for fuel 
reduction efforts, determining impacts of these treatments on wildlife, 
fish and riparian areas, and developing new uses and systems for 
harvesting forest undergrowth and small diameter trees. Through the 
National Fire Plan, 24 research projects in support of Hazardous Fuels 
reduction are funded in 2001.

Community Assistance
    We are just completing a successful interagency effort with the 
States and tribes to better define the communities in the wildland 
urban interface across the United States. Using State Fire Assistance 
funds, we have helped states increase firefighting capability, and 
establish a significant new hazard mitigation program. Over 290 
mitigation projects have received grants in 2001, and over 128,000 
homeowners in the Western U.S. will receive benefits from treatments. 
The Cooperative Fire Program has also funded 10 national FIREWISE 
workshops; educating 870 community leaders from 450 communities in 41 
states about methods to increase protection for their communities. 
Volunteer Fire Assistance funds, to date in the amount of 13.2 million 
dollars, are being delivered through grants to rural Volunteer Fire 
Departments providing training and equipment for small fire departments 
that are often the first line of defense in the interface. The Economic 
Action Programs are in the final stages of awarding grants for biomass 
energy systems, small diameter market development, and community 
economic development and fire planning.
    Here are some examples:

    1) Bastrop County, Texas has received a $205,000 federal grant for 
The Texas Wildfire Protection Plan: Lost Pines Project. The grant will 
provide funding for projects that encompass education, land 
stewardship, fuel reduction, residential planning and multi-agency 
partnerships. State and local resources will add an additional $221,000 
in match for the projects.

    2) Many Southern states have joined together to use National Fire 
Plan grant dollars to fund an extensive assessment to evaluate the 
areas of the states that have the highest wildfire risk combined with 
the value of homes and improved property. The project will fund GIS 
mapping to display the most at-risk communities. The assessment will 
serve as a tool for growth planning, determination of fire resource 
allocations, as well as for educating community leaders and the general 
public.

    3) The Concerned Resource Environmental Workers received a $161,000 
National Fire plan grant to construct approximately 25 miles of fire 
breaks throughout the foothills of Ojai, CA, over eighteen months. At-
risk youth and other kids will be the workers on the project to protect 
the community. Plans are to employ as many 45 youth this summer.

    4) Governor Kenny Guinn of Nevada has announced two new public 
service announcements for radio and television, to recruit volunteer 
firefighters and seek support for volunteer fire departments in Nevada. 
Governor Guinn noted support of volunteer fire departments and 
enlistment of new members is essential to successful fire protection 
efforts in the small communities of the state. Through a grant from the 
National Fire Plan, two new public service announcements have been 
developed. Firefighters representing nine volunteer fire departments in 
Nevada were used for filming on location at the scene of last summer's 
Arrow Creek fire in Reno, and in Virginia City.

Accountability
    Oversight, coordination, program development and monitoring for 
performance are critical for the National Fire Plan. We are conducting 
a series of regional reviews to assess progress. We are working with 
Governors, the Department of the Interior and other stakeholders to 
finish a 10-year Comprehensive Strategy for implementation of the 
National Fire Plan. We have been directed by the Secretaries to fully 
integrate all of our efforts.
    We are committed to demonstrating sound accountability for the 
funds provided by Congress in support of the National Fire Plan. We 
have implemented a new financial management system that better tracks 
federal funding and expenditures. We continue to use existing and new 
information systems to track program performance and we will soon 
complete a Third Quarter Status Report on our accomplishments. The 
agency is using a new system to pilot an automated accomplishment 
reporting system for fuels, rehabilitation and restoration, and 
community assistance functions. Reporting under this system is enabling 
prompt assessment of output accomplishments. If deemed successful, this 
reporting system will be expanded for agency-wide use as early as 
fiscal year 2003. The output measures reported under the National Fire 
Plan are a key aspect of the broader agency performance measure 
accomplishment now being incorporated in the Annual Performance 
Planning process.
    The Department of the Interior, National Association of State 
Foresters and the Forest Service have jointly established an 
interagency website for the National Fire Plan where people can find 
out more about National Fire Plan Implementation and ways they can 
participate in making their homes safer from wildfire. Additionally the 
Forest Service and Department of the Interior have cooperated in 
development of the Action and Financial Plans required by Congress. We 
will continue such cooperative efforts in preparation of the fiscal 
year 2003 program that will improve the consistency of information.
Fire Management Plans, Land Management Plans and the National Fire Plan
    Ninety one percent of the national forests have fire management 
plans that guide fire suppression actions on initial attack fires and 
larger fires that escape initial attack. Many of these fire management 
plans are being updated to meet the guidelines in the 1995 Federal 
Wildland Fire Policy; however, they currently contain adequate 
direction for tactical fire suppression initial attack and fuel 
treatment.
    By December 2003, all National Forests will have a fire management 
plan that meets guidelines established in the 1995 Federal Wildland 
Fire Management Policy.

Interagency Coordination
    Successful implementation of the National Fire Plan requires a 
commitment among the federal partners to integrate their programs, to 
the maximum extent practicable, to ensure that implementation proceeds 
in a standard, consistent, and cost-effective manner across agencies. 
This we are doing. For example, we should have integrated priorities, 
accomplishment timeframes, performance measures, and reporting 
procedures. Our agencies are working to identify and quickly resolve 
implementation issues as they arise.
    Although we have made progress in some of these areas, Secretary 
Veneman and Secretary Norton have discussed the need for much more 
thorough integration of program activities between the two agencies and 
have tasked their respective Deputy Secretaries to ensure that this is 
accomplished. The findings and recommendations of the Comptroller 
General will be a useful tool in this effort.

Summary
    Mr. Chairman, while we continue with our best efforts to protect 
communities and forestlands from the effects of unwanted fire, we must 
now focus our attention to treating the hazardous buildup of vegetation 
that fuels these fires. The National Fire Plan is the beginning of the 
solution. We have come a long way and we recognize there are many areas 
in which we can improve. My staff and I will continue to work closely 
with the Department of the Interior team and the State Foresters and 
communities to restore and maintain healthy ecosystems and to minimize 
the losses from future wildfires. We are hiring and training personnel 
to improve future fire management capabilities. We are stabilizing and 
rehabilitating many of the sites damaged during the fires in 2000. The 
reduction of hazardous fuels reflects an expanded scale of action with 
extensive planning underway for 2002 and 2003. In cooperation with the 
States, the list of communities at risk has been revised, and will be 
an important tool to plan future projects.
    This concludes my statement; we would be happy to answer any 
questions you or Members of the Subcommittee might have.
                                 ______
                                 
    Mr. McInnis. Chief, before we take questions, we are going 
to go ahead and finish the panel.
    Mr. Hartzell, thank you for making time to come over here 
today and discuss and meet our Committee, again. You may 
proceed, Mr. Hartzell. You have 10 minutes.

 STATEMENT OF TIM HARTZELL, DIRECTOR, OFFICE OF WILDLAND FIRE 
         COORDINATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hartzell. Thank you, Mr. Chairman and members of the 
Committee. I would like to thank the Committee members for 
their kind words about the concern for the safety of our 
firefighters. I make that acknowledgment for three reasons:
    One, as an employee who lost a supervisor on a fire in 
Idaho; a supervisor who lost an employee on a fire in 
Colorado--
    Mr. McInnis. I am sorry, could you pull the mike a little 
closer.
    Mr. Hartzell. Yes. And, lastly, a witness who has three 
children fighting fire in the West right now. So I would like 
to acknowledge the Committee for their concern for the 
firefighters' safety.
    Mr. Chairman, I am here to talk about our success in 
implementing the National Fire Plan. The National Fire Plan is 
a very big effort. It is a bigger task I think than any of us 
realized. The National Fire Plan represents an unparalleled 
amount of work for both our fire community and our resources 
community.
    And I think we need to recognize we are suffering from a 
period of inactive management, public land management, and as a 
result, we have a huge job ahead of us. We have tremendous fuel 
buildups, and we have tremendous issues to deal with, but we 
can't accomplish the strategy laid out in the National Fire 
Plan overnight, we can't accomplish it in a month or two, and 
we certainly couldn't accomplish it in the first 6 months of 
this administration. But I am here, and I am pleased to report 
that we have made significant progress, and I am also here to 
acknowledge that much remains to be done.
    I think our progress is reflected in several areas, and I 
will highlight specific examples of what we have done to date. 
But we have made significant strides in increasing our 
collaboration with States and local communities and tribes. We 
have made significant strides in increasing the level of our 
fuels treatment. We have shown that we are capable of working 
more closely together, in a seamless fashion, with the Forest 
Service.
    A few statistics to help you understand how far we have 
come in a short time. We have already completed rehabilitation 
on more than one million acres of the severely burned lands 
from last summer. Our target was 1.4 million acres. We are now 
very close to achieving that target.
    A year ago last year we had roughly 4,700 firefighters and 
support staff in the field. Because of the National Fire Plan 
and our hiring commitments, we have an additional 1,800 people 
in our fire program. I think it is important to know that, of 
those, 1,400 are front-line firefighters, and they are out 
there on the ground, throughout the country today.
    Also, we have placed orders for almost all of the necessary 
firefighting equipment that we had listed in our financial and 
action plan, which we sent up to the Congress in January. 
Included in that amount are 40 new heavy engines and 38 new 
light engines. And, in addition, we have contracted for 10 
additional fixed-wing aircraft and 11 additional helicopters.
    Last fire season, because of the intensity and magnitude of 
the fire season, resources were stretched throughout the 
country. We experienced some difficulty in hiring firefighters 
with the necessary supervisory experience. This year we are 
doing several things to counter that:
    One, we are using financial incentives; one, we are waiving 
the mandatory separation age for physically fit supervisory 
firefighters this year; and we are establishing or we are about 
to establish a cooperative agreement with Australia and New 
Zealand that will allow us to use upwards of 200 of their 
experienced supervisory personnel if the fire season demands.
    We also estimated, under the fire plan, that we could 
provide assistance to 820 rural Fire Departments throughout the 
country. We would provide this assistance with a new $10-
million appropriation we got for that purpose this year. I am 
pleased to tell the Committee that, as of the end of June, we 
have already provided assistance grants. We have made 945 
assistance grants to these small, rural fire departments.
    Also, since February, when our new Secretary took office, 
we have treated nearly an additional 430,000 acres of hazardous 
fuels, compared to only 100,000 acres in the first 4 months of 
the fiscal year. Depending on weather conditions, we may be 
able to treat another 250,000 acres before the end of the year. 
I want the Committee to know that we will continue this vital 
fuels treatment work, and we are committed to, and ready to 
complete, treating the 700,000 acres that may be carried over 
into next fiscal year as early as this fall.
    Also, to ensure that we meet our commitments to fuels 
treatment, we have designated one person in each of our four 
bureaus as a fuels treatment coordinator to ensure that this 
important work is carried out and that it is coordinated across 
administrative boundaries.
    One aspect of our fuels work that I would like to mention 
needs improvement and will get improvement is our outsource 
contracting. We are not yet satisfied with the level of 
contracting activity. We are addressing this problem in several 
ways. Most importantly, perhaps, by hiring additional 
contracting personnel. We are also assuring that all of our 
agencies, not just Interior, but between Interior and Forest 
Service, share contracting lists, and we post, also, on our 
National Fire Plan website the names and phone numbers of all 
of our fuels management and contracting specialists.
    One of the problems we encountered is that many of the 
small communities throughout the country lack a contracting 
infrastructure, and this is a difficult problem to solve. In 
these communities, we are conducting a substantial amount of 
outreach. We are going to the community leaders, we are going 
to the businesses, we are going to the Chambers of Commerce, 
and we are going to the newspapers, we are going to community 
colleges to explain to people the opportunities that will occur 
in the future, and do occur now, for contracting for fuels 
hazard reduction.
    I think it is also important that I talk a bit about our 
need in the Department of Interior to establish even a better 
implementation track record with the National Fire Plan with 
the Forest Service. One of the things the Committee should be 
aware of that in the first week on the job our new Deputy 
Secretary, Mr. Griles, had a meeting with his counterpart at 
the Department of Agriculture to talk about ways that they 
could improve the collaboration in the oversight and 
accountability as we jointly administer the National Fire Plan.
    The other thing that I would like to draw to your attention 
is the fact that we have a Secretary that is actively engaged 
in the National Fire Plan and the monitoring and oversight of 
the National Fire Plan. And she is very interested in the fire 
program, in general, and our success on the ground. She has 
done several things that have been very helpful to us.
    One, she immediately exempted firefighters from the 
government-wide hiring freeze.
    She also has issued a couple memorandums that are moving us 
down the road to better coordination within our Department. 
Number one, a memorandum that established a National Human 
Resources Committee to assure coordination for the hiring of 
firefighters the next fiscal year; and, secondly, a National 
Fuels Coordination Team.
    I think that the two Departments have been working closer 
than ever before, as we implement the National Fire Plan. I am 
in regular contact with my counterpart at headquarters, Mr. 
Laverty. There are several long-term issues with the National 
Fire Plan that we are going to address, we plan to address and 
are addressing.
    Number one, together with the Office of Management and 
Budget, we are going to be reviewing our current model for 
determining the number of firefighting personnel and the 
equipment needed for a normal fire season. And our objective is 
to update that model to reflect current conditions, revise 
policy in the strategic direction contained in the Federal 
Wildland Fire Policy and the National Fire Plan.
    The other thing the Committee should know is that we are 
conducting a full audit of our fire suppression dollars this 
fiscal year, and we also plan to be revising our performance 
measures to ensure uniform accountability between the Forest 
Service and the Department of Interior. We will do that jointly 
with the Forest Service.
    We are also increasing our emphasis on updating our fire 
management plans. And both of our Departments are working 
jointly with the National Academy of Public Administration to 
develop a joint set of recommendations to improve 
accountability in the program.
    And, lastly, I want the Committee to know that we are 
determined to work with the National Academy of Public 
Administration. We are determined to work with the General 
Accounting Office, OMB, State foresters and any others who make 
thoughtful and sound suggestions for improving the fire 
program.
    Before closing, I would like to say that we have talked 
about the tragic loss of firefighters in Washington, and with 
that in mind, in getting ready for this fire season, our 
emphasis has been on training, training and recertification of 
our existing firefighters. We feel that our firefighters are 
appropriately trained for the type of assignment they are 
given. When they are dispatched to a fire, we believe it is 
within the full confidence that they have the training, the 
knowledge, and the experience required for the task ahead.
    Firefighter training has been developed by fire experts 
over many decades. Safety is emphasized in every course we do. 
In everything we do, everything we say, safety is emphasized.
    Mr. Chairman, I appreciate the opportunity. We believe we 
have made good progress toward reversing the trend of the 
deteriorating trend of our forests, and we look forward to 
continuing to work with the Committee.
    [The prepared statement of Mr. Hartzell follows:]

 STATEMENT OF TIM HARTZELL, OFFICE OF WILDLAND FIRE COORDINATION, U.S. 
                       DEPARTMENT OF THE INTERIOR

    Good afternoon, Mr. Chairman and members of the Committee.

Introduction
    I appreciate the opportunity to address this committee concerning 
the Department of the Interior's progress on the implementation of the 
National Fire Plan. My name is Tim Hartzell and I oversee the Office of 
Wildland Fire Coordination for the Department of the Interior. I am 
pleased to report that the Department of the Interior firefighting 
agencies have made significant progress in implementing the National 
Fire Plan. We at the Department of the Interior are grateful for the 
opportunity and recognize that there is more work to do that will be 
done in order to lessen the dangers to communities at risk, restore 
ecosystems and the natural role of fire, protect our critical natural 
resources, and most importantly, keep our firefighters and the public 
safe.

General Overview And Progress To Date
    The National Fire Plan represents an unparalleled amount of work 
for the fire community at every level. It is a huge job, one that 
cannot be accomplished overnight, or in two months or in the first six 
months of the Administration. However, the Administration has made 
progress. That progress is reflected in our hiring, fuels treatment 
projects, collaboration with States, tribes and local communities, and 
in our efforts to make sure the Forest Service and the Department of 
the Interior are working together to protect lives and property and to 
care for our damaged ecosystems.
    A few important statistics tell the progress we have made:
    This year, as in previous years, more than 95% of fires are 
suppressed while they are still small.
    We have already completed rehabilitation on more than 1 million of 
the 1.4 million acres that were severely damaged by fires last year.
    A year ago, more than 60,081 fires burned 3.4 million acres. As of 
today, 49,708 fires have burned 1.5 million acres. This year's fire 
season is also below the 10 year average of 52,735 fires and 1.9 
million acres burned.
    A year ago at this time, we had 4,710 fire fighters and support 
staff. This year, we have 1,800 more people in the fire program, and of 
those, 1,400 are front-line fire fighters.
    We have placed orders for almost all the necessary firefighting 
equipment and contracted for additional aircraft called for in the 
National Fire Plan to support wildland firefighting.
    During last year's fire fighting season we experienced difficulty 
in hiring supervisors with fire experience. This year we are using 
financial incentives, waiving mandatory retirement ages for physically 
fit fire fighters and establishing cooperative agreements with other 
countries that allow us to use their supervisory personnel if the fire 
season demands.
    Since February 1st, when Secretary Norton took office, more than 
413,000 acres of fuels treatment have been done, as compared to 100,000 
acres in the first four months of this fiscal year. Depending on 
weather conditions, an additional 250,000 acres will be treated before 
the end of the fiscal year. More acres would have been treated had it 
not been for severe drought conditions and moratoriums placed on 
prescribed burns. We will continue this vital fuels treatment work into 
the next fiscal year to complete the remaining 700,000 acres of 
projects that are ready to be treated. We have selected one person at 
each of the Department's four bureaus with fire fighting 
responsibilities to coordinate fuels treatment work. We are already 
working with the states to identify further fuels treatment projects, 
and to complete the environmental clearances necessary so that fuels 
treatment work can begin. One aspect of the fuels treatment work that 
needs and will get improvement is outsource contracting. We are not yet 
satisfied with our level of contracting activity. We are addressing 
this problem by hiring additional contracting personnel, sharing 
contractor lists among all agencies and posting on our websites the 
names and telephone numbers of Federal employees directly responsible 
for contracting. Many communities lack contracting infrastructure. This 
is a more difficult problem to solve. In these communities, we are 
conducting outreach for community leaders, businesses and chambers of 
commerce. One example of this was BLM's program to hire 80 unemployed 
farmers in Klamath Falls, Oregon, to do fuels treatment work.
    The Department of the Interior is also addressing the need to 
establish even better implementation of the National Fire Plan and to 
work more closely with the U.S. Forest Service. In the first week after 
Deputy Secretary Steve Griles was confirmed by the Senate, Secretary 
Norton directed him to work with his counterpart at the Department of 
Agriculture to develop cabinet-level joint oversight of the fire 
program, and to develop one set of goals and performance measures. 
Deputy Secretary Griles has already met with Agriculture Deputy 
Secretary Jim Mosely to begin work, and even more important, to 
conclude it.
    Even before Deputy Secretary Griles was confirmed, Secretary Norton 
has been working to improve Interior's fire suppression and fuels 
treatment programs, and to seek better cooperation with the U.S. Forest 
Service. Her first visit outside Washington was a working session with 
the fire directors at the National Interagency Fire Center in Boise. 
Her first official acts as Secretary were to exempt firefighters from 
the government-wide hiring freeze and to release more money to do more 
environmental clearances for fuels treatment projects. Her chief of 
staff holds weekly meetings to identify and review obstacles that are 
impeding progress in achieving hiring and fuels treatment goals. 
Secretary Norton has asked for a report on how Interior's four bureaus 
can work more cooperatively in both suppressing fires and doing fuels 
treatment.
    The Interior and Agriculture Departments have been working closer 
than ever before. I am in regular contact with my counterpart at the 
Department of Agriculture. Together with the Office of Management and 
Budget, the Interior Department and Forest Service will be reviewing 
the current model for determining the number of firefighting personnel 
and equipment needed for ``normal fire seasons'' with the objective of 
updating that model to reflect new information and data, revised policy 
and the strategic direction of the National Fire Plan. We will be 
conducting a full audit of dollars expended in the fiscal year 2001 
fire season. We will also be revising performance measures, along with 
the Forest Service, to assure accountability and consistent results of 
the National Fire Plan. We will be working with our land managers to 
update fire plans. Both of our departments are working cooperatively 
with the National Academy of Public Administration to develop a joint 
set of recommendations to improve the program. We are determined to 
work with NAPA, GAO, state foresters and others who make thoughtful and 
sound suggestions for improving the fire program.
    The next few weeks will decide the scope and magnitude of the fire 
season. We have greatly benefitted by the good fortune of having fewer 
ignitions. However, it is also true that some of the success we have 
had so far can be attributed to having more fire fighters, more 
equipment, and having done more fuels treatment. We are grateful for 
the bipartisan support that the fire program has had in Congress.
    Before further highlighting the work we have done and the work that 
remains to be done in implementing the National Fire Plan, I would like 
to talk about keeping our firefighters and the public safe in light of 
the recent loss of five firefighters.

Firefighter and Public Safety
    On the afternoon of July 10th, fourteen firefighters and two 
civilians took refuge in fire shelters in Washington State's northern 
Cascade Mountains. Four of the firefighters who deployed their shelters 
in a boulder field did not survive. On the same day, an air tanker 
crashed in northern Idaho, claiming the pilot's life.
    When a firefighter dies, a genuine, deeply felt sorrow ripples 
through the fire community. No one is immune from the sense of grief. 
Everyone pauses and reflects on the risks that are a part of 
firefighting, and how things can be made safer next time. My hope is 
that, in the aftermath of tragedy, everyone in the fire community is 
again reminded that safety always comes first. Secretary Norton issued 
a reminder to everyone that safety is our primary responsibility. 
Firefighting is an inherently dangerous occupation, and we cannot 
mitigate every hazard. What we can do is recognize risk, manage it, and 
minimize it, whenever possible.
    In getting ready for this fire season the emphasis has been on 
training and re-certification. Federal firefighters are appropriately 
trained for the type of assignment they are given. When they are 
dispatched to a fire, it is with full confidence that they have the 
training, knowledge and experience required for the task ahead. 
Firefighter training has been developed by fire experts over many 
decades. Safety is emphasized in every course, from basic training 
through the most advanced classes. Firefighters are trained to remain 
calm, think clearly, and act decisively in potentially dangerous 
situations. This training has prevented untold numbers of entrapments, 
injuries and fatalities.
Accomplishments under the National Fire Plan
    The National Fire Plan directs that the Departments of Agriculture 
and the Interior carry out the following activities:
    <bullet> Continue to make all necessary firefighting resources 
available
    <bullet> Restore landscapes and rebuild communities
    <bullet> Invest in projects to reduce fire risk
    <bullet> Work directly with communities
    <bullet> Be accountable
    As outlined by the following summary of accomplishments, we have 
made significant progress on all fronts.

1. Continue to Make All Necessary Firefighting Resources Available
    Preparedness. This year marks the first year the Department of the 
Interior has been funded at the full readiness level. Thanks in large 
part to Congress, we are better prepared to fight fires this year than 
ever before. This funding has increased our ability to hire additional 
firefighters and purchase necessary equipment. As a result, we are 
better able to respond to initial attack incidents efficiently, 
effectively and safely. Because of the time lag between ordering and 
delivery of much of the specialized firefighting equipment, it will 
take up to one year to realize the full potential from this funding 
increase.
    Hiring. The Department has made hiring a top priority. In April 
2001, Secretary Norton recorded firefighter recruitment public service 
announcements (PSAs), which were distributed to 5,000 radio stations 
nationwide. This markedly increased interest in our firefighter 
program. As of July 25, 2001, the Department has hired approximately 80 
percent of a total of 8,103 fire personnel--approximately 1,800 more 
than last year. Of this increase, approximately 1,400 are frontline 
firefighters.
    One important component of hiring was the conversion of a large 
number of positions from temporary to career status. This provides the 
Department with additional supervisory capabilities on large fires. The 
effort continues to be a work-in-progress and will not be completed 
until next year. When finished, it will significantly increase large 
fire suppression capabilities, as well as further improve our initial 
attack capabilities.
    Purchase of additional fire equipment and contracting for 
additional aircraft. All or most of an additional 110 pieces of 
equipment have either been purchased or ordered. All or most of the 
contracts for an additional 24 aircraft, including helicopters, single 
and multi-engine airtankers, large air transport, air attack and 
smokejumper (jumpships) aircraft have been processed.
    Re-evaluating normal year readiness calculation. The Department is 
jointly re-evaluating normal year readiness calculations with the 
Forest Service for consistency between the agencies, to use the most 
current science available in determining preparedness needs, and to 
factor in performance measures.
    Agreements with Australia and New Zealand for firefighting support. 
The Departments of Agriculture and the Interior will soon sign 
agreements with Australia and New Zealand to formalize the exchange of 
fire suppression assistance. Both Australia and New Zealand assisted 
the Departments last year, during the worst fire season in 50 years. 
This could provide up to 200 additional supervisory firefighters as the 
fire season warrants.

2. Restore Damaged Landscapes and Rebuild Communities
    Burned Area Rehabilitation. The Department of the Interior targeted 
approximately 1.4 million acres that were severely damaged from last 
year's fires. As of July 25, 2001, we have completed 80 percent of the 
rehabilitation work. Much of this work is multi-year projects, with 
immediate site stabilization followed by restoration of native 
vegetation. Successful restoration, especially on public rangelands 
devastated by the annual weeds and wildland-fire cycle, is critical to 
the long-term health of these ecosystems and an eventual return to a 
more natural fire regime and reduction of catastrophic blazes. The 
Department recently revised its Departmental Manual on Burned Area 
Emergency Stabilization and Rehabilitation. To implement the manual, a 
draft handbook was distributed for use during the 2001 fire season. 
After this fire season, it will be revised in light of what worked and 
what did not.
    Native Plant Materials Development Program. To protect areas 
severely damaged by wildfire and unlikely to recover naturally, an 
interagency team of Department of the Interior and Department of 
Agriculture employees has been formed to develop a long-term strategy 
to supply native plant materials to meet this need. This team is 
developing a strategy to increase the supply of native seed, with the 
help of our non-Federal partners.

3. Invest in Projects to Reduce Fire Risk
    Hazardous fuels treatments. For Fiscal Year 2001, the Department 
planned to treat hazardous fuels on an estimated 1.4 million acres. 
Much of this was to be accomplished through the use of prescribed fire. 
The Department may not achieve this acreage due to drought conditions 
in the Southeast, Pacific Northwest, Northern Great Basin, and Northern 
Rockies. A severe fire season may also hamper fuels treatment efforts, 
as many of the same personnel involved in fire suppression are also 
responsible for prescribed fire project planning and implementation. As 
of July 23, 2001, we have treated 515,348 acres.
    Secretary Norton issued a memorandum to bureau directors to ensure 
that coordinated, efficient and effective fuels treatment occurs on all 
Interior lands. This memo established a fuels management team to 
provide guidance for fuels treatment project selection and to 
coordinate with the Forest Service and State agencies.
    Wildland Urban Interface (WUI) interagency collaborative working 
groups. The Department of the Interior has worked with the Forest 
Service, the National Association of State Foresters, the Western 
Governors'' Association, and other State organizations to establish 
locally led interagency teams that will prioritize hazardous fuels 
treatment projects in the wildland urban interface. Instruction 
memoranda have been provided to these groups to help them select 
projects for treatment. This process will guide implementation of the 
national fuels reduction program in the WUI for fiscal year 2002 and 
provide a preliminary project list for fiscal year 2003.
Utilizing Small Diameter Material and Other Biomass.
    <bullet> Joint Fire Science Program (JFSP) research. A large, 5-
year project begun in 1999 includes 11 sites nationwide where 
scientists will study the fuels ``treatment costs and utilization 
economics'' of biomass, including small diameter fuels. Research is 
planned on evaluating factors affecting the feasibility of economically 
viable utilization of biomass material removed to reduce fire hazard 
and fuel loading.
    <bullet> Buncom Landscape Project, in the Bureau of Land 
Management (BLM) Medford (OR) District, utilized small diameter trees. 
This forest health project focused on the restoration of oak and pine 
savanna habitat for the benefit of wildlife and fire prevention. 
Landowners coordinated thinning, burning, planting, and noxious weed 
control treatments with their neighbors and the BLM to create wildlife 
habitat that reaches across numerous ownership boundaries and connects 
watershed uplands with aquatic lowlands. Small diameter trees were 
thinned to reduce the effects of years of fire suppression. 
Approximately 95,000 trees yielded more than 18 million board feet, and 
provided jobs for numerous local contractors.
    <bullet> Eastern Nevada Landscape Restoration Coalition project, 
Ely, NV, producing biomass material. The BLM Ely District in eastern 
Nevada has committed to produce 50,000 to 100,000 tons per year of 
pinyon-juniper biomass to restore and improve habitat for sage grouse 
and Rocky Mountain elk. The project will treat over 100,000 acres in 
fiscal year 2001. The coalition involves 75 Federal, State, and local 
governments, private foundations and environmental groups, and local 
community and industry leaders. The coalition is exploring markets for 
the biomass material, including fuel for wood-stove pellets, bioenergy 
or co-generation, fiber or flakeboard and a variety of other 
nontraditional forest products.

Allocating Necessary Project Funds.
    Transfer of funds for environmental consultations. In addition to 
the allocation of project funds to appropriate field units, funds were 
transferred to the Fish and Wildlife Service (FWS) and National Marine 
Fisheries Service (NMFS) to hire personnel to facilitate threatened and 
endangered species consultations. The FWS and NMFS have added staff to 
accommodate the increased workload, and are working cooperatively with 
the Fire agencies to plan projects for fiscal year 02 and beyond. This 
will expedite fiscal year 2002 and 2003 clearances for fuels treatment 
projects designed to reduce risks to communities and priority 
watersheds.

4. Work Directly with Local Communities
    Contracting with local businesses and organizations. In January 
2001, the Department of the Interior, along with the Forest Service, 
developed policy guidance to implement a streamlined approach to 
awarding contracts to local businesses and organizations for hazardous 
fuels treatment projects and landscape restoration. This policy will be 
implemented on an interagency basis in each of the 11 Geographic Areas 
currently used for firefighting coordination across the country. In 
each Geographic Area, one of the Federal agencies has taken the lead 
for contracting. In some cases, the geographic area has been subdivided 
and agency leadership designated to facilitate work. The policy 
requires an organized approach for community outreach and coordination 
to locate and develop firms with which we can contract and assist 
communities developing local fuels reduction and restoration 
capability.
    Increasing employment and contracting opportunities in Idaho. The 
Department, along with the Forest Service and the State of Idaho are 
working together to increase opportunities for local contracting and 
recruiting in support of the National Fire Plan, particularly for 
unemployed natural resource workers, including ranchers, farmers, 
loggers, and forest product workers.
    Increasing employment and contracting opportunities in Oregon. The 
BLM Klamath Falls Office, OR, has started a 3,000 acre wildland urban 
interface fuels reduction project that includes tree thinning, brush 
removal, and slash piling in and around Bly Mountain. The project is 
providing temporary jobs for up to 80 displaced farm workers in the 
drought-devastated Klamath Basin. The BLM has hired four contractors 
who have begun recruiting workers in the local area. The Oregon 
Department of Forestry and local elected officials are assisting the 
BLM in planning, support, and community relations.

Improving Local Fire Protection Capabilities Through Financial and 
        Technical Assistance to State, Local, and Volunteer 
        Firefighting Efforts.
    <bullet> Rural Fire Assistance. In 2001, Congress established a 
new $10 million Rural Fire Assistance program. The Department developed 
policy to guide implementation of this pilot program. The program is 
providing rural fire departments with needed assistance in training, 
equipment purchase, and prevention activities to increase firefighter 
safety, enhance fire protection capabilities, enhance protection in the 
wildland urban interface, and increase the coordination among local, 
State, Tribal, and Federal firefighting resources. The Department 
estimated that approximately 820 of the 3,223 rural/volunteer fire 
departments adjacent to Interior lands and within the wildland urban 
interface would receive funds and benefit from the pilot program this 
fiscal year. As of June 2001, 944 awards have been given to rural and 
volunteer fire departments, totaling $5.1 million.

Expanding Outreach and Education to Homeowners and Communities about 
        Fire Prevention Through Use of Programs such as FIREWISE.
    The FIREWISE program, developed by the National Wildfire 
Coordination Group in 1986, provides information to homeowners, county 
officials, building contractors, firefighters and others about 
practices that can lessen the risk of wildfires to communities. Through 
the National Fire Plan, $5,000,000 is targeted in fiscal year 2001-3 
for development and delivery of a series of national FIREWISE 
workshops. Participants at the State-level workshops might include 
representatives from the construction industry, homeowners 
associations, insurance industries, local governments, and rural fire 
departments. The workshops are presented as a ``Training-of-Trainers'' 
experience, with the expectation that participants will return to their 
host organizations or communities and, in turn, conduct similar 
workshops at the local level. The Secretaries of Agriculture and the 
Interior will soon record interagency public service announcements to 
increase awareness of the FIREWISE program.

5. Be Accountable
    Interagency coordination. The Departments of Agriculture and the 
Interior coordinate with each other on an ongoing basis. 
Representatives in each Secretary's office work together to ensure 
consistency of policy and messages. Individuals at both the Forest 
Service and Department of the Interior responsible for implementing the 
National Fire Plan work closely together.
    Monitoring of implementation. The Department is monitoring fire 
management programs. The Rural Fire Assistance pilot program will be 
evaluated at the end of this fiscal year to determine effectiveness. 
The Council on Environmental Quality has made several site visits to 
determine how the environmental review process occurs (NEPA/ESA 
consultation) on hazardous fuels treatment projects. In addition, we 
have taken other steps to be more accountable:
    <bullet> Recommending staffing for a Department of the Interior 
wildland fire policy office. The objective of the office is to ensure 
the implementation of the National Fire Plan and the Federal Wildland 
Fire Policy, coordinate budget formulation and fire policy, provide 
program oversight, measure program performance, and ensure 
accountability.
    <bullet> Development of a National Fire Plan Data Reporting 
System. A contract has been awarded to develop an automated database to 
track progress in meeting the goals set out in the National Fire Plan, 
related documents, and associated performance measures. The target is 
to have a pilot system operational by the end of 2001.
    <bullet> National Academy of Public Administration (NAPA) Report. 
The Department has commissioned a report by NAPA, which will 
concentrate on six areas from the 2001 Review and Update of the 1995 
Federal Wildland Fire Management Policy:
      * LManagement accountability
      * LInteragency coordination
      * LIntergovernmental coordination
      * LImproving risk management
      * LWorkforce management
      * LInstitutionalizing lessons learned
    NAPA expects to complete the report by mid-November, 2001. Results 
of this study, along with internal reviews, will be used to review 
oversight and coordination mechanisms of the National Fire Plan and to 
assure that an effective strategy is in place to institutionalize the 
2001 Federal Wildland Fire Policy.
    <bullet> DOI Cohesive Strategy - The Department of the Interior is 
developing a cohesive strategy to provide the Interior agencies with a 
framework for reducing the risk and consequences of unwanted wildland 
fire by protecting, maintaining, and restoring land health and desired 
fire cycles. This strategy has been coordinated with the Forest 
Service.
    <bullet> 10-Year Comprehensive Strategy. Developed by the 
Department and the Forest Service in partnership with the Western 
Governors'' Association, this strategy will be a template for how the 
Departments of Agriculture and the Interior will collaborate on the 
National, State, and local level to implement the National Fire Plan.
    <bullet> Interagency National Fire Plan website. The Department of 
Interior and the USDA Forest Service, with feedback from the National 
Association of State Foresters, developed a joint National Fire Plan 
interagency website (www.fireplan.gov). The goals for the website are 
to:
      * Provide an interagency information clearing house
      * Provide one place for the public to get information on a 
variety of topics
      * Provide mechanisms for public involvement in implementing the 
National Fire Plan
      * Demonstrate that Federal and State wildland fire agencies are 
taking a cohesive and carefully planned approach to implementing the 
2001 appropriation
    <bullet> The Southwest Strategy. The Southwest Strategy is a 
community development and natural resources conservation and management 
effort among Federal, State, Tribal and local governments working in 
collaboration to restore and maintain the cultural, economic and 
environmental quality of life in the states of Arizona and New Mexico. 
A Fire Plan Implementation Coordination Group under the Southwest 
Strategy integrates local interagency and inter-Tribal planning and 
implementation of the National Fire Plan among the States of Arizona 
and New Mexico.
    <bullet> Interagency Fire Management Cooperation in the Pacific 
Northwest. The Oregon/Washington BLM Branch of Fire and Aviation 
Management, and the Forest Service Pacific Northwest Region, 
Directorate of Fire and Aviation Management, have been officially 
integrated at the State Office and Regional Office level since 1995. 
Employees work on an issues basis, rather than on an agency basis. The 
National Fire Plan is implemented on an interagency basis. The 
interagency office works with all of its State, local and Federal 
partners in all aspects of fire management.
    <bullet> Wyoming Governor's Wildland Fire Action Team. All 
Department of the Interior bureaus participate in this 
intergovernmental fire steering group. The team was established to 
coordinate all fire suppression and fuels reduction activities in 
Wyoming.
    <bullet> National Fire Plan Collaboration Coordinators Conference 
Denver, Colorado. A cornerstone of the National Fire Plan has been 
enhancing the communication among all partners in the wildland fire 
management arena. To this end, all of the National Fire Plan 
coordinators from the Department of the Interior and the Forest 
Service, and representatives from the Environmental Protection Agency, 
Council on Environmental Quality and others, assembled in Denver on 
February 21 and 22, 2001, to share concerns and issues, clarify roles 
and expectations, validate the importance of success, and define a 
management structure for collaboration at the geographic area level 
throughout the country. This meeting provided a springboard to unify 
State, Tribal and Federal efforts to cooperate across jurisdictions, 
coordinate plans and activities, and collaborate with local governments 
to implement efficiently and effectively the goals and commitments 
outlined in the National Fire Plan.

Conclusion
    I appreciate the opportunity to testify at this hearing. We believe 
that we have made good progress in reversing the trend of deteriorating 
health for our forest and rangeland ecosystems. We view the National 
Fire Plan as an investment that will, in the future, help protect 
communities and natural resources, and most importantly, the lives of 
firefighters and the public.
    The Department has made real gains in working with all of its 
partners to implement the National Fire Plan, but it has required a 
shift in the way we have traditionally conducted business, and a shift 
in the way we implement nearly every fire management program. Just as 
we need time to acquire all the new, specialized fire equipment, we 
will need time to continue to make fire management seamless across the 
Federal, Tribal, State and local agencies, so that we may better 
protect lives and resources, and restore ecosystems to a functioning 
condition.
    We are committed to these goals, and look forward to your continued 
support.
    Thank you, again. I will be happy to answer any questions from the 
committee.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Hartzell.
    I will begin the questioning with the panel. First of all, 
Mr. Hartzell, I missed your comment at the beginning. You 
talked about your 40 heavy new engines and your 40 lighter 
engines. Now, are those contracted? You have got those or you 
have been able to secure that equipment, and it is in place for 
utilization?
    Mr. Hartzell. Those are not contracted. Those are 
procurement items, and they are special order items. The heavy 
engines have to be, they are special made, and they may take 
anywhere from 12, 14, upwards of 18 months to receive delivery 
of those items.
    Mr. McInnis. I would assume the same would exist for 
helicopters and so on. So this is equipment that is not really 
here to help us this year, but hopefully we will have it on the 
ground next year?
    Mr. Hartzell. The helicopters are contracted, and they are 
available this year to assist.
    Mr. McInnis. And, also, you said the Secretary is actively 
involved. ``Actively'' meaning what? I know you went through a 
couple of points there, but I am assuming--obviously, I have a 
long-time relationship with her. She is from Colorado. I think 
she has a pretty good understanding of the danger we face out 
there. I just want to be sure that this is going to the 
Secretary's desk for supervision and so on.
    Mr. Hartzell. Mr. Chairman, we have, in our Department, 
weekly chief of staff meetings, where all of the Bureau 
directors, the chief of staff, the Deputy Secretary are 
together in a room. We get the four Bureau fire directors on 
the phone with us out at the Fire Center, and it is not at all 
uncommon for the Secretary to come into those meetings to 
engage the Bureau directors and the fire directors in 
discussion about their progress on the National Fire Plan.
    Mr. McInnis. Chief, a couple of questions.
    One, I am wondering about the recommendations of the GAO. I 
would hope that you would integrate those with your 
comprehensive strategy moving forward.
    Mr. Bosworth. Yes. I haven't gone through the 
recommendations carefully. I read through it quickly. 
Obviously, when GAO has recommendations, they are things we 
want to look very carefully at because often they have some 
really good ideas.
    I think that you asked earlier about the notion of a czar 
or some kind of a person like that. I would just like to make a 
comment about that. My view is that we have been at this for 
about 9 months now, and we have a lot to learn and a long ways 
to go to improve. I think we need to look at all opportunities, 
but it is key, it is critical that we stay tuned in between the 
USDA and between Interior. I think we are doing that fairly 
well, but I think that there is still room for improvement.
    I wouldn't want to jump to a solution, in my opinion, quite 
yet because I think that we have got to identify what the 
problems are very carefully and make sure that we craft 
solutions for those problems. And that may be a solution, but I 
am just not sure enough yet to say that I would really advise 
that.
    To me, the place where we do the very, very best, at least 
in the Forest Service, in terms of integrating with other 
agencies, is in the area of fire suppression. In the area of 
fire suppression, when you go out on a project fire, you don't 
know whether it is a Forest Service person, a BLM person, a 
Park Service person, a State person. These overhead teams are 
fully integrated, and they work very, very well together.
    We can learn a lot about how we operate on our suppression 
side, we can learn a lot toward how we might be able to 
operate, as far as the other aspects of the National Fire Plan 
from that.
    Mr. McInnis. Thanks, Chief. I think you are right. And I am 
not sure that the Fire Czar is the answer, but the key that I 
know because I have been--I used to be a firefighter and a 
police officer, and I can tell you, for example, at Storm King, 
you need to have somebody that your chain-of-command that 
arrives and is in charge. There, we had lots of different 
agencies. Everybody was set back emotionally because of the 
loss we just suffered. The whole town turned out with shovels, 
and picks, and some volunteers were heading up the mountain on 
their own, I mean, just out of good intent. And that 
coordination between these agencies, what equipment needs to 
come in, what people need to come in, and also the decision-
making process, I think you ought to have somebody on-site.
    This was the Thirty Mile Fire was a cleanup. That is why 
that crew with so little experience was in there. As I 
understand, it is the typical experience of a crew that is sent 
in for cleanup. They didn't know this was going to occur, 
obviously, and they are in there doing, this is how they learn 
about the firefighting. It is pretty routine. But we need to 
have somebody who could very quickly make decisions, overriding 
decisions on what we are going to utilize. It all comes back to 
that chain-of-command, and that is where I think we have to 
focus.
    I appreciate, again, and also I want to compliment you, 
with so few months in service, keep it up. We have all got to 
work together as a team on this.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chairman. I just want to note 
that the young woman that the Chairman has referred to is named 
Rebecca Welch, a 22-year-old employee. And I just want to point 
out, because this was an enormous tragedy, but I hope people 
understand that there were several heroes there, and one of 
them was Rebecca Welch, who saved two American citizens out of 
this that probably would not have survived this, but for Forest 
Service activity. I hope that your people take some pride in 
their actions in this regard and Rebecca's.
    I need to ask a few questions relating to this incident. I 
think it will be helpful in the general policy discussion. In 
the area of the Okanogan fire, was that an area that there was 
any planning would have pretreatment or thinning or was this an 
area that would not have been treated in any event? Can you 
describe the conditions and how it related to the fire plan 
relating to any thinning proposals.
    Mr. Bosworth. That area would have been a very, very low 
priority. It just would not have been an area where we would 
have been doing thinning. It was a long ways from a community, 
homes, and it was close to the wilderness area. It is a back-
country area and had a road going up to it, but, no, the answer 
is we would not have been putting our dollars into thinning 
that area for fire purposes.
    Mr. Inslee. So, I guess, people could be confident that the 
inability of the lack of treatment was not related to this 
tragedy, I would take that from your comments.
    Mr. Bosworth. That is correct. Also, I did not, I want to 
add that there is a resource natural area designation to the 
forest plan for a portion of that area that was burned, also, 
where the fire was.
    Mr. Inslee. And how would that affect decisions regarding 
how to approach this particular fire that was in a resource 
natural area?
    Mr. Bosworth. Well, essentially, since it was a person-
caused fire, then our objective would be to suppress the fire, 
which is what we did.
    Mr. Inslee. Could you articulate that a little bit more. 
You and I have talked about this, just yesterday, about this, 
but I take it that the current policy is to treat a fire 
differently if it is caused by human conduct; is that correct?
    Mr. Bosworth. You may treat it differently. If it is a 
person, you know, in this case, it was a campfire that was left 
burning, then we need to suppress the fire. Now, there are 
places in the national forests where we have done fire planning 
and will allow fires to burn under certain conditions, 
particularly if they are going to meet some kind of land 
management objective, and so we make that decision based upon 
the conditions and the preplanning that has been done.
    In this case, since it was a person-caused fire, 
suppression was indicated.
    Mr. Inslee. Could you, and perhaps anyone of the panel 
could answer this, but could you give us some idea about the 
area that, given an unlimited budget, the Forest Service would 
want to have some treatment, some thinning of some nature on 
relative to what has been done in the last couple of years. 
Could you give us any ballpark figures on that? I am just 
looking at the GAO report, and it refers to 211 million acres, 
almost one-third of all fire-adopted Federal lands continue to 
deteriorate. Is that a real number, and how does that compare 
to what we have been able to do to date?
    Mr. Laverty. Mr. Inslee, in the Interior West, between the 
Department of Interior and the Forest Service, we have 
identified about 100 million acres at moderate to high risk 
that are in need of some type of treatment, but our plan, I 
think our strategies, would be such that it probably is not 
going to be feasible or reasonable to expect to treat all 100 
million acres. But in terms of fuel conditions, that is a 
representation of what we are experiencing in the Interior 
West.
    Mr. Inslee. So what have we done or are we going to do in 
the next year? And I assume it is a very, very, very, very 
small percentage of 100 million acres, but--
    Mr. Laverty. We are making good progress. Between Interior 
and the Forest Service, we have identified about 3 million 
acres that we plan to treat in 2001. We have already treated in 
excess of 1.2 million, and we are moving along fairly well to 
accomplish that target. Our expectation is that in 2002, we 
would probably be at that same level of investment again.
    Mr. Inslee. Let me ask you about decisions on how to go 
about that treatment. In the original fire plan, my 
understanding is, is that there was a basic policy statement 
made that we would not look to commercial harvest of mature or 
late successional trees, as part of this treatment strategy. 
And we, at least our staff, received a number of reports that, 
in fact, we are having harvests of mature and late successional 
trees. In fact, we have also heard, and again this may not be 
accurate, I like your comment on it, that some agencies are 
using funds associated with the treatment category for use of 
actually preparing commercial timber sales. I just wonder if 
you can tell us what the policy is at this moment about harvest 
of commercial, mature, late successional trees as part of the 
treatment program.
    Mr. Bosworth. I believe that it is really on a case-by-case 
basis. Most of the time what we need to be doing is thinning 
the smaller material, thinning from below, and being able to 
get fire back into an are where you don't have, you know, 
getting rid of some of the heavy fuels and the vegetation that 
is in there.
    But there are some places where just taking some of the 
small material may not be the right thing. You may need to 
remove some larger material in order to open it up. Say, for 
example, a dry pine type, you might want to open that up and 
get it closer to what its natural condition ought to be and 
then get fire burning through there the prescribed way, 
controlled way.
    Mr. Inslee. Thank you. Thank you very much. I hope that you 
will pass on to all of your employees our national appreciation 
for their efforts and our sometimes unspoken recognition of the 
danger they face.
    Thank you.
    Mr. Bosworth. I will do that.
    Mr. McInnis. Thank you, Mr. Inslee.
    Mr. Peterson, you may proceed.
    Mr. Peterson. Thank you and good afternoon.
    Reading the GAO report, I wanted to refer to Page 3. It 
says, ``The failure of five Federal agencies, land management 
agencies, to incorporate into the National Fire Plan many of 
the Federal Wildland Fire Management Policies regarding 
principles and recommendations can be traced to the reluctance 
to change their traditional organizational structures of 
Federal wildland management. As a result, the five agencies 
continue to plan and manage wildland fire management activities 
primarily on an agency-by-agency basis.''
    Is that a fair accusation?
    Mr. Bosworth. Well, I think that, as I said earlier, I 
believe that, particularly in the area of fire suppression, we 
are extremely integrated on our crews. I mean, when we get on a 
project fire or we have an incident command team that goes to 
the fire, and there are 30 or 40 people on that overhead team, 
they are likely to be from several different agencies, all 
working together under the incident commander, and that has 
been the case for a number of years.
    Now, as you get to, and when we start talking about the 
restoration of the burned areas that were lost in the fires 
last year, that is a little bit different situation. I know 
that in most of the national forests, we are working 
aggressively to do that restoration work, but we are 
coordinated with the Bureau of Land Management particularly, 
and there is Bureau of Land Management lands are in the same 
area.
    Then, in terms of the fuels, and planning for the fuel 
reduction, we are looking at that on a landscape basis, where 
the Forest Service and BLM work together, along with the States 
and the private communities to plan out what are the highest 
priority and where we need to be doing the treatments and what 
kind of treatments.
    And then in terms of building our firefighter workforce up 
to the most efficient level, we have been working very closely 
between the Forest Service and BLM on that aspect on the hiring 
and the identification of the people that we need.
    Mr. Peterson. But do all five agencies coordinate making 
sure adequate personnel are available and plans coincide 
somewhat?
    Mr. Laverty. If I could maybe answer that, Mr. Peterson. I 
really believe that we do, and some of the things that Tim and 
I have been working on is the actual hiring and recruitment of 
these firefighters we brought on as a result of the National 
Fire Plan. There has been really good coordination among the 
States, as we work with the BLM, and the Interior lands and the 
Agency lands.
    In terms of training, we have coordinated training so that 
we are not duplicating those kinds of efforts. And even in the 
placement of these crews, there is coordination that goes on, 
not only with the agencies, but even among the States so that 
we are not bunching up all of the resources in one particular 
location. So there really is some incredible coordination that 
goes on.
    Just to build on what Dale talked about, in today's paper, 
we saw Joe Carvello up in Jackson Hole. Joe is the incident 
commander for the Jackson Hole fire. That fire team, if you 
were to see that today, would be made up of people from the 
Park Service, probably from the BLM, the Forest Service, and 
even State personnel, so that it is truly the manifestation of 
what the coordination is that we are talking about, and it 
works well. It works extremely well, in terms of the incident 
commander being able to call those resources. And I am 
convinced the fact that we didn't burn any structures in 
Jackson Hole today is because of the fire plan and the 
resources that Mr. Carvello had available to him.
    Mr. Peterson. So there, again, it was agency coordination.
    Mr. Laverty. Absolutely.
    Mr. Hayworth. And, Mr. Peterson, also, as we move forward 
to complete our fire management plans, there is very clear and 
open dialogue now among all of the Federal partners, Forest 
Service and Interior that we need to approach this fire 
management planning in a seamless way rather than the four 
Interior bureaus developing their own individual plans and then 
Forest Service developing their plans. We look at a landscape, 
and we develop a fire management plan.
    The fuels problems out there don't adhere to the 
administrative boundaries, and the solutions shouldn't either, 
and that is the approach that we are going to be taking in the 
future as we develop fire management plans.
    Mr. Laverty. Mr. Peterson, one other piece, if I could just 
add in--
    Mr. Peterson. Sure.
    Mr. Laverty. That, again, reflects I think how the agencies 
are working together is in the development of the comprehensive 
strategy that we have been working with the governors across 
the country to develop an integrated, comprehensive strategy on 
how are we going to address the fuels not only on the Federal 
lands, but coordinate that on the State and private lands as 
well. That is ready to be signed probably 2 weeks from today, 
and coordinating with the governors.
    Mr. Peterson. This is more of a new development of this 
kind of coordination.
    Mr. Laverty. Yes, sir. It is one of the directions that 
came out of the conference report.
    Mr. Peterson. Back to the Endangered Species Act for just 
one question here. It would seem to me that a hot fire is 
probably the greatest danger any species, endangered or not, 
faces. I mean, not too many live through it, do they? I mean, a 
hot fire, from what I have--
    Could it be possible that during any actual fighting of a 
hot fire that people are worrying about incidentals of the 
Endangered Species Act, when the ultimate danger to the species 
is roaring at them? I mean--
    Mr. Bosworth. Well, I can't really say what was going on in 
any particular person's mind and what they are worrying about. 
But, again, we try to do preplanning on these kind of things. 
So we understand what--we don't want to do more damage with the 
suppression than what the fire is going to do. So we have plans 
ahead of time so that we can make sure that we are doing the 
fire suppression in a way that minimizes the damage to soils, 
to watersheds, to threatened or endangered species. But there 
is no question that when you get hot fire going through some 
drainages, you can have an effect on threatened or endangered 
species.
    Also, like I mentioned earlier, what I saw in the 
Bitterroot Valley last week with mud slides, you might end up 
with the same problem with the mud slides.
    Mr. Peterson. Thank you. We have run out of time.
    Mr. McInnis. Thank you, Mr. Peterson. I hate to interrupt 
like that, but we do have two more panels and a number of 
members that would like to ask questions.
    Mr. Udall, you may proceed.
    Mr. Udall of New Mexico. Thank you very much, Mr. Chairman.
    I wanted to ask a couple of questions about the Thirty Mile 
fire. It seemed, with your testimony, that you said that we are 
putting out every human-caused fire, that that is the policy. 
Is that the policy?
    Mr. Bosworth. On that particular forest, and that plan 
there is that if it is a man-caused fire, that you suppress it.
    Mr. Udall of New Mexico. And where is that policy written?
    Mr. Bosworth. I believe that that was the management for 
the resource natural area, the management plan for the resource 
natural area.
    Mr. Udall of New Mexico. In the resource natural area, 
where the fire was started?
    Mr. Bosworth. That is correct.
    Mr. Udall of New Mexico. And there is a policy for that 
particular resource natural area, that says we put out every 
human-caused fire?
    Mr. Bosworth. I believe that is correct. I will have to 
check it and make sure, but I believe that is in the planning 
guideline, in the plan for the write-up for the resource 
natural area. It is also in our 1995 policy, that we suppress 
man-caused, person-caused fires, the Federal Wildland Fire 
Policy.
    Mr. Udall of New Mexico. The 2001 Federal Fire Policy 
clearly states that the response to wildland fires, based on 
the Fire Management Plan, not the ignition source or the 
location of the fire, and that is at your 2001 update page, 
page 4, so I don't see how these two fit together, even though 
the Thirty Mile fire was human-caused, conditions may have 
warranted confinement or a monitoring response, or perhaps even 
allowing the fire to burn under a prescribed burn. This was a 
very remote area, wasn't it?
    Mr. Bosworth. It is a fairly remote area, that is correct.
    Mr. Udall of New Mexico. And in one of these resource 
natural areas, they are banned, aren't they, the fighting of 
fires and aerial retardants and things like that?
    Mr. Bosworth. That is not correct. It depends on the 
conditions. We don't have any place where we ban fighting 
fires. It depends upon all sorts of prescribed conditions that 
we evaluate ahead of time before we have any fire.
    Also I would like to say that under the 1995 Wildland Fire 
Policy, we suppress all human-caused fires. You are correct 
that there are some statements in the 2001 policy, but it also 
has to be consistent with state arson laws, and when you make 
sure with state arson laws that were not allowing, in some 
states, particularly, that were not allowing person-caused 
fires to burn.
    Mr. Udall of New Mexico. This fire, the Thirty Mile fire, 
ended up taking the lives of these four people, and it was 
fought, I guess, to the tune of 4.6 million, and it was really 
put out by the weather, wasn't it? It ended up the weather 
changed and that is what got it under control?
    Mr. Bosworth. I don't know the specifics of the final days 
of the fire, but almost all cases where we have a large fire 
that is burning, that we don't get a handle on it till we get 
some help from the weather.
    Mr. Udall of New Mexico. And don't you think there is--in 
terms of looking at this fire and looking at where it was 
started and how remote it was, and that the Forest Service 
wouldn't have been a lot better off to have left this continue 
its natural course rather than attack it with crews and fire 
retardants and all that?
    Mr. Bosworth. No, sir, I don't. You remember that was July 
10th. That is fairly early in the fire season. We had another 8 
weeks probably of fire season to go. We had multiple fires 
burning on the Okanogan National Forest, one fire that was 
approximately 1,000 acres. We had no idea how much--how many 
resources we would have for fires, and I would be would be 
very, very concerned about letting a fire go that early in the 
fire season under those conditions, when you have the kind of 
drought that we had, and I think that the Forest's actions to 
suppress a fire were exactly right.
    Mr. Udall of New Mexico. Attached to this, the Incident 
Management Situation Report, is a chart at the end that talks 
about wildland fire use or the prescribed fires and acres year 
to date. Looking at this and looking at all the areas, it looks 
like that very, very little acreage is being burned in terms of 
prescribed fires. I mean, is that an accurate wildland fire 
use? Very little of it is--this chart here shows that we are 
not really allowing it to take its course.
    Mr. Laverty. I think that chart that you are referring to 
is a correct representation of what is actually taking place. I 
know from talking to the folks down on the Gila, that they had 
a fire earlier this summer that they had planned to go to 
30,000 acres of fire use fire. Weather put it out. And I think 
we are finding more and more of those examples.
    We have one right now in Colorado in the Mount Zirkels, 
that is about 1,000 acres, and it could go up to probably 
15,000 acres if the weather would permit that. So in situations 
where we do in fact have these prescriptions in place, we are 
able to make those happen. So they are happening, and in fact, 
there are some in the Frank Church right now that are actually 
burning in terms of fire use. So there is more and more of 
those coming along. But we just need the weather to help us.
    Mr. Udall of New Mexico. Thank you very much. And I know 
these are very difficult decisions, and I thank the panel for 
their testimony.
    Mr. McInnis. Thank you, Mr. Udall.
    As a courtesy to the ranking member, Mr. Inslee has a 
follow up.
    Mr. Inslee. I appreciate that, Mr. Chair.
    Chief, I just wondered, I certainly and maybe others have 
some question about different policy based on the source of the 
fire. For instance, this was probably negligence, I take it, 
around a campfire. Could you help us by giving just, at a later 
date, not necessarily today, a little more description of 
specifically indeed what the policy is for the Forest Service? 
You might relate it to this fire as well. I think that would be 
helpful. I think that there are some legitimate issues about 
what the policy should be on negligently-caused human fires, 
whether that should change really our policy or not. I 
personally at the moment don't think it should, but I would 
appreciate if you can just give that to us in writing. We 
appreciate it.
    Mr. Bosworth. Sure.
    Mr. McInnis. Thank you, Mr. Inslee.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I will be very brief. 
I apologize. I didn't get to hear much of the testimony of the 
witnesses because of another meeting.
    But, Mr. Bosworth, the GAO tells us that while a lot of the 
west is burning, that the southeast really has more communities 
at risk, and I suppose that is because we are of a higher 
population concentrations. Have you looked at that, or do you 
feel that you are going to be better able to respond or to 
respond more quickly, since there are more communities at risk, 
or have you given that any consideration?
    Mr. Bosworth. I am going to ask Lyle to add a little bit, 
but first I would like to say that in the South we do have a 
number of places where we have communities at risk, just as 
well as we do in the interior West, and in fact, I was just 
looking at some maps today in Georgia, where--just pictures of 
where all the homes were around, schools were. We are in the 
same kind of circumstance. We have also increased the fire-
fighting capability in the South. We are accomplishing a lot of 
our acres in broadcast burning or prescribed burning is being 
done in the South.
    Do you want to add to that?
    Mr. Laverty. If I could just add, Mr. Duncan, even on top 
of the acres that we have treated already in terms of 
prescribed fire, a majority of those have actually come from 
the South and the Southeast, a very, very strong component. And 
I think recognizing again that we do in fact have communities. 
One of the pieces specifically, in Tennessee, we were able to 
bring a hot-shot cool on for that Southeast part of the country 
as part of the National Fire Plan, that I think helps us even 
be more responsive to some of those communities.
    Mr. Duncan. All right. Then let me ask you this. I am told 
by the staff that one group sent out an e-mail last month 
saying that they opposed thinning of the forests even if it 
would reduce the impacts of wildfire. Would a totally hands-off 
approach increase the risk of more fires as we have seen in the 
last couple of years?
    Mr. Bosworth. I just do not support a hands-off approach 
dealing with the fire and fuel situation. We need to be 
actively managing, particularly around these communities and 
these watersheds. We need to be doing some thinning. We need to 
be getting prescribed fire back in, and I don't support a 
hands-off approach.
    Mr. Duncan. Do you see active management as somehow being 
harmful to the environment?
    Mr. Bosworth. I believe that active management can be 
harmful to the environment if it is not done correctly, but it 
also believe that active management can be done in a way that 
is not harmful to the environment, and that is what we attempt 
to do.
    Mr. Duncan. All right. Thank you very much.
    Mr. Peterson. [Presiding] The gentleman from Colorado, Mr. 
Udall.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I wanted to 
welcome the panel as well. Thank you for taking your time today 
to be here with us. I want to focus, Chief, and Mr. Laverty and 
Mr. Hartzell, on Colorado's front range, if I might. It is a 
prime example of the so-called urban wildlands interface. In 
Colorado we actually have another term. We call it the Red 
Zone. It has been extensively mapped, and we have identified 
these areas where developments are closest to the forests and 
where wildfires provide the greatest threat to homes and 
communities.
    The main reason I have supported the fuel reduction part of 
the fire plan is because I have understood it would focus on 
these interface areas. And so I am concerned, based on what I 
have heard and read, that at this point only a small part of 
the fuel reduction work has taken place in those areas, so I 
would like to direct a few questions at all of you in that 
regard.
    Am I right that only 25 percent of the acres treated to 
reduce fuels have been in the interface area?
    Mr. Bosworth. That is probably correct, about 25 percent. 
But I would like to point out that when this started 9 months 
ago, we have been trying to be very clear to people that this 
first year we would have to take existing projects that we 
already had completed planning and the environmental impact 
statements for, and that that is the kind of projects that we 
would be doing this first year, which in many cases weren't 
focused on the wildland urban interface. At the same time 
though, as we are planning our projects for next year, those 
projects are being planned in the high-risk areas in the 
wildland urban interface.
    Mr. Udall of Colorado. In this fiscal year, Chief, the 
Forest Service expects to treat about 60,000 acres in Colorado? 
Again, I want to ask you if you think that is an accurate 
number, and if so, how many of those acres are in the interface 
area?
    Mr. Bosworth. I am going to have Lyle answer that.
    Mr. Laverty. If I could take that, Mr. Udall.
    Mr. Udall of Colorado. I figured Mr. Laverty might, since 
he has been--and by the way, been very attentive to Colorado 
and I have enjoyed working with him.
    Mr. Laverty. I believe that the region is working hard to 
accomplish that 60,000 acres. We have had some early rains. We 
have lost some opportunities because of the monsoons that have 
come. My guess is that we will probably be a little short of 
that 60,000, but just as Tim talked about, we will be able to 
carry those over.
    I would expect that as we look at all the projects and the 
accomplishments at the end of the year, that probably 25 plus 
percent of those will be urban interface project. Maybe a 
little bit more in Colorado, because I think we did have a few 
more projects that were urban interface projects than some of 
the other regions.
    Mr. Udall of Colorado. If you look at the GAO study, of 
course, they have got a map that has the number of communities 
by state identified by Interior as being at the highest 
wildfire risk, and Colorado and Utah in the West have the 
largest number of dots. I note that my colleague, Mr. Duncan of 
Tennessee, has quite a few as well. But again, I point that out 
just to underline the concerns that we have in Colorado in this 
regard. Also I think we have enormous opportunity to create 
some exciting new markets potentially for these materials for 
biomass and other uses.
    With that, let me--I don't want to leave the Interior 
Department out of this, so I will direct a question to Mr. 
Hartzell. How many acres in Colorado do you expect to treat, 
and how many of them will be in this interface area?
    Mr. Hartzell. Mr. Udall, I think this year we had roughly 
12,000 acres in the wild and urban interface that were targeted 
for treatment, and we have completed roughly 3,000 of those 
acres.
    Mr. Udall of Colorado. 12,000 treated?
    Mr. Hartzell. 12,000 planned in the wildland urban 
interface, 3,000 treated. Many of our projects this year were 
heavily oriented toward prescribed fire. There are projects 
that had been in the planning stage for two or 3 years. I 
believe in the out years, particularly around communities, you 
are going to see a shift in emphasis to using more mechanical 
means. Where we have dangerous fuels, we need to thin the 
forest first.
    Let me just quickly say that I don't have the specifics, 
but I know through this collaborative partnership that we have 
got with all of the state foresters for the State of Colorado 
for next year, somewhere in the vicinity of 50 to 60 projects 
totalling 7-1/2 to 8-1/2 million dollars has been identified in 
the wild and urban interface.
    Mr. Udall of Colorado. I thank you for that additional 
information. That was my next question.
    Does it cost more to reduce fuels in these interface areas, 
and are there any factors that make it harder to do this fuel 
reduction work, say, compared to more remote areas? And I would 
direct that also to the Forest Service.
    Mr. Hartzell. I can tell you that this year, in our 
department, it costs roughly 7 times more per acre to do a 
wildland urban interface treatment. The reason for that is when 
you are working up against a community, you have got heavy 
fuels, mechanical thinning is needed to thin the fuel.
    Mr. Bosworth. I would say that it is a similar cost in the 
Forest Service. It definitely costs more to do it in the 
wildland urban interface for the same reasons he was talking 
about. And I think it is really important to recognize that it 
would be dangerous for us to focus only on the number of acres 
that we accomplish, because if we want to accomplish acres, we 
can go to easy places, but they may not be the right places. It 
may be the chief ones, but maybe not the right ones. And all of 
our strategy is to find the right places, even though it may 
cost more because of the kind of treatments we have to do.
    Mr. Udall of Colorado. That is a fair point.
    Mr. Chairman, I thank you for the time, and I don't know 
whether we will have a second round, but I would certainly ask 
unanimous consent that we could extend further questions to all 
of the people who have testified today. Thank you, Mr. 
Chairman.
    Mr. Peterson. The gentleman from Idaho.
    Mr. Simpson. Thank you, Mr. Chairman.
    I always hate to use these for personal reasons, but since 
I have got you here, I will ask you. I got a place that is just 
over the pass in Jackson Hole. What does that fire look like 
today?
    Mr. Bosworth. It is in good shape.
    Mr. Laverty. That is in good shape.
    Mr. Simpson. In good shape?
    Mr. Bosworth. Actually, it is in pretty good shape.
    Mr. Simpson. Doesn't look like it will go over the pass?
    Mr. Bosworth. No, but when I was flying over it a couple of 
days ago, I would have not said the same thing, but I mean I 
would not have been surprised, when I was flying over it about 
3 days ago, whether it would go over the pass, but it is my 
understanding that it looks a lot different today.
    Mr. Simpson. Well, I appreciate that. It makes my August a 
heck of a lot more friendly.
    You mentioned about the 2002 fire plan, the projects that 
have been planned and so forth, and some of those are going to 
be put on hold and delayed and so forth because of appeals and 
litigation. What are the basis for some of those appeals and 
litigations that you anticipate?
    Mr. Laverty. There are a number of themes. I was just 
talking to the folks on the Bitterroot on one of the rehab and 
restoration projects that they are working on, another project 
that was a fuels hazardous reduction outside of a community 
just outside of Hamilton. And there is a variety of issues that 
surface on why, threatened endangered species, clean water. 
Those are some of the elements that are already surfacing in 
some of the early appeals that we are beginning to see on some 
of the fire projects. So it would be--those are the concerns I 
think that people are expressing.
    Mr. Simpson. I am curious as to whether we have done more 
damage, as an example, in the Clear Creek fire area? I am sure 
you have flown over and seen some of the mud slides and so 
forth that have occurred when you get a little moisture. Do we 
do more damage to threatened and endangered species habitat 
when that occurs, than we would if we got in and did a sound 
job of thinning, trying to reduce these forest fires so they 
aren't quite so catastrophic?
    Mr. Bosworth. Of course, it depends on which threatened and 
endangered species we are talking about, and it varies, but 
from a water quality standpoint, you know, I believe that when 
we end up with mud slides like I saw in the Bitterroot and the 
feedback I got from the biologists there was, was that that was 
very damaging to the--it wiped out the habitat. I also believe 
that if we had done some strategic kinds of placement of 
thinning and prescribed burning over the last 15 or 20 years, 
we may have--the whole area may have looked a whole lot 
different.
    Mr. Simpson. So are you suggesting that we can actually, if 
we do it correctly, and we plan properly, and we are sensitive 
to the environment that we are trying to protect, that we can 
actually potentially protect threatened and endangered habitat, 
clean water and so forth, by doing active management, rather 
than just letting it go by its wayside?
    Mr. Bosworth. I believe that we can--that that is correct, 
yes.
    Mr. Laverty. Mr. Simpson, if I could just add onto that. 
The basic premise of the cohesive strategy that we put together 
about a year ago, which became one of the foundations of the 
National Fire Plan, speaks exactly to that point, that by 
managing these in a healthy, functioning condition, that we can 
improve the resilience of these ecosystems to function in this 
kind of a fashion and now lose habitat.
    Mr. Simpson. I appreciate that. One of the things that was 
just mentioned is the source of the fire and the decision of 
whether to go put a fire or not and that type of thing. What 
does the source of the fire have to do with it? I mean I know 
that sounds like a stupid question, but does a tree know how 
the fire started?
    Mr. Bosworth. No, but again, I mentioned arson laws, for 
example. If a person starts a fire, then they have some 
responsibility for what happens when that fire burns.
    Mr. Simpson. Well, it would seem to me that the thing that 
would be the deciding factor is the condition of the forest and 
what the goal was, regardless of how it started.
    Mr. Bosworth. That is a primary concern is the condition of 
the forest, but again, if--to me it is a very slippery slope 
when you start deciding to allow anybody that happened to start 
a fire, to decide to allow those fires to burn. I think that we 
could have some real problems, and we have in recent--there are 
some unintended consequences that could happen from that. And 
we don't allow, just because it is a lightning-caused fire, 
doesn't mean we are going to allow it to burn, but under very 
specific conditions, where there are certain things that can--
you know, some beneficial use that would take place from a fire 
that has been analyzed and public involvement way ahead of 
time, we understand exactly what the fuels are supposed to be, 
the fuel moisture is supposed to be, and what the weather is 
supposed to be, how late and early it is in the year. We may 
decide to allow one of those fires to burn.
    Mr. Simpson. Does the fact that we have such huge fuel 
loads in our forests make it more likely that we are going to 
have to put out fires because of the potential that they are 
going to be catastrophic once they start burning? And, 
therefore, if we could actually reduce the fuel loads, you 
could actually get back to a system where natural fires were 
allowed to burn because they wouldn't become as catastrophic, 
as they currently do?
    Mr. Bosworth. Well, particularly around communities, if you 
have got heavy fuel loads, you don't want to allow a fire to 
burn because you can't control it, and you may not be able to--
you know, it is just too much risk.
    But, on the other hand, I fully support allowing fires to 
burn under certain conditions back in the back country and 
wilderness areas, some of the roadless areas, and if we have 
done--even along the interface areas, if we had done the 
thinning, and we have been doing prescribed burning every 15 or 
20 years, and a fire starts, it may not make much difference if 
it burned or not.
    Mr. Simpson. If I could just ask one real brief one before 
I finish. An awful lot of people don't like the words 
``commercial harvest,'' and if you go out and thin forests and 
somehow that wood is used for something that could be 
commercially valuable, that is commercial harvest and you are 
in trouble. Some of these thinnings are actually going to be 
for commercial purposes, and some of them will probably address 
the mature successional trees as you look at areas to try to 
reduce the fire hazard.
    I am curious. What is the health--I mean, you are a 
professional fireman. What is the health of that mature 
successional tree going to be? Just out of curiosity. I know 
this is an off-the-top question, and I am just wondering what 
you think it will be after this is put out.
    Mr. Bosworth. It will probably be a pretty dead tree when 
that is done, but there--
    Mr. Simpson. Thank you. I appreciate your being here today.
    [Laughter.]
    Mr. Bosworth. Could I respond to one other thing, just very 
briefly?
    Mr. Peterson. Just briefly.
    Mr. Bosworth. Okay. I would like to go back to the business 
about leaving--you know, person-caused fires burning. And one 
of the things I think people need to think about is if in 
that--if we had allowed that fire to burn, say, in Thirty Mile 
Canyon, if those two civilians were up there, if they had been 
caught in that fire and it was one that we had allowed to burn 
and it was a person-caused fire, I think there are some real 
major problems when we allow those things to happen. So we have 
got to be very, very careful about those kind of choices, 
particularly when they are person-caused.
    Mr. Peterson. The Chair thanks the gentleman.
    The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Who was held accountable, then, for the Los Alamos fire and 
what happened?
    Mr. Hartzell. Mr. Chairman, the Los Alamos fire, the Board 
of Inquiry concluded that those employees followed existing 
policy and that the policy was flawed.
    Mr. Otter. That the policy was flawed?
    Mr. Hartzell. That is correct.
    Mr. Otter. So nobody gets fired, nobody has to pay up? You 
know, we had some folks that their tire went flat in Idaho when 
they were traveling down the highway--actually, I think they 
were from Minnesota. But their tire went flat on their trailer 
and it threw out a bunch of sparks and caused a fire, burned 
about 180,000 acres. Their insurance company paid--I don't 
know--2 or 3 million bucks. But because we were following 
policy and it was a flawed policy--who made the policy? Can we 
go back to the deep pocket here or to the source of the policy 
and lay some blame and get some credibility back into the 
system?
    Mr. Hartzell. The issue was that the 1995 Federal wildland 
fire policy that was referred to had not been institutionalized 
and was not reflected--that the guidance on that policy was not 
reflected in the manuals and handbooks that were being followed 
by the Park Service employees.
    Mr. Otter. I see. Actually, I was just following up on that 
because it was curious to me that it seemed like we were 
looking to lay liability, and I know in several instances we 
have been able to lay liability on bad policy and the reasons 
for it as bad policy, but then we can't find anybody to hold 
accountable.
    You know, I am like some of my colleagues here, when I 
first heard about the four deaths, I reflected back when I was 
a firefighter on the Sundance fire. I reflected back that when 
my son was on the first strike crew, the hot-shot crew for the 
Sawtooth National, and my son-in-law, who is now initial attack 
crew on the Panhandle, the first thing I thought of wasn't, you 
know, whether or not somebody was going to disrupt the 
environmental policy of this country. I thought about the 
families and the mothers and the fathers and the sisters and 
the brothers. And I think a public policy that is absent the 
sensitive soul that we should have here for human life is a 
public policy that is drastically flawed.
    So, having said that, I want to get on, I guess, with what 
this hearing is really all about. Mr. Bosworth, you are only on 
the job here a very short period of time. You have got an 
administration that is pretty new in place. The GAO report, 
which I have read, actually reflects time when you haven't even 
been on the job. In fact, your team, the administration team, 
isn't even in place yet, is it, totally?
    Mr. Bosworth. Well, there are still a lot of positions to 
be filled. That is correct.
    Mr. Otter. Do you expect to have a team that will be 
coordinated with the five agencies, that will have a 
singularity of purpose in our National Fire Plan when we get 
this administration's team--I understand why the other 
administration's team didn't work well together. But I would 
expect that when we get our team in place, when this 
administration team gets in place, don't you have some high 
expectations of some coordinates and compatibility in enforcing 
and establishing our National Fire Plan?
    Mr. Bosworth. I am very optimistic about that. I really do 
believe that when we get, you know, a little time, we will see 
improvements every day as we move forward. I am very optimistic 
about that.
    Mr. Otter. You were asked several questions about why would 
you put out that fire if it was manmade or it was lightning-
made. In Idaho, I remember one time in 1995--actually, 1994, we 
had 1,400 lightning strikes in a single evening, which resulted 
in about 400 fires, but many of them were small. And one of the 
fires that we were noticed on was what we call now the 
Blackwell Corral complex fires. We were noticed--I was 
Lieutenant Governor and Acting Governor at the time because 
Governor Andrus had gone out of town, out of the State. And we 
were requested by the Payette National Forest to let it be. And 
so we let it be. Then, finally, when it hit--that was when it 
was at about 50 acres. When it hit 500 acres, they started 
deploying some initial resources to the fire. When it hit 5,000 
acres, they decided this could get serious; 287,000 acres 
later, we decided that maybe we should have gone in and put--
and let the folks on the ground make the decision, call the 
shots as to whether or not major resources were going to be 
wasted as a result of that fire.
    So let me just say that I hope this national policy plan 
that we come up with and the one we are going to be enforcing 
is going to include a generous helping of reason and logic and 
folks on the ground--and I know, Mr. Bosworth, you have said 
earlier in your testimony that was one of the great hopes and 
aspirations that you had for your time at the steering wheel, 
was to get the people back on the ground involved.
    Mr. Bosworth. That is correct.
    Mr. Peterson. I thank the gentleman from Idaho, and we 
would like to thank the panel, Forest Chief Bosworth and Mr. 
Laverty and Mr. Hartzell from the Department of Interior. Thank 
you for your willingness to come today. We are going to invite 
the members to do written questions for the record if they 
would like, and you can respond to them.
    Thank you very much for your generous time and your candid 
answers.
    Mr. Bosworth. Thank you.
    Mr. Peterson. We will now call on the second panel. Our 
second panel will be Barry T. Hill, Associate Director on 
Energy Resources and Science Issues, U.S. General Accounting 
Office, and his support team. Welcome and please proceed.
    We are going to limit the questions to 3 minutes to try to 
give everybody a chance to ask questions. So I will warn you 
first.
    Mr. Inslee. Mr. Chair, could I add something?
    Mr. Peterson. You are recognized.
    Mr. Inslee. Thank you. As ranking member, I may not be able 
to listen to your testimony. I need to excuse myself briefly. I 
will try to get some written questions to you if I don't get 
back in time.
    And just one other comment. In response to Mr. Otter's 
comment, I wanted to assure this panel and everybody in this 
room, I think there is bipartisan concern about the individuals 
involved in fighting this fire. I went up to Harborview 
Hospital and met with Mr. Emhoff's family while he was in 
surgery about this. I think this is something we share on a 
bipartisan basis.
    Thank you.
    Mr. Peterson. I thank the gentleman, and, Mr. Hill, please 
proceed.

  STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL RESOURCES AND 
          ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Mr. Chairman and members of the 
Subcommittee. It is certainly a pleasure for us to appear 
before this Subcommittee this afternoon to discuss 
implementation of the National Fire Plan. Before I begin, allow 
me to introduce my colleagues.
    With me today, on my right, is Charlie Cotton and, on my 
left, Cliff Fowler, who are responsible for leading the ongoing 
wildfire work we are doing for the Subcommittee and for the 
information we will be presenting today. And if I may, I would 
like to briefly summarize my prepared statement and submit the 
full text of my statement for the record.
    Usually, our testimony is based on an issued GAO report. 
However, in this instance, our work for you is still ongoing. 
Instead of an issued GAO report, we do have for each member of 
the Subcommittee a copy of the 2001 update of the 1995 Federal 
wildland fire management policy. This policy provides the 
philosophical and policy foundation for Federal interagency 
fire management activities conducted under the National Fire 
Plan. If Agriculture's Forest Service and Interior's National 
Park Service, Fish and Wildlife Service, Bureau of Land 
Management, and Bureau of Indian Affairs were adhering to the 
policies, guiding principles, and recommendations contained in 
this document, we would likely have many positive things to say 
about how these five Federal land management agencies are 
implementing the National Fire Plan.
    However, many of the policies, guiding principles, and 
recommendations, especially those that present challenges to 
traditional organizational structures, have not been 
implemented. As a result, the five agencies cannot ensure that 
they are spending the almost $2.9 billion appropriated for 
wildland fire management for fiscal year 2001 in an efficient, 
effective, and timely manner. Nor will they be able to account 
accurately for how they spend or what they accomplish with the 
$30 billion that they say they need over the next 10 years to 
implement the plan.
    Let me take a moment and explain why the National Fire Plan 
is important, not just from a budgetary perspective but from a 
human perspective as well.
    Human activities, especially the Federal Government's 
decades-old policy of suppressing all wildland fires, have 
resulted in dangerous accumulations of hazardous fuels on 
Federal lands. As a result, conditions on 211 million acres, or 
almost one-third of all fire-adapted Federal lands, continue to 
deteriorate. According to the Federal wildland fire management 
policy, these conditions have increased the probability of 
large, intense wildland fires beyond any scale yet witnessed. 
Coupled with the explosive growth of people and structures in 
the wildland-urban interface, these fires will, in turn, 
increase the risk to communities, watersheds, ecosystems, and 
species. They will also place in jeopardy the lives of the 
public as well as the firefighters charged with controlling or 
suppressing them.
    As the Federal wildland fire management policy recognizes, 
the challenge facing the Congress and the administration is not 
finding new solutions to an old problem but of implementing 
known solutions. After every severe fire season or when human 
lives have been lost battling wildfires, working groups or 
commissions are established, reports are issued, and 
recommendations are made. Unfortunately, just as every wildland 
fire eventually dies out, so has the collective will to 
effectively implement these recommendations.
    The National Fire Plan represents the latest effort to 
address wildland fire on Federal lands. Two conditions set this 
effort apart from prior efforts: first, congressional 
recognition of the need to sustain increased funding for 
wildland fire management in future fiscal years; and, second, 
congressional direction to reduce the risk of wildland fire in 
the wildland-urban interface. However, implementation of the 
National Fire Plan currently lacks the coordination, 
consistency, and agreement called for in the Federal wildland 
fire management policy. Let me cite a few examples.
    First, although the Congress directed the five Federal land 
management agencies to reduce the risk of wildland fire in the 
wildland-urban interface, they currently do not know how many 
communities are at high risk of wildland fire, where they are 
located, and what it will cost to reduce the risk. Therefore, 
the agencies are not positioned to set priorities for treatment 
or to inform the Congress about how many will remain at high 
risk after appropriated funds are expended.
    The agencies have attempted to identify high-risk 
communities. However, the number of communities has ballooned 
from almost 4,400 in January to over 22,000 in May. Moreover, 
rather than continue to work toward a jointly published list of 
communities, as the Congress directed them to do, Interior and 
the Forest Service have gone their separate ways. From the list 
of over 22,000 communities, Interior has identified 545 
communities near its lands that it determined to be highest 
risk. However, if you look at the two charts that we have 
brought today, on the chart to my right it shows the location 
of the major fire occurrences that happened last year, and the 
chart on my left shows the communities that Interior has 
identified as being at highest risk to wildfire.
    Two hundred and seventy-eight, or over half of these 
communities, are in three Southeastern States--Georgia, North 
Carolina, and Tennessee--which are not prone to severe wildland 
fires. Conversely, California and Idaho refused to prioritize 
their communities on the initial list of 4,400, and as a 
result, Interior did not include any communities in these two 
fire-prone States.
    Meanwhile, by October, the Forest Service plans to develop 
its own separate list of highest-risk communities from the list 
of over 22,000. However, it plans to allow each of its nine 
regional offices to work individually with States within its 
boundaries to develop nine separate lists of highest-risk 
communities.
    Efforts under the National Fire Plan to prepare for and 
suppress wildland fires also lack the coordination, 
consistency, and agreement called for in the Federal wildland 
fire management policy. For example, the five Federal land 
management agencies cannot agree on the priority to be given to 
preparing fire management plans. These plans are critical to 
determining preparedness needs for fighting wildland fires 
because they identify, among other things, which fires should 
be suppressed and which should be allowed to burn. However, 6 
years later, only the 60 units managed by the Bureau of Land 
Management have fully complied with the policy. Of the 
remaining 1,323 units managed by the other four agencies, 768, 
or 58 percent, still do not have a plan that complies with the 
policy. These 768 units encompass about 121 million acres, or 
31 percent of all the acres with burnable vegetation managed by 
these four agencies.
    Another example of this problem relates to the process used 
to request the equipment needed to be fully prepared to fight 
future wildland fires. For fiscal year 2001, the Congress gave 
the agencies the opportunity to request the needed equipment. 
However, each agency identified its own equipment needs, and as 
a result, the Forest Service failed to ask for about $44 
million that it needs to procure hundreds of pieces of 
equipment, including fire engines, bulldozers, water tenders, 
trucks, as well as associated supplies.
    Similarly, the Fish and Wildlife Service failed to request 
about $8 million it needs to procure about 90 pieces of 
firefighting equipment. So for these two agencies, it is not 
clear when they will reach the firefighting capacity envisioned 
with the funding provided for fiscal year 2001.
    Mr. Chairman, these examples lead to the inevitable 
question: Why? Why have the five Federal land management 
agencies failed to incorporate into the National Fire Plan many 
of the Federal wildland fire management policies, guiding 
principles, and recommendations? We believe the reason can be 
traced to their reluctance to change their traditional 
organizational structures of Federal wildland fire management. 
As a result, the five agencies continue to plan and manage 
wildland fire activities primarily on an agency-by-agency and 
unit-by-unit basis. Unfortunately, wildland fire does not 
recognize the administrative boundaries of Federal land units. 
Moreover, although efficient, effective, and timely 
implementation of the National Fire Plan will require an 
interdisciplinary approach, Federal fire managers and managers 
in other disciplines--including those responsible for wildlife 
and fisheries and vegetation and watershed management--have 
been reluctant to forge the necessary new working 
relationships.
    According to the Federal wildland fire management policy, 
an entity is needed with the authority to provide the necessary 
strategic direction, leadership, coordination, conflict 
resolution, and oversight and evaluation into the full range of 
affected agencies and disciplines. Although it is early in the 
implementation of the National Fire Plan, it is clear that its 
implementation also requires such an entity. Therefore, we 
encourage the administration and the Congress to consider all 
the alternative organizational structures identified in the 
policy, including establishing a single Federal wildland fire 
management entity.
    Mr. Chairman, this concludes my statement. We would be 
happy to respond to any questions that you or other members of 
the Subcommittee may have.
    [The prepared statement of Mr. Hill follows:]

      STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL RESOURCES AND 
              ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Chairman and Members of the Subcommittee:
    We are here today to discuss the results of our preliminary work 
for you on the implementation of the National Fire Plan. The National 
Fire Plan is not a single, cohesive document. Rather, it is composed of 
various documents, including (1) a September 8, 2000, report 
<SUP>1</SUP> from the Secretaries of the Interior and of Agriculture to 
the President of the United States in response to the wildland fires in 
2000; (2) congressional direction accompanying substantial new 
appropriations for wildland fire management for fiscal year 2001; and 
(3) several approved and draft strategies to implement all or parts of 
the plan.
---------------------------------------------------------------------------
    \1\ Managing the Impact of Wildfires on Communities and the 
Environment, A Report to the President In Response to the Wildfires of 
2000, Secretaries of the Interior and of Agriculture (Sept. 8, 2000).
---------------------------------------------------------------------------
    In addition, the 1995 federal wildland fire management policy, 
<SUP>2</SUP> updated in 2001, <SUP>3</SUP> provides the philosophical 
and policy foundation for federal interagency fire management 
activities conducted under the National Fire Plan. Incorporating the 
policy's guiding principles and recommendations into the plan presents 
unusual, if not unique, challenges to traditional organizational 
structures. Wildland fires do not recognize the administrative 
boundaries of federal land units. Therefore, the policy requires 
coordination, consistency, and agreement among five federal land 
management agencies in two departments--the National Park Service, the 
Fish and Wildlife Service, the Bureau of Land Management, and the 
Bureau of Indian Affairs within the Department of the Interior and the 
Forest Service within the Department of Agriculture. Moreover, an 
effective strategy to reduce the risk of wildland fire requires a full 
range of fire management activities, including management-ignited fires 
(prescribed fires) and other fuel treatments, such as thinning. 
Therefore, the policy requires an interdisciplinary approach in which 
federal fire managers must forge new working relationships with other 
disciplines within the agencies, including those responsible for 
wildlife and fisheries and vegetation and watershed management.
---------------------------------------------------------------------------
    \2\ Federal Wildland Fire Management Policy and Program Review, 
Report to the Secretaries of the Interior and of Agriculture by an 
Interagency Federal Wildland Fire Policy Review Working Group (Dec. 18, 
1995).
    \3\ Review and Update of the 1995 Federal Wildland Fire Management 
Policy, Report to the Secretaries of the Interior, of Agriculture, of 
Energy, of Defense, and of Commerce; the Administrator, Environmental 
Protection Agency; and the Director, Federal Emergency Management 
Agency, by an Interagency Federal Wildland Fire Policy Review Working 
Group (Jan. 2001).
---------------------------------------------------------------------------
    Federal and state officials estimate that $30 billion will be 
needed over the next 10 years to implement the National Fire Plan. 
Toward this end, the Congress appropriated almost $2.9 billion for 
Wildland Fire Management for fiscal year 2001. At your request, we are 
reviewing whether the five federal land management agencies are 
spending this money in an efficient, effective, and timely manner. To 
date, we have focused our work primarily on efforts to reduce dangerous 
accumulations of hazardous fuels and firefighting management and 
preparedness.
    In summary, the preliminary information we have gathered to date 
suggests the following:
    <bullet> Human activities, especially the federal government's 
decades-old policy of suppressing all wildland fires, including 
naturally occurring ones, have resulted in dangerous accumulations of 
hazardous fuels on federal lands. As a result, conditions on 211 
million acres, or almost one-third of all federal lands, continue to 
deteriorate. According to the federal wildland fire management policy, 
these conditions have increased the probability of large, intense 
wildland fires beyond any scale yet witnessed. Coupled with the 
explosive growth of people and structures in areas where human 
development meets or intermingles with undeveloped wildland--the 
wildland-urban interface--these fires will, in turn, increase the risk 
to communities, watersheds, ecosystems, and species. They will also 
place in jeopardy the lives of the public as well as the lives of the 
firefighters charged with controlling or suppressing them.
    <bullet> The National Fire Plan represents the latest effort to 
address wildland fire on federal lands. Two conditions set this effort 
apart from prior efforts to reduce the risk of wildland fire: (1) 
congressional committee recognition of the need to sustain increased 
funding for wildland fire management in future fiscal years and (2) 
congressional committee direction to reduce the risk of wildland fire 
in the wildland-urban interface. However, although the federal wildland 
fire management policy is intended to provide the policy foundation for 
the National Fire Plan, many of the policy's guiding principles and 
recommendations--especially those that present challenges to 
traditional organizational structures--have not been implemented. 
Lacking the coordination, consistency, and agreement called for in the 
federal wildland fire management policy, the five federal land 
management agencies cannot ensure, among other things, that they (1) 
are allocating funds to the highest-risk communities and ecosystems, 
(2) will be adequately prepared to fight wildland fires in 2002, and 
(3) can account accurately for how they spend the funds and what they 
accomplish with them.
    <bullet> The failure of the five federal land management agencies 
to incorporate into the National Fire Plan many of the federal wildland 
fire management policy's guiding principles and recommendations can be 
traced to their reluctance to change their traditional organizational 
structures of federal wildland fire management. As a result, the five 
agencies continue to plan and manage wildland fire management 
activities primarily on an agency-by-agency and unit-by-unit basis. 
Moreover, although implementing the National Fire Plan in an efficient, 
effective, and timely manner will require an interdisciplinary 
approach, federal fire managers and managers in other disciplines 
within the agencies--including those responsible for wildlife and 
fisheries and vegetation and watershed management--have been reluctant 
to forge the necessary new working relationships.
Conditions on Federal Lands Continue to Deteriorate
    For a number of years, both the Congress and the administration 
have been made aware of the increasingly grave risk of wildland fire 
posed by the buildup of brush and other hazardous vegetation on federal 
lands. The 2001 update on federal wildland fire management policy 
emphasized the urgency of reintroducing fire onto federal lands.
    The 1988 wildland fires that burned Yellowstone National Park and 
millions of acres of other public and private land resulted in a 1994 
report by the statutorily established National Commission on Wildfire 
Disasters. <SUP>4</SUP> The Commission stated:
---------------------------------------------------------------------------
    \4\ Report of the National Commission on Wildfire Disasters (1994). 
The National Commission on Wildfire Disasters was established on May 9, 
1990, by the Wildfire Disaster Recovery Act of 1989 (Pub. L. No. 101-
286).
---------------------------------------------------------------------------
        ``The vegetative conditions that have resulted from past 
        management policies have created a fire environment so 
        disaster-prone in many areas that it will periodically and 
        tragically overwhelm our best efforts at fire prevention and 
        suppression. The resulting loss of life and property, damage to 
        natural resources, and enormous costs to the public treasury, 
        are preventable. If the warning in this report is not heeded, 
        and preventative actions are not aggressively pursued, the 
        costs will, in our opinion, continue to escalate.''
    The Commission observed: ``The question is no longer if policy-
makers will face disastrous wildfires and their enormous costs, but 
when.'' The when came that very year. The 1994 fire season resulted in 
34 fatalities, including 14 firefighters on Storm King Mountain in 
Colorado. These deaths, coupled with a growing recognition of the fire 
problems caused by the accumulation of hazardous fuels, resulted in the 
first comprehensive federal wildland fire management policy for the 
departments of the Interior and of Agriculture. The December 1995 
policy stated:
        ``The challenge of managing wildland fire in the United States 
        is increasing in complexity and magnitude. Catastrophic 
        wildfire now threatens millions of wildland acres, particularly 
        where vegetation patterns have been altered by past land-use 
        practices and a century of fire suppression. Serious and 
        potentially permanent ecological deterioration is possible 
        where fuel loads exceed historical conditions. Enormous public 
        and private values are at high risk, and our nation's 
        capability to respond to this threat is becoming 
        overextended.''
    According to the 2001 update to the federal wildland fire 
management policy, conditions on federal lands have continued to 
deteriorate. In the aftermath of the escape of a prescribed fire at 
Cerro Grande, New Mexico, in May 2000, the Secretaries of the Interior 
and of Agriculture requested a review of the 1995 federal wildland fire 
management policy and its implementation. According to the 2001 update, 
as a result of excluding fire from federal lands, conditions on these 
lands continue to deteriorate. The update observed that the fire hazard 
situation is worse than previously understood and stated:
        ``The task before us--reintroducing fire--is both urgent and 
        enormous. Conditions on millions of acres of wildland increase 
        the probability of large, intense fires beyond any scale yet 
        witnessed. These severe fires will in turn increase the risk to 
        humans, to property, and to the land upon which our social and 
        economic well being is so intimately intertwined.''
    The 2001 policy update also observed that the fire hazard situation 
in the wildland-urban interface is more complex and extensive than was 
understood in 1995. According to the update, the explosive growth in 
the wildland-urban interface now puts entire communities and associated 
infrastructure, as well as the socioeconomic fabric that holds 
communities together, at risk from wildland fire. The update concluded 
that the fire problem in the wildland-urban interface would continue to 
escalate as people continue to move from urban to wildland areas in the 
twenty-first Century.

Implementation of the National Fire Plan Lacks the Coordination, 
        Consistency, and Agreement Called for in the Federal Wildland 
        Fire Management Policy
    The National Fire Plan represents the latest effort to address 
wildland fire on federal lands. Two conditions set this effort apart 
from prior efforts to reduce the risk of wildland fire: (1) 
congressional committee recognition of the need to sustain increased 
funding for wildland fire management in future fiscal years and (2) 
congressional committee direction to reduce the risks of wildland fire 
in the wildland-urban interface. However, although the federal wildland 
fire management policy is intended to provide the policy foundation for 
the National Fire Plan, many of the policy's guiding principles and 
recommendations--especially those that present challenges to 
traditional organizational structures--have not been implemented. 
Lacking the coordination, consistency, and agreement called for in the 
federal wildland fire management policy, the five federal land 
management agencies cannot ensure, among other things, that they (1) 
are allocating funds to the highest-risk communities and ecosystems, 
(2) will be adequately prepared to fight wildland fires in 2002, and 
(3) can account accurately for how they spend the funds and what they 
accomplish with them.

Highest-Risk Communities Have Not Been Identified
    The Department of the Interior and Related Agencies Appropriations 
Act for Fiscal Year 2001 required the Secretaries of the Interior and 
of Agriculture, after consultation with state and local firefighting 
agencies, to publish jointly in the Federal Register a list of all 
urban-wildland interface communities, as defined by the Secretaries, 
within the vicinity of federal lands that are at high risk from 
wildfire, as defined by the Secretaries. Despite this directive, the 
five federal land management agencies currently do not know how many 
communities are at high risk of wildland fire, where they are located, 
or what it will cost to lower the risk. Therefore, they cannot set 
priorities for treatment or inform the Congress about how many will 
remain at high risk after appropriated funds are expended.
    Here is what we have learned to date.
    Prior to publishing an initial list of communities, the Secretaries 
of the Interior and of Agriculture did not define either ``urban-
wildland interface communities'' or ``within the vicinity of federal 
lands that are at high risk from wildfire.'' On January 4, 2001, the 
Secretaries published an initial list in the Federal Register of 4,395 
communities. However, as stated in the notice, (1) 11 states did not 
respond or did not have lists of communities available, (2) 5 states 
indicated that they did not have any at-risk communities, and (3) each 
of the 34 states that did identify communities used ``criteria it 
determined appropriate for selecting communities at risk.''
    In February 2001, Interior and the Forest Service issued guidance 
intended to refine and narrow the initial list of communities. The 
guidance defined wildland-urban interface. It also identified three 
criteria for evaluating the risk to wildland-urban interface 
communities (fire behavior potential; risk to social, cultural, and 
community resources; and fire protection capability) and risk factors 
relating to each criterion. In addition, the guidance included a 
discussion of fire behavior potential that provided some general 
information on identifying fire risk. However, the guidance did not 
specifically identify federal lands that are at high risk from wildland 
fire rendering it difficult to identify urban-wildland interface 
communities within the vicinity of such lands. Without this definition 
and with the criteria subject to broad interpretation by the states, 
the list of at-risk communities ballooned to over 22,000 in May 2001. 
In addition, two states with lands in the fire-prone interior West--
California and Idaho--did not revise their initial lists of communities 
on the basis of the February guidance, stating that all of their 
communities on the initial list should be considered high-risk.
    At that time, the Secretaries of the Interior and of Agriculture 
said they intended to continue to work collaboratively with states, 
tribes, local leaders, and other interested parties to identify and set 
priorities for specific treatment projects. However, rather than 
continue to work toward a jointly published list of communities, 
Interior and the Forest Service went their separate ways.
    From the list of over 22,000 communities, Interior has identified 
545 communities near its lands that it determined to be at ``highest 
risk'' by assigning numeric values to the risk factors in the February 
2001 guidance. However, 278--or over half--of the communities are in 
three southeastern states--Georgia, North Carolina, and Tennessee--that 
are not prone to severe wildland fires. Conversely, since California 
and Idaho did not revise their initial lists of communities on the 
basis of the February guidance, Interior did not include any 
communities are in these two fire-prone states. (See app. I and II.)
    Meanwhile, by October 2001, the Forest Service plans to develop its 
own separate list of highest-risk communities from the list of over 
22,000. However, it plans to allow its nine regional offices to work 
individually with states within their boundaries to develop nine 
separate lists of highest-risk communities.
    In the interim, a group of federal, state, and private individuals 
has prepared a draft 10-year strategy to implement the National Fire 
Plan. <SUP>5</SUP> This draft strategy emphasizes not only locally 
driven priority-setting but also locally driven budget development, 
project planning and implementation, monitoring, and reporting. 
However, without nationwide criteria to differentiate risks among 
wildland-urban interface communities in different states and 
geographical regions, the National Fire Plan will become little more 
than a funding source that will not allow for accountability at the 
national level and not ensure that federally appropriated funds are 
being spent in those wildland-urban interface communities at the 
highest risk of wildland fire.
---------------------------------------------------------------------------
    \5\ A Collaborative Approach for Reducing Wildfire Risks To 
Communities and the Environment: Ten-Year Comprehensive Strategy (Draft 
for Signature)(May 2001).
---------------------------------------------------------------------------
Neither the Forest Service Nor Interior Is Fully Prepared to Fight 
        Future Wildland Fires
    The coordination, consistency, and agreement required by the 
federal wildland fire management policy is also missing from efforts by 
Interior and the Forest Service to ensure that the nation is fully 
prepared to fight future wildland fires.
    For instance, the five federal land management agencies cannot 
agree on the priority to be given to preparing fire management plans. 
Since 1995, federal wildland fire management policy has required that 
every federally managed area with burnable vegetation must have an 
approved fire management plan. These plans are critical to determining 
preparedness needs for fighting wildland fires because they identify, 
among other things, which wildland fires should be suppressed and which 
should be allowed to burn. However, 6 years later, only the 60 units 
managed by the Bureau of Land Management have fully complied with the 
policy. Of the remaining 1,323 units managed by the other four federal 
land management agencies, 768--or 58 percent--still do not have a plan 
that complies with the policy. These 768 units encompass about 121 
million acres--or 31 percent--of all the acres with burnable vegetation 
managed by the four agencies. (See app. III.) Moreover, although 
wildland fire does not recognize the administrative boundaries of 
federal land units, federal fire management plans have been, and 
continue to be, prepared on a unit-by-unit basis.
    Similarly, rather than using one computer model to identify their 
fire-preparedness needs, the five federal land management agencies use 
three different models. The Forest Service, the Bureau of Land 
Management, and the Bureau of Indian Affairs use one model to determine 
their preparedness needs, the National Park Service uses another, and 
the Fish and Wildlife Service uses a third. Moreover, all three models 
appear to be inadequate for planning because they (1) do not consider 
conditions on non-federal lands in the wildland-urban interface and 
elsewhere, and (2) stop at the administrative boundaries of land units 
as opposed to providing the broader scale planning embraced in the 
federal wildland fire management policy.
    Further, using existing fire preparedness models, all five of the 
federal land management agencies requested funds to hire, develop, and 
support additional fire managers and firefighters, and all five have 
made substantial progress in hiring the additional personnel. (See app. 
IV.) However, in addressing firefighting equipment needs, it is a 
different story. Even though the Congress gave the agencies the 
opportunity to request the equipment needed to be fully prepared to 
fight future wildland fires, the agencies did not identify their 
funding needs in a coordinated or consistent fashion. Instead, each 
agency identified its own equipment needs. Two of the agencies--the 
Forest Service and the Fish and Wildlife Service--did not request the 
funding needed to procure the firefighting equipment called for in 
their existing fire preparedness models. So for these two agencies it 
is not clear when they will reach the firefighting capacity envisioned 
with the funding provided for fiscal year 2001. The Forest Service 
failed to ask for about $44 million that it needs to procure hundreds 
of pieces of equipment, including fire engines, bulldozers, water 
tenders, and trucks, as well as associated supplies. According to the 
Fish and Wildlife Service, it was not aware that it was supposed to 
request about $8 million that it needs to procure about 90 pieces of 
firefighting equipment.

Lack of Coordination, Consistency, and Agreement Extends to How 
        Accomplishments Are Measured and How Funds Are Accounted For
    Lack of coordination, consistency, and agreement among the five 
federal land management agencies extends to how they plan to measure 
accomplishments and how they account for funds.
    For instance, to ensure that the National Fire Plan accomplishes 
its intended goals and objectives, the federal wildland fire management 
policy requires federal agencies to establish and implement a clear, 
concise system of accountability. However, Interior has not established 
any quantifiable long-term or annual performance measures to gauge its 
progress in reducing hazardous fuels. Conversely, the Forest Service 
plans to measure and report on (1) the percent of wildland-urban 
interface areas with completed fuels treatments and (2) the percent of 
all acres with fuel levels meeting ``condition class 1;'' that is, 
where human activities have not significantly altered historical fire 
regimes or where management activities have successfully maintained or 
restored ecological integrity.
    Similarly, Interior and the Forest Service are using different 
measures to gauge their progress toward being fully prepared to fight 
future wildland fires. Interior measures the percent of wildland fires 
contained during initial attack while the Forest Service measures the 
amount of firefighting resources that it can make available to fight a 
wildland fire.
    Interior and the Forest Service also do not consistently account 
for how they spend funds appropriated for wildland fire preparedness 
and suppression. Prior to fiscal year 2001, both Interior and the 
Forest Service personnel normally assigned to managerial, 
administrative, and other staff positions in their wildland fire 
management programs charged the first 8 hours of every workday to funds 
allocated for firefighting preparedness, even when they were assigned 
to fighting wildland fires. However, beginning with fiscal year 2001, 
all Forest Service personnel assigned to fighting wildland fires now 
charge their entire time to funds allocated for firefighting 
suppression. Although our ongoing work has not determined which is more 
appropriate, the Forest Service's accounting change will reduce funds 
charged to preparedness and increase funds charged to suppression, in 
comparison with prior years and Interior's accounting for its funds 
allocated for similar activities. As a result, the Congress has no 
consistent basis for holding Interior and the Forest Service 
accountable.

Effective Implementation of the National Fire Plan May Require Changes 
        to Interior's and the Forest Service's Existing Organizational 
        Structures
    According to the 2001 update, the failure to fully implement the 
1995 federal wildland fire management policy resulted, in part, from 
the lack of an entity with the authority to provide the necessary 
strategic direction, leadership, coordination, conflict resolution, and 
oversight and evaluation to the full range of affected agencies and 
disciplines. Although it is early in the implementation of the National 
Fire Plan, it is clear that its implementation also suffers from the 
lack of such an entity.
    The five federal land management agencies have been reluctant to 
change their traditional organizational structures of federal wildland 
fire management. Because of this reluctance, they have failed to 
incorporate into the National Fire Plan many of the federal wildland 
fire management policy's guiding principles and recommendations. As a 
result, the five agencies continue to plan and manage wildland fire 
management activities primarily on an agency-by-agency and unit-by-unit 
basis. Moreover, although implementing the National Fire Plan in an 
efficient, effective, and timely manner will require an 
interdisciplinary approach, federal fire managers and managers in other 
disciplines within the agencies--including those responsible for 
wildlife and fisheries and vegetation and watershed management--have 
been reluctant to forge the necessary new working relationships.
    From a budgetary perspective, this continuation of a narrowly 
focused, stovepipe approach will mean that funds appropriated for 
wildland fire management may not be used in an efficient, effective, 
and timely manner. There may be human consequences as well. For 
instance, the failure to allocate funds for fuels reduction to the 
highest-risk communities and ecosystems increases future risks not only 
to those communities and ecosystems, but also to firefighters charged 
with controlling and suppressing wildland fires.
    We are continuing our review of the implementation of the National 
Fire Plan. However, we agree with the federal wildland fire management 
policy that the federal land management agencies must take action now 
to resolve the wildland-urban interface problem. We would encourage the 
administration and the Congress to consider all of the alternative 
organizational structures identified in the policy, including 
establishing a single federal wildland fire management entity with the 
authority to provide the necessary strategic direction, leadership, 
coordination, conflict resolution, and oversight and evaluation to the 
full range of affected agencies and disciplines.
    Mr. Chairman, this concludes my formal statement. I will be pleased 
to respond to any questions that you or other Members of the 
Subcommittee may have.
Contacts and Acknowledgment
    For future contacts regarding this statement, please contact Barry 
T. Hill on (202) 512-3841. Individuals making key contributions to this 
testimony were Ron Belak, Paul Bollea, Charlie Cotton, Alan Dominicci, 
Clif Fowler, Ches Joy, Paul Lacey, and John Murphy.
                                 ______
                                 

    [Appendices attached to Mr. Hill's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T4282.005
    
    [GRAPHIC] [TIFF OMITTED] T4282.006
    
    [GRAPHIC] [TIFF OMITTED] T4282.007
    
    Mr. Peterson. Due to the time problems, I am going to ask, 
Mr. Hill, and your people, could you hang around and we are 
going to try to hear from the other panel, Panel 3, and then 
what time we have left before a series of votes, we will do Q & 
A.
    Mr. Hill. Sure.
    Mr. Peterson. We thank you very much.
    Mr. Peterson. If the other panel could quickly come to the 
table, and any members who want to write questions for the 
record, that would be appropriate.
    I will introduce the next panel. We have Dr. Robert Lewis, 
Jr., Deputy Chief, Research and Development, USDA, Forest 
Service; and Dr. Ronald Haruto Wakimoto, Ph.D., Professor of 
Forestry, University of Montana School of Forestry.

 STATEMENT OF ROBERT LEWIS, JR., PH.D., DEPUTY CHIEF, RESEARCH 
    AND DEVELOPMENT, U.S. DEPARTMENT OF AGRICULTURE, FOREST 
   SERVICE; ACCOMPANIED BY KEVIN RYAN, PH.D., ROCKY MOUNTAIN 
   RESEARCH STATION, U.S. DEPARTMENT OF AGRICULTURE, FOREST 
                            SERVICE

    Mr. Lewis. Mr. Chairman, thank you for the opportunity to 
testify this day. I have with me Dr. Kevin Ryan from our 
Missoula, Montana, research lab. Also, I would like to enter my 
written statement into the record.
    The purpose of our testimony today is to address the issue 
of science involved in the National Fire Plan and the 
implementation of that plan. Specifically, Mr. Chairman, we 
want to address the issue of fire ecology and the scientific 
basis for managing a fire-adapted ecosystem.
    We have fire-based ecosystems, especially in the Western 
U.S.A. We also have the confounding problem of the wildland-
urban interface, as mentioned here earlier. In other words, we 
have lots of people moving to where lots of trees exist.
    Over the past 100 years, we have suppressed wildfires, and 
many of these areas and regions have accumulated masses of 
material that is combustible. Consequently, when we have fires 
today in many of these areas, they are catastrophic, causing 
tremendous damage not only to property and threatening human 
lives but also to the environment that we are destined to care 
for as stewards.
    The role of science is to better inform policymakers and 
the fire managers in debates and to better prepare the citizens 
to live in a fire-adapted ecosystem.
    Our role is to provide knowledge, analytical judgment, and 
also to pose the hard questions that must be addressed when we 
look at policy alternatives and options. Our goal is to 
integrate human and biological systems and to provide the 
scientific basis for developing a sound system of managing the 
ecosystem and managing these fires.
    We have had significant changes in vegetation over the last 
100 years. We have as a result of that major threats. If these 
highly flammable forests go down in flame and they are 
catastrophic, we have a number of impacts. One would be the 
loss of soil productivity and site stability. That is where we 
have tremendous soil erosion when we have these catastrophic 
fires and the soil becomes hydrophobic.
    We have an increase in sedimentation, and streams of water 
are polluted and habitats are disturbed for fish, wildlife, and 
even plants. We have another problem in those denuded areas, 
and that is the threat of exotic weeds and invasive species, 
some native and non-native. We have an increase in the spread 
of those.
    Consequently, we must address this problem. We are 
currently in a dilemma. We have a large number of acres that 
have not been managed actively over the last 100 years. What do 
we do with these threats? To sit back and do nothing is a 
threat within itself because human lives and even ecosystems 
are at threat. Therefore, we must develop and devise some 
method of dealing with this particular problem.
    Consequently, science has--we have, in research not just 
within my agency, we have provided a sound scientific basis for 
the national plan that has been developed, and this plan will 
incorporate removing vegetation by thinning and prescribed 
burning. There are some stands that are, frankly, way 
overdrawn, and prescribed burning is not a solution within 
itself. Therefore, we have devised within our plan a 
combination of thinning and removal of vegetation, as well as 
prescribed burning where appropriate.
    I might also point out that one solution does not fit all 
situations. Therefore, we must use the best science suitable 
for a particular region.
    We have had an opportunity to observe incidents where 
science has been misquoted and misused. I believe it is 
inappropriate to disguise a political or policy debate and 
misuse science, and we have had examples of that, and I will 
just list a few of them.
    One misconception is that the incidence of high-intensity 
fire is not unusual and is not indicative of systems that are 
uncharacteristically stressed. The fact of the matter is that 
the records indicate that we have had decades of fire 
suppression, and as a result, stands overstock and we have a 
problem.
    Another misconception is that harvesting trees will 
increase the fire risk. In the early part of the last century, 
when more logging slash was left than is left today and we did 
not have the modern silvicultural processes, then this perhaps 
might have been the case. But modern silvicultural treatment 
allows us to harvest and treat and restore ecosystems in a very 
sound way.
    I have a number of other examples such as that that I would 
like you to read in our written testimony, but basically I 
would like to conclude that we have a sound basis for the fire 
plan that we have developed, and research work that we 
currently are doing and work that we have done in the past are 
being used to implement this plan and to develop and refine it 
over time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lewis follows:]

STATEMENT OF DR. ROBERT LEWIS, DEPUTY CHIEF, RESEARCH AND DEVELOPMENT, 
             FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to appear before you to talk about 
fire ecology and science and the National Fire Plan. I am Dr. Robert 
Lewis, Deputy Chief for Research and Development. With me today is one 
of our preeminent fire ecologists, Kevin Ryan, project leader in fire 
effects research at the Missoula Fire Laboratory of the Rocky Mountain 
Research Station. Dr. Ryan is available to discuss the scientific 
principles that govern fire-adapted systems.
    I would first like to introduce the scientific basis for managing 
fire-adapted ecosystems and then describe the role of science and 
research in the National Fire Plan.

Fire Ecology and the Scientific Basis for Managing Fire-Adapted 
        Ecosystems
    Fire is a major force in shaping ecosystems. But fires can inflict 
great damage and suffering when they occur in environments heavily 
inhabited by humans and their structures. This inherent duality - 
ecological agent and destructive force - creates many dilemmas in fire 
policy formulation and management. These dilemmas have been exacerbated 
in recent years by the explosive population growth in the wildland 
urban interface and the rapid accumulation of vegetation.
    To better inform policy and fire management debates and better 
prepare citizens to live in fire-adapted ecosystems, the science 
community provides knowledge and analytical judgment and asks hard 
questions about the consequences of management and policy alternatives. 
Science can describe the connections of integrated human/biophysical 
systems, more reliably forecast the occurrence of damaging fire events, 
and characterize the possible outcomes of policy and management 
options. Scientists can help managers interpret what they are seeing on 
the ground and can help design management programs as experiments to 
better understand how ecological systems operate and alert managers to 
changes that might be needed in management strategies.
    Compared with preindustrial times, wildland fire incidence from 
1930 through the 1970s decreased in response to aggressive fire 
suppression and land use changes. The unintended consequences of these 
changes have been a significant change in vegetation composition and 
structure - especially in ecosystems in the Interior West that are 
tuned to periodic fires at relatively short return intervals. This 
reduction in wildland fire has destabilized many forested ecosystems 
that depended on these periodic fires to keep stands thinned of 
competing underbrush and trees. Understory vegetation has become so 
dense that wild fires that do occur are larger and more severe than the 
historical fires. For some fire-adapted ecosystems, the frequency of 
severe fires has become abnormal, or as we scientists say, outside the 
range of historical variation.
    The severity of these extreme fires poses threats to species 
persistence, watershed integrity, aesthetics, air quality, and 
community resilience. Extreme fire behavior can result in loss in soil 
productivity and site stability, increase sedimentation in streams and 
water supplies, degrade or destroy critical habitat for fish, wildlife, 
and plant species, including those at risk of extinction, and increase 
the spread of invasive weeds or non-native plants. Such fires also emit 
millions of tons of gases and particulate matter into the air, with 
negative consequences for human health, carbon balances, and the global 
climate.
    The ecologically sound prescription for this situation is to return 
fire, on proper terms, to these fire-adapted ecosystems. But it is not 
simply a matter of letting wildfires burn, because many of these 
systems are already primed for severe and destructive fire behavior and 
are festooned with human structures and other values at risk. Frequent, 
controlled fires - prescribed burning - can be an antidote for 
sporadic, catastrophic fires. However, many of these systems have 
missed so many natural fire intervals and have become so encumbered 
with vegetative fuels that mechanical thinning may be necessary to 
safely restart natural fire processes. In some of the most overgrown 
conditions, prescribed burning without thinning could lead to 
catastrophic escape fires, illustrated vividly in the unfortunate case 
of the Cerro Grande prescribed fire escape last summer. Fire managers 
implementing the National Fire Plan are rapidly increasing the use of 
prescribed fire and thinning in scientifically based prescriptions to 
reduce fuel and protect multiple resources. These practices pose their 
own risks and controversies but when applied in scientifically designed 
fuels programs, they can be used effectively and safely. The 
alternative, that is no active management, involves all the resource 
and human losses associated with high intensity fires and the 
exorbitant costs of trying to suppress them.
    Many policy questions surround the fire problem. These policy 
questions are heated, confusing, and often come disguised as science 
questions. We must remember that these questions are not solely 
scientific questions and that many non-scientific considerations--e.g., 
policy, law, and economics--must be part of the answer to these policy 
questions. While science can provide a more solid foundation for 
management decisions, science alone cannot answer these questions.
    However, we realize that not everyone agrees that active management 
is warranted to reduce wildfire risk. In the context of debate about 
fire management and policy options, scientific understanding is 
sometimes misrepresented, oversimplified and taken out of context. This 
practice is unfortunate and detracts not only from the quality of the 
deliberation about fire and land management strategies but also 
severely hampers the ability of agencies to build public confidence and 
trust needed to implement positive changes. We feel it is important to 
base policy and management choices on the body of knowledge, not 
statements or snippets lifted from reports to justify a point. It is 
the duty of the scientific community to be as clear as possible about 
what is known and not known about a body of science to put statements 
in their proper context, and to correct distortions and 
misrepresentations. This is extremely important in the field of fire 
ecology, the source of knowledge for strategies for fire-adapted 
ecosystems.
    We acknowledge that we much to learn--or, as I will discuss 
later,--important knowledge gaps that we must attack. Some of these 
knowledge gaps relate to areas of identified misperception. Some, but 
certainly not all, of the more common misperceptions are:

    A. That the incidence of high intensity fire is not unusual and is 
not indicative of systems that are uncharacteristically stressed. 
Records clearly show that the acreage burned is substantially higher in 
the last 10 years than in the previous seven decades. The number and 
intensity of extremely large fires has increased due to a combination 
of factors including fuels condition changes, climatic variation, 
initial attack, and suppression capability.

    B. That harvesting trees exacerbates fire risk. In the early part 
of the last century when more logging slash was left than is left 
today, this was true. Modern harvesting operations, based on 
scientifically sound silvicultural prescriptions, use material more 
efficiently and follow up rapidly with burning or mechanical reduction 
of residues, the risk of fire is minimal. Thinning trees in conjunction 
with subsequent prescribed burning is an effective strategy for 
reducing fire risk.

    C. That fires should be left to burn because fire is a natural part 
of the ecosystem. Forest Service and other agencies have wilderness and 
other areas where planning has deemed that fires can burn naturally and 
benefit the ecological and other objectives of the area. However, in 
much of the West, fuels have accumulated so much that fires left to 
burn can quickly become extreme events with a range of devastating 
consequences. We have initiated new research that will sharpen our 
ability to determine where relaxed suppression is appropriate and how 
wildland fires and prescribed burning can be used to achieve ecological 
and other objectives at the landscape level.

    D. That mechanical removal of fuel is unnecessary and that 
prescribed burning alone can effectively reduce fuels. The Cohesive 
Strategy, based on a scientific analysis of the vegetative condition of 
the western forests, recommends that the most overgrown systems, having 
missed several fire cycles, will require mechanical thinning before any 
prescribed burning can be done safely. This strategy is the fuels 
management core of the National Fire Plan and is based on returning 
fire in its natural role to fire-adapted ecosystems. To build an even 
stronger scientific basis for strategy, we are researching ways to make 
fuels management prescriptions economically feasible and 
environmentally sensitive.

    E. That we don't have to treat vegetation at the landscape or 
watershed level since we can protect homes through firesafe 
construction and home landscaping practices in the immediate interface. 
Our research has shown that fire safe practices are effective. However, 
this research did not negate the ecological and economic rationale for 
correcting problems at the landscape level. There are many reasons to 
minimize the frequency and impact of uncharacteristically intense fires 
including ecological values, aesthetic conditions, business and 
infrastructure, human health, quality of life and efficient use of 
taxpayer's dollars. Home protection and landscape health should fit 
together in an integrated protection strategy supported by scientific 
advances on all fronts.

Science and the National Fire Plan
    Science plays a key role in the National Fire Plan. Each of the key 
points of the National Fire Plan have a science basis that has helped 
shape what is possible and what is sound. Forest Service Research and 
Development has sustained an active program of wildland fire research 
since the 1920's. It remains the world's premier organization in 
wildland fire science. We collaborate closely with research agencies, 
universities, and the private sector and work closely with fire 
management operations to refine research needs and ensure technology 
adoption. For example, firefighting procedures are based on findings 
from years of past and ongoing work in the fire behavior, meteorology, 
economics, operations research and engineering development. 
Rehabilitation and recovery methods are becoming more effective and 
efficient thanks to rigorous testing and environmental evaluation. 
Fuels reduction strategies have been developed and are being refined by 
scientific investigations at various scales to quantify the effects of 
removal and burning regimes on potential fire behavior and a suite of 
ecological values and processes. These ongoing studies, in close 
collaboration with managers, are helping us understand how to plan 
fuels and vegetation treatment and enlighten us about the consequences 
of not taking active measures to manage fuels. They are showing us how 
to remove and use fuels materials we might otherwise burn and add to 
air quality problems. A growing body of social science shows us how to 
work with the public and the new fire science of structural ignition is 
showing us how to effectively protect homes in the interface.
    It is a long-standing responsibility of Forest Service research to 
build the science base to protect forest ecosystems and to restore at 
risk systems to healthy conditions. We know that the science basis for 
some key questions is more complete than for others. We are working to 
fill these knowledge gaps and to help managers and the public think 
through problems with the best technical assistance and expertise. We 
know, for example, that many managers in recent fire seasons have 
observed dramatic reductions in fire spread and intensity as fires 
entered stands that have been thinned or previously burned. Scientific 
validation of these landscape scale phenomena is complex and involved, 
but we are working with managers closely to establish parameters for 
interpreting these events and setting up landscape scale experiments to 
help establish guidelines for future management.
    We have many examples of successful collaboration between users and 
research that have resulted in science-based tools in common use such 
as:
    <bullet> National Fire Danger Rating System
    <bullet> Fire retardant technologies
    <bullet> Fire Effects Prediction Systems
    <bullet> Smoke Management Systems
    <bullet> Fire Behavior Prediction Systems
    <bullet> Fire Hazard Mapping and Fuel Models
    <bullet> Fire Management Planning and Economic Analysis Systems
    <bullet> Fire safety and health guidelines
    We have parlayed this successful relationship into an intensified 
program of research and development made possible by the National Fire 
Plan funding. In fiscal year 2001, increased fire-related research and 
development in the Forest Service (including the Joint Fire Science 
Program) has been invested in 63 research and development work units. 
These units are already turning out useful products to support goals in 
each of the first four key points of the National Fire Plan.
    In addition, the Joint Fire Science program, established by 
Congress in 1998, also supports the development of information and 
tools for fuels management. This interagency research and development 
program was funded at $ 16 million each with equal $8 million 
contributions from the Departments of Interior and Agriculture. The 
National Fire Plan doubled the size of the Joint Fire Science program 
in fiscal year 2001. There is an important complementary relationship 
between the Joint Fire Science program and the Forest Service research 
and development programs. The Joint Fire Science program does not 
employ scientists or manage other elements of scientific capability 
such as facilities, equipment, and support staff. The program focuses 
on applied research on issues that relate to fuels management, while 
the Forest Service research program provides scientific capability and 
focuses on long-term issues and fundamental science related to forest 
health, fire hazard, and the social and economic consequence of fire 
and other disturbances.
    For fiscal year 2002 and beyond, the science base for The National 
Fire Plan and the Cohesive Strategy will attack important knowledge 
gaps. Top priority areas for research and development are:
Firefighting
    <bullet> Tools to assist the integration of fire management with 
land management planning
    <bullet> Improved predictions of fire behavior and fire season 
severity.
    <bullet> Improved organizational effectiveness and safety 
practices
Rehabilitation and Recovery
    <bullet> Improved effectiveness of rehabilitation (Emergency 
Stabilization and Rehabilitation) treatments
    <bullet> Understanding of the effects of post fire treatments on 
wildlife
    <bullet> Methods for reestablishing native species and excluding 
invasive exotic plants.
Hazardous Fuels Reduction
    <bullet> Techniques for assessing and managing fire risk at 
landscape scales.
    <bullet> Integrated silvicultural, processing, and marketing 
systems to economically reduce fire hazards.
    <bullet> Testing the effectiveness and the environmental effects 
of different fuel treatments
Community Assistance
    <bullet> Better understanding of public knowledge, beliefs, and 
attitudes about fire and fire management.
    <bullet> Strategies for integrating fire and fuels management with 
sustainable community development.
    <bullet> Strategies for reducing the vulnerability of homes and 
communities.
Summary
    In summary, Mr. Chairman, the science community provides knowledge 
and analytical judgment to better inform policy and fire management 
debates and to better prepare citizens to live in fire-adapted 
ecosystems. In the context of debate about fire management and policy 
options, scientific understanding is sometimes misrepresented or 
oversimplified. It is the duty of the scientific community to be as 
clear as possible about what is known and not know about a body of 
science, to put statements in their proper context and to correct 
distortions and misrepresentations. Science plays a key role in the 
National Fire Plan. Each key point of the National Fire Plan has a 
science basis that has helped shape what is possible and what is sound. 
We are working to expand knowledge and to help managers and the public 
think through the problems with the best technical assistance and 
expertise.
    This concludes my statement. Dr. Ryan and I would be happy to 
answer any questions you or members of the Subcommittee might have.
                                 ______
                                 
    Mr. Peterson. Thank you.
    Mr. Wakimoto?

   STATEMENT OF RONALD HARUTO WAKIMOTO, PH.D., PROFESSOR OF 
       FORESTRY, UNIVERSITY OF MONTANA SCHOOL OF FORESTRY

    Mr. Wakimoto. Chairman McInnis, distinguished members of 
the Subcommittee, it is a great privilege to have the 
opportunity to once again speak to this body. My opportunity to 
speak to Mrs. Chenoweth and Mr. Hill in Missoula last September 
was a memorable experience.
    Way back in the 1950's and 1960's, the California Division 
of Forestry and the U.S. Forest Service supported studies that 
looked at fire weather and fuel conditions under ``sheltered 
fuelbreaks.'' The term ``sheltered'' comes about by thinning of 
understory trees and shrubs and removal of larger trees to 
leave a widely spaced overstory. The term ``fuelbreaks'' simply 
means a strip or wide zone of modified fuels. Fuelbreaks, as 
opposed to fire breaks, cannot stop a fire unless suppression 
personnel are present and capable of suppressing the surface 
fire moving through the fuels on the ground. ``Fire breaks'' 
are narrow strips of bare mineral soil devoid of fuel.
    These studies indicated that any tree manipulation deemed 
adequate to create conditions to stop a crown fire created 
conditions where the forest was hotter, it was drier, and it 
was windier than in the adjacent unmodified forest. You know, 
this is not rocket science. The spacing between the trees 
allows greater solar heating of the surface fuels, and the 
increased air movement dries these fuels near the ground. In 
short, the forest floor becomes more flammable. They are not 
fireproof.
    So why do fire managers entertain thinning as a fuel 
treatment? They do so in the hopes that a crown fire will not 
be sustained when it reaches well-spaced trees. The reduction 
of the surface fuel decreases the convective energy going into 
the tree crowns, and the spacing of the trees limits the amount 
of radiation heat transfer to the adjacent trees. If these 
reductions are sufficient, the fire drops to the surface. If 
this surface fire is low intensity, then the personnel have a 
chance to suppress that fire.
    Simply thinning without surface fuel reduction will 
increase fire risk and potential fire behavior. Thin stands are 
not fireproof.
    So we have the question of what degree of thinning is 
effective. I don't know the answer to this question given the 
variety of ecological conditions, fuel loadings, and forest 
structures that exist in the West. The best we can do is with 
empirical rules of thumb developed from observation. 
Observations last year in Montana indicated that pine stands 
with less than 20 feet between the crowns of the trees carried 
crown fires readily in Montana.
    As I stated in September of 2000 in similar hearings, much 
of the land that burned in the Bitterroot National Forest in 
Montana last year was cut-over land, where the large, widely 
spaced Ponderosa pine had been harvested and a dense understory 
of Douglas fir released to grow. Nearly all the trees that 
burned last year had never seen a fire in their lifetime. So 
mortality was extremely high. Simply thinning such stands of 
fir will not solve our fire problem.
    In addition, severe disease problems have occurred from 
such thinnings of Douglas fir where they are the climax 
species. In many areas of the West, plant succession and tree 
growth have progressed to a point that commercial thinning of 
these trees is probably the only way we will be able to reduce 
the fire hazard.
    Now, I want to conclude by making this comment, that one of 
the key elements that I believe has been missing at times is 
looking at the role of fire on the landscape. We heard a panel 
before us from the agency talking about landscape-scale 
treatments. Well, I am not just talking about big treatments. I 
am talking about looking at the role of fire historically on 
the landscape, so we put the treatments in the right place.
    When we have thinned large forested landscapes solely for 
fuel management purposes, they become almost a Maginot line 
where the likelihood of fire actually occurring adjacent to 
those thinned areas is almost zero. Many, many years ago during 
the CCC era, we built a 650-mile-long fuelbreak along the 
length of the Sierra Nevada Mountains in California. And you 
can't find that fuelbreak at this time. It is because we built 
such an area, we did it only for fire management purposes, not 
for silviculture or to grow trees, and the likelihood of a fire 
being against that fuelbreak was almost zero. And it was so 
important to us in our fire management that we could never 
maintain it and we never chose to maintain it.
    I guess I will conclude my remarks there.
    [The prepared statement of Mr. Wakimoto follows:]

  Statement of Ronald H. Wakimoto, Professor, University of Montana, 
                 School of Forestry, Missoula, Montana

    Chairman McInnis, distinguished members of the subcommittee, it is 
a great privilege to have the opportunity to once again present 
testimony to this body. My opportunity to speak to Mrs. Chenoweth-Hage 
and Mr. Hill in Missoula last September was a memorable experience.
    I will not comment on the ``Thirty Mile'' Incident at this time. 
Many people have been speculating about fire experience, training and 
forest fuel conditions as causal factors without ever really examining 
the actual situation.
    Way back in the 1950's and 1960's the California Division of 
Forestry and the U.S. Forest Service supported studies to look at fire 
weather and fuel conditions under ``sheltered fuelbreaks.'' The term 
``sheltered'' comes about by the thinning of understory trees and 
shrubs and removal of larger trees to leave a widely spaced overstory. 
The term ``fuelbreak'' simply means a strip or wide zone of modified 
fuels. Fuelbreaks, as opposed to fire breaks, cannot stop a fire unless 
suppression personnel are present and capable of suppressing the 
surface fire moving through the fuels on the ground. ``Fire breaks,'' 
are narrow strips of bare mineral soil devoid of fuel. These were often 
jeep roads bulldozed down the middle of fuelbreaks. The studies 
indicated that any tree manipulation deemed adequate to prevent the 
movement of crown fire across the fuelbreak created conditions that 
were hotter, drier and windier that the adjacent unmodified forest. 
This is not rocket science. The spacing between the trees allowed 
greater solar heating of the surface fuels, and the increased air 
movement dried these fuels near the ground.
    Why do fire managers entertain thinning as a fuel treatment? They 
do so in hopes that a crown fire will not be sustained when it reaches 
well-spaced trees. The reduction of surface fuel decreases the 
convective energy heating of tree crowns and the spacing of the tree 
crowns limits the amount of radiation heat transfer to adjacent trees. 
If these reductions are sufficient, the fire drops to the surface. If 
this surface fire is low intensity, fire fighting personnel have a 
chance to suppress the fire. In other words, intensive surface fuel 
reduction must be combined with thinning and access for such treatments 
to be effective. Simply thinning without intensive surface fuel 
reduction will increase fire risk and potential fire behavior.
    What degree of thinning is effective? I don't think we know the 
answer to this question given the variety of site conditions, fuel 
loadings and stand structures that exist in the West. The best we can 
do are empirical ``rules of thumb'' developed from observation. Thanks 
to long term, active research by the U.S. Forest Service experiment 
station, we have a good computer-based model of surface fire. Currently 
the development of a crown fire model to test the effectiveness of 
thinning is limited, but is being enhanced currently thanks to 
Congressional action providing funding for the Joint Fire Science 
Program.
    Have we ever thinned large forested areas solely for fire 
management objectives before? How many of you have heard of the 
Ponderosa Way and Truck Trail? This was a 650-mile-long fuelbreak and 
road that spanned the length of the Sierra Nevada Mountain Range in 
California. This fuelbreak was constructed by the U.S. Forest Service 
using CCC labor during the Great Depression to do battle with the enemy 
of the forest, wildland fire. After the cheap labor force was gone it 
could not be maintained. It is now hardly visible on aerial photos. 
Once the trees are thinned, how can we afford to maintain such 
fuelbreaks? We have been there and done that! Such a strategy only 
makes sense if there are very high values-at-risk adjacent to the 
fuelbreak.
    Comments I made in the September 16, 2000, hearings are worth 
repeating here. Much of the land burned on the Bitterroot National 
Forest in Montana last year was cut-over land, where the large widely 
spaced pines had been harvested and dense understory Douglas-fir 
released to grow. Nearly all the trees that burned last year had never 
seen a fire in their lifetime. Simply thinning such stands of fir will 
not solve the fire problem. Observations indicate that stands thinned 
to less than 20 feet between tree crowns carried crown fire readily. In 
addition, severe disease problems have occurred from such thinning in 
Douglas-fir where they are the climax species. Ponderosa pine must be 
restored to such sites. Where Ponderosa pine stands exist, thinning and 
removal of much of the Douglas-fir understory is desirable. In many 
areas of the West plant succession has progressed to such a point that 
the shade tolerant understory is too large in diameter to kill with 
prescribed fire. In such places, harvesting these trees is an ideal way 
to reduce fire hazard.
    At higher elevations in forest that have historically had longer 
intervals between fires, the opportunity to mechanically thin is 
extremely limited due to lack of wind firmness. Such trees may have all 
originated from one major disturbance and need adjacent trees to help 
block the wind. Climax forests at higher elevations were seldom thinned 
by fire, so if they were to be thinned by harvest, disease problems may 
be enhanced by such actions as would blowdown. We may have to live with 
such low frequency/high intensity fire, while progressively thinning 
seral species stands adjacent to the urban/wildland interface.
    It is significant to me that the four fire fighters who lost their 
lives in Washington State were working on a fire situated in a 
``roadless area''. Hence the political posturing about fuel treatments 
and their effects on fire behavior and risk. Since 1964 and the passage 
of the Wilderness Act, the actions of Congress required two separate 
reviews and evaluations of roadless areas as candidates for wilderness 
status. Over 58 million acres of National Forest have ``roadless'' 
status. After seven administrations these lands remain in this status. 
Fire management is carried out to support the land management decisions 
that have been made. The people of this country have yet to choose, so 
I cannot support any actions in the name of fire management that would 
bypass such an important choice by the American people. The vast 
majority of the acreage is non-commercial (low productivity) and 
remote. Thinning such forested land would destroy potential wilderness 
quality and enhance flammability. I also firmly believe that such 
actions would be an incredible waste of resources, especially when I 
consider the vast acreage of the wildland/urban interface that is 
already roaded and for which many land-use decisions have already been 
made.
    Last year fire managers using well-conceived wilderness fire 
management plans combined with the federal wildland fire policy which 
allowed ``wildland fire use,'' saved the U.S. taxpayers millions of 
dollars and preserved the naturalness and wildness of wilderness. Many 
lightning-caused wilderness fires were monitored rather than actively 
suppressed which allowed suppression personnel to defend lives and 
property along the wildland/urban interface. Rather that spending 
millions of dollars and risking many lives in suppression efforts, a 
natural process was allowed to operate as freely as possible in places 
set aside for naturalness. I urge that the implementation of the 
National Fire Plan include funding for the development of fire 
management plans specifically for roadless areas. Without such plans 
there can be no wildland fire use where lightning-caused fires may be 
allowed to burn. These areas have very low timber values and high 
public value.
                                 ______
                                 
    Mr. Peterson. We will start with the gentleman from Idaho, 
Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Lewis, you heard the GAO's report, and I would assume 
that you have read--
    Mr. Peterson. Excuse me, could the gentleman pause just a 
moment? Would the GAO people come back to the table so you can 
get to a microphone? And questions will be for everybody.
    Mr. Otter. Perhaps we ought to get a wrestling ring here.
    Mr. Peterson. We have one.
    [Laughter.]
    Mr. Peterson. I apologize.
    Mr. Otter. No problem. This didn't take off my time, I 
trust.
    Mr. Peterson. We will alter that. We are starting with 3 
minutes.
    Mr. Otter. Let me begin again. Mr. Lewis, how long have you 
been with the Forest Service?
    Mr. Lewis. I have been with the Forest Service since 
January 1970.
    Mr. Otter. Of 1970?
    Mr. Lewis. Yes, sir.
    Mr. Otter. And so you have gone through quite a few 
administrations, then, haven't you?
    Mr. Lewis. I have gone through quite a few.
    Mr. Otter. And each administration has sort of a different 
attitude? Have they had demonstrably different attitudes on how 
they wanted the management and the process to take place in the 
management of the Forest Service?
    Mr. Lewis. Well, when I started out, I was down at 
Stoneville, Mississippi, as a technician, and so I have not 
been in the high-level research position but about 4 years. But 
I have been in management for about 10 to 15 years, and I see 
differences in administrations, and we work as career employees 
to serve that administration to our best ability. But I do see 
differences in them.
    Mr. Otter. So you have seen at least three administrations.
    Mr. Lewis. I have.
    Mr. Otter. And would you agree that it generally takes some 
time for them to hit the ground and get going? And do you think 
that amount of time has elapsed for the Bush administration?
    Mr. Lewis. I have worked in Washington, D.C. This is my 
second tour, and I realize that it takes time for a new team to 
come in. And that is just the way it is in management.
    Mr. Otter. So if I were to conclude that the GAO report 
that we have here today probably does indeed reflect the 
attitude of the past administration and not the present 
administration, would you agree or disagree with that?
    Mr. Lewis. That is a tough one for me to wade into. 
However, the National Fire Plan was initiated under the 
previous administration, and it is my assumption that the GAO 
used information that had been developed for quite a number of 
years.
    Mr. Otter. I don't want to use up all my time and pick on 
just you, Mr. Lewis, or subject just you to getting back to the 
office and getting summoned elsewhere. But it would seem to me 
that if this report does indeed reflect--this report doesn't 
reflect on the merits of the fire plan but on the lack of 
process to get going and lack of coordination.
    Mr. Lewis. Right, the--
    Mr. Otter. Would you agree with that?
    Mr. Lewis. Right. As I look at the report, the GAO report 
and the review period--and it covers a number of years, not 
just from January of this year until this present time--
    Mr. Otter. Thank you, Mr. Lewis.
    Mr. Hill, where does this report end? How long did it take 
you to actually write up this report? Not do all the research 
and everything else, but when does this report end?
    Mr. Hill. Well, the testimony we gave today is based on 
ongoing work that continues and will continue probably for--we 
have actually two ongoing jobs: one in the fuel reduction 
effort and one on the capacity issue, seeing how both of those 
efforts are being carried out. And we anticipate that both of 
those reports will probably be issued this fall.
    Mr. Otter. Yes, I understand that. But all I have in front 
of me today, including your testimony, is the substance of this 
report, is the ingredients right here in this report. And what 
I--maybe I ought to just ask you for your opinion. Do you 
expect--how long have you been with the GAO?
    Mr. Hill. I have been with the GAO for 31 years.
    Mr. Otter. Well, then, you have seen a couple of 
administrations as well, haven't you?
    Mr. Hill. Yes, I have.
    Mr. Otter. And don't you expect them to change from time to 
time in their manner and their focus and their value system?
    Mr. Hill. They definitely change over time.
    Mr. Otter. And do you think that we have given this present 
administration enough time? Does this reflect the present 
administration's attitude or the past?
    Mr. Hill. Let me just say it is not a matter of 
administrations. I mean, GAO's job is to basically document the 
present condition and to measure the present condition against 
what should be. And this, our testimony today, reflects the 
present condition. I think it is fair to say that the new 
administration has just taken over. A lot of the policies and 
the plans were put in place by the last administration. It 
would be unfair to judge the new administration solely based on 
the work they have done to date. We have got to give them some 
time.
    Mr. Otter. In fact--
    Mr. Hill. But may I also say that I have been around a long 
time in GAO, and on this particular issue, we have been 
watching this issue for many years. And as I said in my short 
statement, every time there is a disaster, every time there is 
a bad fire season, every time that firefighters get killed on 
the line fighting fires, there are commissions, there are task 
forces, there are groups that are put together to study what 
went wrong and to come up with solutions. And it is not a 
question that the solutions have not been identified. It is 
just a question of they have not been carried out and 
implemented. And it gets frustrating over the years.
    Mr. Otter. Well, trust me on this, Mr. Hill. It is my 
hope--in fact, my prayer--that this administration is going to 
be different.
    Thank you, Mr. Chairman.
    Mr. Peterson. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. I don't have a lot of detailed questions, and 
obviously Indiana isn't one of your risk zones, and I haven't 
had a lot of experience with it . But I found some of the 
testimony a little confusing, and I want to ask some basic 
questions.
    One is, it is unclear to me how your testimonies relate to 
the given situation as opposed to a hypothetically pure 
situation? In other words, allowing fires to burn might be fine 
were we not where we are today. But I heard through all the 
testimony some people were maintaining that, given the fact of 
where we are--I think the GAO study says that, given where we 
are, we have lots of highly flammable areas that could explode 
into major fires. I think Dr. Lewis' testimony says similar 
things, but your conclusions seem to be slightly different.
    In other words, if there is accumulation of, quite frankly, 
Forest Service efforts to suppress fire over time--I grew up 
with Smokey the Bear suggesting that we shouldn't be having 
fires and doing everything possible to avoid any risk of fire, 
and I am sure that the reason this accumulation there is 
between political and Forest Service policies that have 
determined that we weren't going to have it. Now suddenly to 
reverse that, what I saw in one of the myths that Dr. Lewis 
listed was that somehow a radical change to that policy could 
also cause problems. Yet Mr. Hill seemed to be saying that we 
have this explosive problem that we have to deal with. Is there 
a difference between your proposals?
    Mr. Lewis. Okay. I will take the first cut at that. We are 
taking the position, based on what we know from research and 
anecdotal studies, that to sit back and do nothing and continue 
the practice of the last 80, 90 years and let the biomass 
continue to accumulate would be irresponsible. If we do 
nothing, we are putting these lands at risk.
    Mr. Souder. It is suggested where you say that harvesting 
trees exacerbates fire risk is a myth, and that you also said a 
myth would be that fires should be left to burn because fire is 
a natural part of the ecosystem. It suggests to me that you 
believe that there are alternative methods to just letting a 
fire burn to thinning out.
    Mr. Lewis. We believe that the active management involves 
both thinning and prescribed fire.
    Mr. Souder. And would some of that thinning be commercial 
as well as just to practice thinning?
    Mr. Lewis. We have an objective in the thinning process, 
and that is, to restore forest health. Many of these stands are 
very unhealthy, and they are a threat and a risk to the various 
communities and also to ecosystems. There are ecological risks 
as well.
    Mr. Souder. Is there any reason that that process couldn't 
also help pay for itself?
    Mr. Lewis. That is a policy call, and from my point of 
view, there is not any reason why.
    Mr. Souder. Mr. Hill, do you agree with those statements or 
have any elaborations or disagreement?
    Mr. Hill. Well, the problem you have is that the fuel has 
been allowed to build up over a 90-, 100-year period, and it 
has gotten to the point now where when fire is introduced into 
these high-risk forests, you don't have the natural burning 
process that cleans out the undergrowth. You have these 
catastrophic fires that just wipe out the whole forest. The 
whole effort that is being directed with the National Fire Plan 
is to focus on where these high-risk areas are, and 
particularly focusing in on wildlife-urban interfaces within 
these high-risk areas, and to go in there and remove or to thin 
some of this material that is accumulating in these high-risk 
areas so that when fire is introduced, it is introduced in a 
more natural way and it won't result in the entire forest 
burning.
    So thinning is a tool that is used for that. Prescribed 
burns is a tool that is used for that. Harvesting could even be 
a tool that is used for that. It depends upon the forest we are 
dealing with. It depends upon the current condition that you 
are trying to deal with. So all these tools have to be used in 
a very thoughtful way, but, yes, they could be used to 
alleviate the problem.
    Mr. Souder. Thank you.
    Mr. Peterson. In my hand here, I have one called Western 
Forest Health Initiative. This was in 1994. And then we have 
all been talking about the Federal Wildland Fire Management 
Plan of 1995. But, in fact, isn't it true that these were just 
studies that were done, recommendations that were done, and 
they were basically ignored? They weren't implemented.
    Mr. Hill. They certainly weren't acted upon.
    Mr. Peterson. Well, I guess you would call that ignoring 
them, wouldn't you?
    Mr. Hill. I don't know. Congress threw a lot of money at 
implementing them. They just weren't acted upon properly.
    Mr. Peterson. Well, I guess it has been my--I can say this, 
you can't. But it has been my observation that the last 
administration had a wilderness philosophy that all public land 
would be wilderness, if they could have their way, and it 
wouldn't be managed in any way. And your report here in 1995 
talks about what will happen if that is allowed to happen, and 
it happened. The fires today were predicted year after year 
after year. And suddenly it came home to roost. Is that a fair 
assumption? Is that a fair assessment?
    Mr. Hill. It is an accurate statement that the problem has 
been studied, certainly in 1994 and 1995, again in 2001, and 
that it has not been effectively dealt with. That is correct.
    Mr. Peterson. Mr. Lewis?
    Mr. Lewis. Yes, we have done a number of studies, some of 
them interagency, and I would like Dr. Ryan, if he would, if he 
has any statements on that.
    Mr. Ryan. Yes, I would like to think sometimes research is 
actually in a role of leadership here. We have been doing fire 
research at the landscape level, across interagency boundaries, 
trying to understand where on the landscape you can accomplish 
the most amount of good with a fuels treatment, what should be 
the nature of that fuels treatment, first to mitigate the fire 
problem and then addressing what are the ecological 
implications of that type of treatment. So we have got, for 
example, a 15-million-acre area in southern Utah where we are 
looking at the entire landscape, using all the fire behavior 
and all the fire facts models to try to design where on that 
landscape--and that includes State lands, Park Service, Forest 
Service, BLM--trying to figure out where and how to design 
treatments on the landscape to have the maximum effectiveness 
for all the various resource values.
    I think one of the points I would like to make is that if 
the agencies have been not as forthcoming in doing some of 
these things, it is because there is a science element that 
they don't really have all the guidance from science in order 
to be able to make the good decisions on where and how. And so 
that is part of our research effort, to come up with that type 
of a knowledge system in order to support this type of fuels 
treatment.
    The ecology is a lot like politics. It is about place, and 
you have to integrate all of the interactions of that place and 
try to design a treatment for that place and for the intended 
purpose. And they are complex problems, and, you know, I think 
we are making some real headway in trying to come up with the 
tools for managers to use to turn the corner on some of these 
things.
    Mr. Peterson. So you could make the statement that in each 
region of the Forest Service it is a little bit different ball 
game. Is that fair?
    Mr. Ryan. And within region.
    Mr. Peterson. And within region.
    Mr. Ryan. As a matter of fact, if you look at a lot of our 
country, I wouldn't prescribe the same treatment on the north 
side of the same mountain as I would on the south side, because 
the historical range variation that that site developed with 
and its fire relationships are different. You have to recognize 
those differences with any treatment that you prescribe.
    Mr. Peterson. But the treatments we prescribe today with 
the potential of lawsuits, it is sometimes pretty hard to get 
to the finish line. Has that been a problem?
    Mr. Ryan. That is not a science problem. That is a policy 
problem.
    Mr. Peterson. It is not policy. It is a process problem. We 
have so allowed individual lawsuits that any one person that 
disagrees with all of your science can stop it, with not 
spending a dollar. Is that a fair assessment? I mean, that is 
how I see it today. The lawsuits in my forest areas are by 
individuals, usually very young, usually college age, quite 
often by free lawyers, donated from universities that work pro 
bono--until they win, then they get paid. So there is no cost 
investment, and they just take their philosophical views and by 
issuing a lawsuit can stop the process that you are talking 
about of adequately thinning so you could go back to prescribed 
burn.
    Mr. Cotton. May I take--
    Mr. Peterson. Sure, take a shot at it. I have been waiting 
to hear from you.
    Mr. Cotton. It is true that wherever you are going to 
propose to thin a forest before you do a prescribed burn, you 
are going to get appealed and you are likely going to get 
litigated. What I think Dr. Ryan is pointing out is the fact 
that if they in the national forest system applied the 
landscape-scale type approach that he is applying in research, 
then they would have a better scientific basis on which to 
defend their actions. But right now, I am not sure when Dr. 
Ryan's study is going to be completed or when it is going to be 
transferred and applied in the regions and in the forests. In 
the meantime, they are still planning, they are still 
budgeting, and they are still implementing on a unit-by-unit 
basis. And if they keep doing that, they are going to keep 
getting sued and they have got a darn good chance of losing.
    Mr. Lewis. Even when we have the best available science, we 
cannot guarantee that we will not get litigation. But through 
applying the best available science, we have a much better 
chance of winning and making our point. And in science, our 
role is to provide credible, objective information to the 
policymakers and to not advocate on a political view or a 
policy view or an environmental or non-environmental view, but 
state the facts as they are and deal with reality.
    Mr. Peterson. I like that, and I like many of your 
statements. But I guess the part from my background in 
Government, I don't know of any other area of Government where 
lawsuits have become the way we operate. It is the ability for 
any one person to stop anything. And if we did that in health 
care--and we are having a little bit of a debate about health 
care right now that talks about lawsuits. But if lawsuits 
determined what health care was going to move forward, what 
procedures were going to be standard, what was going to be the 
best medical practice to treat our cancers and our problems, we 
would all be dying.
    I think the root cause of many of our problems is this 
ability of any one person to stop 10 years of research from 
being implemented and the 4 or 5 years of debate in the 
Departments that are hired to manage our forests, all of their 
best policies are debated, and then one individual can have a 
lawsuit and stop it all dead in its tracks.
    In my view, the 1995 plan was not implemented. The 1994 
plan was not implemented. And now we last year saw the record 
number of fires and the greatest amount of damage anybody could 
have ever dreamed of, I guess. We have another high-fire season 
going already. But if we don't have the ability to implement, 
we are just going to continue to burn.
    Mr. Cotton. Mr. Peterson, lawsuits didn't stop the 
implementation of any of those plans. What stopped the 
implementation of those plans was the failure of these agencies 
to work effectively together.
    Mr. Peterson. So you think--you are back to that issue that 
the agencies' not working together is still one of the biggest 
detriments?
    Mr. Cotton. If they did a good job of identifying where the 
highest-risk communities are, where the Federal lands that face 
the highest risk of catastrophic wildfire are, and develop 
land-based or land-scale approaches to reducing those fuels, 
just as Dr. Lewis said, yes, you are going to get appealed and, 
yes, you are going to get litigated, but you will have the 
scientific credibility to win.
    Mr. Peterson. But is it fair to say that--I am going to 
give you a shot. Is it fair to say that agencies who don't like 
to get sued and don't like to lose are hesitating to make the 
right decisions because if the treatment has anything to do 
with cutting down trees, they are going to get sued?
    Mr. Cotton. I don't think that they are not going to 
implement a project simply because of a threat of a lawsuit, 
especially in the fact with the direction that the Congress has 
given them in identifying the highest priority areas. And I 
feel uncomfortable sitting here with scientists talking about 
science, but they are always going to be dealing with a certain 
level of scientific uncertainty. And that is where adaptive 
management comes in, where a good monitoring and evaluation 
component says what did we set out to do, what have we 
accomplished, and if we didn't accomplish what we set out to 
do, what do we need to change. And right now that is a 
component that is not part of many of these projects. There is 
no money there for monitoring, there is no money there for 
evaluation, and there is no money there to address scientific 
uncertainty.
    Mr. Lewis. Yes, I think that the agencies are working 
together in a number of areas, and we have a brand new Chief, 
Dale Bosworth, and I know him--he is not here, and I can say 
this. I am not buttering up to the boss. But he--
    Mr. Peterson. Sure you are.
    [Laughter.]
    Mr. Lewis. Right. He is definitely committed to working 
across departments in Government, and I know that for a fact. 
We also have the Joint Fire Sciences Program. It is an 
interagency science program where we are aiming at getting the 
best available science. And you are right, adaptive management 
is a very important part of this.
    Science will always uncover new evidence, new ways of doing 
thing. Mr. Chairman, just as you pointed out about treatment of 
cancer, as we get new treatments and FDA approves them, we 
implement them. And that is what we are doing here. And we 
think--I would like to look at science as having the role of 
helping policymakers create new and better visions, and also we 
have the role of helping them achieve their goals and 
aspirations. And we plan to work as hard as we can to help make 
this a success.
    Mr. Peterson. Well, I share your hope, because I do think 
this administration is going to try. But with the ability to 
sue that is there, it is going to be very difficult.
    Mr. Udall, I think you have a question. You are recognized.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I want to 
also welcome the panel and thank you for your time today.
    I did want to address some comment that Mr. Peterson made 
about wilderness areas having somehow created the problem of 
wildfire in the West. The wilderness areas take up quite a 
small percentage of public lands in the West, and if I am 
correct, the GAO did a study that suggested--and I would like 
to see if we can include it in the record--that, in fact, we 
are more at risk of wildfire on lands that have been in some 
way or another manipulated by human beings and human activity, 
for all the positive things that occur from those activities, 
than wilderness lands which have been left alone in many ways. 
I think that is an important thing to look at. That is not, 
again, to say that some wilderness areas haven't been prone to 
wildfires that have been intense and caused problems. But most 
of the fires that have occurred, from my understanding, have 
been in these areas where we have logged, where we have had 
human impacts occur.
    I will leave that for the response from the panel, if I 
could, for some written questions. But I did want to move to 
the GAO report. On page 12 of the report, the report says, ``We 
agree that the Federal land management agencies must take 
action now to resolve the wildland-urban interface problem.'' 
Are you saying--and, Mr. Hill, I would direct this to you--that 
greater emphasis should be put on our fuel reduction work in 
the interface area?
    Mr. Hill. I think that was congressionally directed when 
the money was appropriated to implement the National Fire Plan, 
and we would agree that that is the high-risk area. That is the 
area where you have people who are moving in and houses and 
structures that need to be protected, and certainly the 
wildland-urban interface areas that are located in the high-
risk areas are the areas that should be targeted, and quite 
appropriately, Congress directed the agencies to target their 
efforts.
    Mr. Udall of Colorado. If I could, that leads to another 
part of the report, and if I could quote it: ``Despite this 
directive''--the directive to the Secretaries is implied in 
that phrase--``the five Federal land management agencies 
currently do not know how many communities are at high risk of 
wildland fire, where they are located, or what it will cost to 
lower the risk. Therefore, they cannot set priorities for 
treatment or inform the Congress about how many will remain at 
high risk after the appropriated funds are expended.''
    Your maps in the context of that comment raise a question. 
Does the greater number of Southern and Eastern communities at 
risk reflect population densities or some other factor rather 
than the extent of fire risks?
    Mr. Cotton. Mr. Udall, they reflect some other factors, 
mainly the fact that neither Interior nor the Forest Service 
developed any criteria to define an interface community facing 
high risk in the vicinity of Federal lands. And it is very 
important in the Southeast that many of those lands are 
Category 1 lands, meaning that they have a low risk of 
catastrophic or severe wildfire, because they have been treated 
on a fairly regular basis. But the new money that the Congress 
gave those agencies this year was to treat the other 
communities that are facing the higher risks, that are in the 
Category 2 and Category 3 lands. So it was absolutely 
imperative for these agencies to identify those lands, identify 
the communities, and treat them. And they haven't.
    Mr. Udall of Colorado. Are those areas mostly in the West, 
would you say?
    Mr. Cotton. They are virtually all in the interior West.
    Mr. Udall of Colorado. I think that lends further 
credibility to your concerns, and strength, not that you are 
lacking for credibility--to strengthen your point of view that 
we need to create a situation where the agencies can cooperate 
more effectively.
    Mr. Cotton. To do things like define ``interface.''
    Mr. Udall of Colorado. Yes.
    One of the questions that I was left without being fully 
answered with the last panel--and it was more a function of 
time than, I think, intent on the part of the people who 
testified--was this comment that it is more expensive to treat 
in the urban-wildland interface. It seemed counterintuitive to 
me that you have access in those areas, roads, power supplies, 
citizens who know those areas, and that it would be easier to 
get in and treat those areas.
    Would you comment on the expense to treat the urban-
wildlife interface?
    Mr. Cotton. The expense is primarily the fact that you have 
to do mechanical thinning before you can burn, because if you 
don't and the fire gets away, then it will be catastrophic to 
those communities, to those residents, to those people.
    Mr. Udall of Colorado. So if I could clarify, you are 
suggesting that in those areas you first have to thin, then you 
can introduce fire. In other areas, where you have lesser 
risks, say, you can take maybe a little bit more of a chance to 
put fire back into the landscape initially and then control it 
if, in fact, you have a problem.
    Mr. Cotton. That is correct. You can do a prescribed burn.
    Mr. Udall of Colorado. I think that is one of the important 
things that this Committee, I think, understands but needs to 
remember, is that it sounds great to return fire into these 
landscapes. We all now have undergone, I think, a sea change, 
if I am not mixing metaphors, in our understanding of the 
important role that fire plays. But you can't just throw it 
into the landscape because we have so much fuel that you are 
going to get a crown fire or fires that run out of control. So 
you first have to thin; then you can bring fire back and 
hopefully our forests will return to a more natural condition.
    Mr. Cotton. That is correct.
    Mr. Udall of Colorado. Mr. Chairman, I thank you for your 
indulgence, and I would also ask unanimous consent to direct 
some additional written questions to the panelists.
    Mr. Peterson. A quick comment from Mr. Souder.
    Mr. Souder. I wanted to make sure the record reflects that 
the map that was shown earlier, if it is printed in the record 
as it was shown earlier, it almost has a reverse correlation to 
what you have been saying is the highest risk. In other words, 
where the communities, because they were self-identified 
without clear criteria by the States, that, in fact, what this 
chart shows are cities at risk; when you match it with the 
fire, it is almost, with the exception of Colorado and Utah, an 
inverse correlation.
    Mr. Cotton. That is correct.
    Mr. Souder. And so this has to be taken very lightly, if 
anybody looks at this and says these communities are at risk, 
because it has got to be overlaid with this map.
    Mr. Cotton. I certainly wouldn't fund them.
    Mr. Souder. Thank you.
    Mr. Peterson. I thank the gentleman.
    I would like to thank the panel. I think the dilemma that 
we sense here today is that we have had a multitude of plans 
that have not been implemented. We all have high hopes that 
this administration is going to get the departments working 
together and get a comprehensive plan. But we just talked about 
the areas of highest fire potential. You are going to have to 
do mechanical thinning before you do prescribed burn, and I am 
going to tell you, when you do mechanical thinning, you are 
going to get lawsuits and it is not going to happen. And 
somehow we have got to get by that issue, but I would like one 
quick comment from Mr. Hill.
    Your report says that this problem is worse than we think 
it is. Is that an accurate assessment?
    Mr. Hill. I think that was contained in the policy update, 
if I recall. We took that language directly out of Interior and 
Agriculture's own policy update. The assessment of the group of 
individuals that put that policy together basically said that 
the situation is worse than ever.
    Mr. Peterson. Well, last year we burnt 7 million acres. I 
hope sanity comes to us and we somehow get our act together and 
get beyond this.
    Thank you all very much for a very interesting discussion 
and for sharing candidly today.
    This hearing is adjourned.
    [Whereupon, at 5:35 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by John Sexton, 
President, Ecoenergy Systems, Inc., follows:]

[GRAPHIC] [TIFF OMITTED] T4282.001

[GRAPHIC] [TIFF OMITTED] T4282.002

[GRAPHIC] [TIFF OMITTED] T4282.003

[GRAPHIC] [TIFF OMITTED] T4282.004


</pre></body></html>
